<html>
<title> - BUILDING AND MAINTAINING A HEALTHY AND STRONG NASA WORKFORCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   BUILDING AND MAINTAINING A HEALTHY
                       AND STRONG NASA WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2007

                               __________

                           Serial No. 110-31

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE

35-235 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               VACANCY
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant
                            C O N T E N T S

                              May 17, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

                               Witnesses:

Ms. Toni Dawsey, Assistant Administrator, Human Capital 
  Management; Chief Human Capital Officer, National Aeronautics 
  and Space Administration (NASA)
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. John G. Stewart, National Academy of Public Administration 
  Fellow; Member, Panel on NASA Multi-sector Workforce
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. David C. Black, President Emeritus, Universities Space 
  Research Association; Adjunct Professor, Physics and Astronomy 
  Department, Rice University; Co-Chair, Committee on Issues 
  Affecting the Future of the U.S. Space Science and Engineering 
  Workforce, National Research Council, The National Academies
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    38

Dr. Lee Stone, Legislative Representative, NASA Council of IFPTE 
  Locals, International Federation of Professional and Technical 
  Engineers
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion
  Opinions on NASA's Response to National Academies' and NAPA's 
    Reports......................................................    53
  How NASA Is Achieving Workforce Goals..........................    55
  Suggested Resources for Funding NASA...........................    56
  Introduction of Mr. Feeney as Ranking Member...................    58
  Suggestions for Utilizing the Current Pool of Workers and 
    Developing a Workforce for the Future........................    60
  Future Vision for NASA.........................................    61
  Age Demographics of the NASA Workforce.........................    63
  Workforce Implementation Plan..................................    65
  Importance of In-house Scientists at NASA......................    65
  Ratio of Permanent and Nonpermanent Civil Servants.............    67

             Appendix 1: Answers to Post-Hearing Questions

Ms. Toni Dawsey, Assistant Administrator, Human Capital 
  Management; Chief Human Capital Officer, National Aeronautics 
  and Space Administration (NASA)................................    70

Mr. John G. Stewart, National Academy of Public Administration 
  Fellow; Member, Panel on NASA Multi-sector Workforce               79

Dr. David C. Black, President Emeritus, Universities Space 
  Research Association; Adjunct Professor, Physics and Astronomy 
  Department, Rice University; Co-Chair, Committee on Issues 
  Affecting the Future of the U.S. Space Science and Engineering 
  Workforce, National Research Council, The National Academies...    82

Dr. Lee Stone, Legislative Representative, NASA Council of IFPTE 
  Locals, International Federation of Professional and Technical 
  Engineers......................................................    85

             Appendix 2: Additional Material for the Record

Supplemental Information for the Record by Dr. John Stewart, 
  Academy Fellow and Member of the NASA Multi-sector Workforce 
  Panel..........................................................    92

NASA: Balancing a Multi-sector Workforce to Achieve a Healthy 
  Organization, A Report by a Panel of the National Academy of 
  Public Administration, February 2007...........................    95


      BUILDING AND MAINTAINING A HEALTHY AND STRONG NASA WORKFORCE

                              ----------                              


                         THURSDAY, MAY 17, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Building and Maintaining a Healthy

                       and Strong NASA Workforce

                         thursday, may 17, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, May 17, 2007 at 10:00 am, the House Committee on 
Science and Technology, Subcommittee on Space and Aeronautics will hold 
a hearing to examine National Aeronautics and Space Administration 
(NASA) workforce issues and the recommendations of independent review 
panels for ensuring the health and vitality of the NASA workforce in 
the 21st century. This is the first in a series of NASA workforce 
hearings. Later hearings will address Shuttle transition workforce 
issues and specific legislative proposals.

Witnesses:

    Witnesses scheduled to testify at the hearing include the 
following:

Ms. Toni Dawsey
    Assistant Administrator for Human Capital Management, NASA

Mr. John G. Stewart
    Fellow, National Academy of Public Administration, Member, NASA 
Multi-sector Workforce Panel

Dr. David Black
    Co-Chair, Committee on Meeting the Workforce Needs for the National 
Vision for Space Exploration, National Research Council

Dr. Lee Stone
    Legislative Representative, NASA Council of IFPTE Locals, 
International Federation of Professional and Technical Engineers

Background

Potential Issues
    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet>  Is NASA's Workforce Strategy the Right Approach for 
        Building the NASA Workforce?--NASA is undertaking a sizable 
        shift of programmatic activities as the Agency endeavors to 
        carry out the President's Vision for Space Exploration. 
        Specifically, NASA is in the midst of the following changes:

                  Implementing the Vision for Space Exploration;

                  Retiring the Space Shuttle by 2010;

                  Completing the International Space Station;

                  Developing the Orion Crew Exploration Vehicle (CEV) 
                and the Ares Crew Launch Vehicle (CLV);

                  Refocusing the aeronautics program;

                  Dealing with a flatter funding profile than 
                previously assumed; and

                  Encountering a growing, retirement-eligible 
                workforce.

           These changes will have a significant impact on the NASA 
        workforce in large part because the Agency has not developed a 
        human space transportation system in over 25 years. Pursuant to 
        the NASA Authorization Act of 2005, the Agency has developed a 
        Workforce Strategy to ensure that NASA possesses a workforce of 
        the appropriate size and skills to carry out its programs. 
        However, the strategy only covers the period through FY 2011. 
        Is NASA's Workforce Strategy the right approach for building 
        NASA's future workforce? How well does the strategy address the 
        two recent independent reports on NASA's workforce--the 
        National Academy of Public Administration's (NAPA) NASA: 
        Balancing a Multi-sector Workforce to Achieve a Healthy 
        Organization and the National Academies' Building a Better NASA 
        Workforce: Meeting the Workforce Needs for the National Vision 
        for Space Exploration? What, if any, gaps or shortcomings do 
        the reports identify in the Workforce Strategy, and what 
        actions does NASA plan to take in response?

        <bullet>  NASA's Workforce Strategy and Long-Term Planning--
        NASA's Strategy states that ``The workforce strategy allows 
        NASA to deal effectively with the critical issues now facing 
        the Agency, particularly a significant amount of uncovered 
        capacity [workers whose time is not allocated to projects at 
        100 percent]. . .. NASA does recognize that some future events, 
        such as the termination of the Space Shuttle Program, require 
        long-term planning. . ..'' On the other hand, the Strategy 
        notes that ``Planning is a task requiring sensitivity to 
        ongoing changes in programs, budgets, political priorities, and 
        the labor market.'' What are the underlying assumptions on 
        which the strategy was developed? Was the strategy aimed at 
        responding to near-term workforce challenges, and if so, is the 
        existing strategy sufficient for long-term planning? NASA has 
        developed a strategic plan that outlines the Agency's goals and 
        programs for the next decade. Does NASA have a workforce 
        strategy and implementation plan that supports the Agency's 
        strategic plan? How robust is the Workforce Strategy against 
        potential changes in resources and priorities that Congress or 
        a new Administration might have for NASA?

        <bullet>  Workforce Strategy and NASA's Contract Workforce--
        NASA's Workforce Strategy reflects an analysis of competencies 
        and approaches for building and strengthening the Agency's 
        18,000 civil servant workforce. However, the Agency also relies 
        on some 44,000 contractors to execute its projects. The 
        National Academies report states that ``in the short-term, NASA 
        does not possess the requisite in-house personnel with the 
        experience in human space flight systems needed to implement 
        the VSE [Vision for Space Exploration]. . .. Much of the 
        workforce on which NASA has historically relied, and will 
        continue to rely, exists outside the Agency. . .'' in industry 
        and at universities. Does NASA plan to include contractors and 
        academic researchers in its strategic workforce decisions? How 
        is NASA making long-term decisions about the number of 
        contractors it may need, at which centers, and for which 
        competencies, skill areas, and positions it will need those 
        contractors? Does NASA have the right infrastructure and in-
        house skills for managing contracts and procurements?

        <bullet>  The Pipeline of NASA Workers--NASA, like other 
        government agencies, has used hiring freezes to control the 
        size of its workforce and avoid Reductions in Force (RIFs). 
        Opportunities to bring entry level civil servants into the 
        workforce depend, in part, on attrition, buy-outs, or 
        acceptances of early-retirement offers. This practice has led 
        to a NASA workforce that is comprised of an increasing number 
        of retirement-eligible workers and an insufficient number of 
        younger workers who can rise to leadership positions in the 
        future. The National Academies report notes that NASA will 
        suffer a long-term shortage of in-house technical expertise in 
        human space flight systems if the Agency does not take steps to 
        improve the pipeline of future leaders and managers. What steps 
        is NASA taking to ensure a pipeline in its workforce? The 
        independent reports also recommend improvements to NASA's 
        mentoring, internship, cooperative education, and graduate 
        fellow programs in the interest of attracting new talent to 
        NASA. In addition, the National Academies recommends that small 
        science space flight programs be used as opportunities to train 
        younger workers and build the skills in program/project 
        management and systems engineering the Agency has says it 
        needs. Does NASA plan to make any changes to its training and 
        recruitment programs? How effective are buy-outs and early-
        retirement offers in opening positions for younger workers, and 
        how is NASA ensuring that those offers do not eliminate 
        individuals with skills that are difficult to replace?

        <bullet>  The Workforce Strategy and NASA's Aeronautics and 
        Science Programs--NASA's workforce strategy identifies a 
        moderate diminished need for Full-Time Equivalents [FTEs] in 
        space sciences, biological sciences, physical sciences, among 
        other competencies. The National Academies report recommends 
        that ``NASA should assess whether the skill levels of in-house 
        scientists at each field center are appropriate to fulfilling 
        that center's scientific leadership and service 
        responsibilities and should ensure that appropriate efforts are 
        made to maintain the scientific competency and currency of each 
        center's scientific workforce.'' How well does the strategy 
        address the need to develop and maintain healthy science and 
        aeronautics programs? Were NASA's assessments of needs in the 
        space, biological, and physical sciences based on the Agency's 
        understanding of the core capabilities needs and the number of 
        individuals that can meet those core capabilities? Or rather, 
        were NASA's assessments based on the projected resources 
        available for those disciplines in view of the Agency's other 
        priorities? Does NASA have mechanisms for assessing the 
        research and engineering capabilities needed from universities 
        to support current and potential NASA programs?

        <bullet>  Other Challenges Facing NASA's Workforce--During the 
        June 2006 Science Committee workforce hearing, a NASA official 
        testified that the Agency had reduced the problem of 
        ``uncovered capacity'' (workers whose time is not allocated to 
        projects at the 100 percent level) by two-thirds, but still 
        carried significant uncovered capacity. Furthermore, NASA had 
        instituted retraining programs to enable uncovered workers to 
        take on new tasks. What are the causes of uncovered capacity? 
        What is the status of the Agency's uncovered capacity and how 
        effective have the retraining programs been? Are NASA's 
        approaches to handling uncovered capacity adequate over the 
        long-term? NASA has reported difficulty in tracking uncovered 
        capacity and the NAPA report notes that NASA does not have a 
        transparent process for monitoring its uncovered capacity; 
        there is no accounting code or tracking of when an employee is 
        uncovered or working on tasks outside his/her competencies. 
        Does NASA plan to make any changes in response to improve its 
        monitoring of uncovered capacity?

        4<bullet>  Is ``Ten Healthy Centers'' a Good Idea?--NASA's 
        Workforce Strategy embraces the goal of maintaining a fully 
        productive workforce at all of its field centers in what it 
        calls ``Ten Healthy Centers.'' Centers have been given new 
        exploration roles but face challenges as they shift from a 
        focus on research or aeronautics, for example, to exploration 
        projects. The National Academies report notes that, ``According 
        to NASA, the immediate problem with employees whose primary 
        skills are not currently needed is most significant at the 
        three aeronautics centers (Ames, Glenn, and Langley).'' In 
        addition, these centers have been identified as carrying the 
        highest percentages of uncovered capacity. The NAPA report 
        questions ``whether the pursuit of ten healthy centers will 
        yield a healthy NASA.'' What is NASA's definition of a healthy 
        center? What are the long-term implications of the ``Ten 
        Healthy Centers'' approach?''

        <bullet>  Supporting Strategic Decisions about the NASA 
        Workforce--NASA has assessed its requirements for the 
        categories of workers the Agency needs to support its programs. 
        The Agency has used an information system--the Competency 
        Management System (CMS)--devoted to workforce planning to 
        conduct this assessment. The independent reports assert that 
        NASA needs more information for its workforce planning, 
        question the adequacy of the CMS, and recommend that NASA 
        develop models for projecting future competency and skill 
        requirements. In particular, the National Academies recommends 
        that more information is needed about the current skills, 
        experience levels and expected attrition of the center 
        workforce. Competencies and experience levels need to be 
        translated into specific positions. What is the status of the 
        CMS and does NASA plan to make any changes to CMS? Will NASA 
        workforce decisions and future planning be based on robust, 
        transparent data and analyses? What information does NASA plan 
        to acquire to support both short-term and long-term workforce 
        decisions and plans?

        <bullet>  Looking Beyond NASA to Build the Future NASA 
        Workforce--The NAPA and National Academy reports seem to 
        suggest that NASA's workforce planning would benefit from the 
        same innovation and external partnerships that make the 
        Agency's space missions so successful. The National Academies 
        state that ``the solution to NASA's workforce issues is not to 
        be found by considering NASA in isolation from the rest of the 
        aerospace ecosystem [NASA, Department of Defense, industry, and 
        universities].'' NASA should conduct workforce planning in 
        cooperation with other government agencies, industry, and 
        universities. Both independent reports recommend that NASA use 
        interagency partnerships and improve internships and 
        cooperative programs to attract new talent. The National 
        Academies recommends that NASA invest in nontraditional 
        approaches such as the Centennial Challenges program to build 
        public support and train the next generation. NAPA recommends 
        that NASA consider detailing highly skilled technical experts 
        to other agencies during periods when NASA projects do not 
        require those employees' skills. How would such interagency 
        transfers work? How open is NASA to looking beyond itself to 
        address its workforce challenges? What plans does NASA have, if 
        any, for undertaking innovative approaches to strengthen and 
        build its workforce?

BACKGROUND

    This section provides summary information on 1) NASA's current 
workforce, 2) the NASA Workforce Strategy, 3) the National Academies 
and National Academy of Public Administration's reports on NASA's 
workforce, 4) the 109th Congress, Committee on Science's hearing on 
NASA's workforce held on June 13, 2006, and 5) on the NASA Flexibility 
Act of 2004.

Current NASA Workforce Demographics

    As detailed in Attachment 1, NASA's workforce includes a total of 
18,343 civil servants (as of April 2007) and approximately 44,023 
contractors (as of April 2006). The largest numbers of civil servants 
and contractor employees are retained at Johnson Space Center, Kennedy 
Space Center, Marshall Space Flight Center, and Goddard Space Flight 
Center, respectively.

Summary of NASA's Workforce Strategy

    Pursuant to the NASA Authorization Act of 2005, NASA prepared a 
Workforce Strategy. The Strategy serves to assess and build a NASA 
workforce that can achieve the Agency's objectives for the Vision for 
Space Exploration, scientific activities, and aeronautics research. 
Specifically, the Strategy identifies the factors affecting NASA's 
workforce:

        <bullet>  Implementation of the Vision for Space Exploration

        <bullet>  Retiring of the Space Shuttle by 2010 and development 
        of the Crew Launch Vehicle and Crew Exploration Vehicle

        <bullet>  A refocusing of aeronautics research program away 
        from technology demonstration and toward long-term basic 
        research

        <bullet>  Increasing numbers of retirement-eligible workers

        <bullet>  Change to full cost management and a resulting need 
        to balance human resources with center workload and project 
        life cycles

    Elements of the Workforce Strategy include:

        <bullet>  The objective of 10 Healthy Centers that maintain a 
        workload to sustain a productive workforce.

        <bullet>  A workforce planning process that involves all levels 
        of management, including center management, and serves as a 
        central component of NASA's strategic, business, and resource 
        planning.

        <bullet>  A set of workforce planning tools including a 
        Competency Management System (CMS) to identify and monitor 
        NASA's knowledge base. According to the NASA workforce 
        strategy, ``Competencies are used to categorize the 
        capabilities of an employee, identify the knowledge 
        requirements of a position or those associated with projects 
        and programs, and forecast the Agency's workforce 
        requirements.'' In addition, a Workforce Integrated Management 
        System (WIMS) collects and manages NASA's data on the workforce 
        and competency planning.

        <bullet>  An assessment of supply and demand for specific 
        competencies in the workforce between 2006 and 2011, including 
        a projection of the number of FTEs needed at each NASA center 
        from FY 2005-FY 2011, based on expected requirements and 
        anticipated funding.

                  NASA identified, based on the assessment, 
                competencies in increasing demand: 1) program/ project 
                management; 2) systems engineering and integration, and 
                3) mission operations. Primary competencies in 
                decreasing demand are: 1) engineering and science 
                support; 2) management competencies; and 3) 
                paraprofessional business operations, among other 
                functions.

                  The Strategy discusses a problem with ``uncovered 
                capacity,'' that is, employees whose work time is not 
                allocated at 100 percent to project tasks.

        <bullet>  Identified steps for addressing the gap in required 
        competency areas, including approaches for recruiting new 
        talent and for retaining employees who possesses competencies 
        required to fulfill the Agency's objectives.

    The Workforce Strategy emphasizes the need for flexibility to 
reflect new information and changes in policies, plans, resources, and 
political situations.

Building a Better NASA Workforce: Meeting the Workforce Needs for the 
                    National Vision for Space Exploration (National 
                    Academies, 2007)

    In September 2005, NASA's Associate Administrator for Program 
Analysis and Evaluation requested that the National Academies ``study 
the long-range science and technology workforce needs of NASA and the 
larger aerospace science and engineering community to achieve the 
Vision for Space Exploration. . ..'' The report's key conclusions and 
recommendations are summarized below:

No National Shortage of Skilled Employees to Support the Vision

        <bullet>  There is ``no looming national shortage of skilled 
        scientists and engineers to implement the VSE over the long-
        term.''

        <bullet>  Low numbers of entry-level NASA workers (25-29 year 
        age range) who can build the experience necessary to implement 
        the Vision over the coming decades raise concern.

        <bullet>  The workforce that NASA has relied on in the past and 
        will continue to rely on resides outside of the Agency in 
        universities and industry. NASA will need to approach its 
        outside scientific workforce differently than its outside 
        engineering workforce, because while industry personnel can 
        move among defense, commercial aerospace, and NASA projects, 
        university research talent will be lost if NASA stops 
        supporting scientific research.

NASA Needs to Collect More Data In Order to Assess its Workforce

        <bullet>  NASA has conducted a top-down, headquarters-led 
        assessment of the Agency's needs and skills to meet its 
        workforce demands but needs to conduct a bottom-up, center-led 
        ``assessment of the current skills, experience levels, and 
        projected attrition of the workforce for each individual 
        center.''

        <bullet>  This information should be used to develop a model 
        that will allow the Agency to project the skills it needs to 
        develop as well as the competencies and experience levels NASA 
        requires. NASA should translate such competencies and 
        experience levels into specific positions and projected 
        timeframes of when each center will require those positions.

        <bullet>  NASA should also apply the model to project the mix 
        of skills that could be conducted internally or externally in 
        industry.

Increased Need for Program/Project Managers and Systems Engineers

    NASA's requirements for both internal and external scientific and 
engineering workforce share the common need for ``highly skilled 
program and project managers and systems engineers.'' Approaches for 
increasing these capabilities include:

        <bullet>  Leveraging workers with systems engineering and 
        technical experience acquired from robotic science programs for 
        human spacecraft development;

        <bullet>  Providing opportunities for junior-level workers to 
        obtain hands-on flight development experience through low-cost 
        sounding rocket, balloon, and aircraft research projects to 
        develop the program/ project management and systems engineering 
        skills that NASA needs now and in the future.

        <bullet>  Retaining existing employees with much needed 
        program/project and systems engineering skills while also 
        recruiting employees from outside the Agency that possess those 
        capabilities.

        <bullet>  Using the NASA Flexibility Act of 2004 and working 
        with Congress and the executive branch to reduce the barriers 
        that enable the flow of skilled employees between industry and 
        NASA.

NASA Should Help Train Its Future Workforce

        <bullet>  NASA should become involved in training its potential 
        workforce, because the Agency cannot rely on other government 
        agencies or external institutions to provide ``the skills that 
        are unique to the work the Agency conducts.''

        <bullet>  NASA training programs have languished and need 
        additional support and restructuring. The Graduate Student 
        Research Program (GSRP) establishes a strong link between NASA 
        and university scientists, but similar connections do not exist 
        for engineering and human exploration.

        <bullet>  NASA's Education Program could be used to fund 
        workforce programs including hands-on training opportunities in 
        suborbital programs and small mission programs such as 
        Explorers.

        <bullet>  Nontraditional means of inspiring and training the 
        future workforce such as the Centennial Challenge prizes should 
        also be considered. Many of the programs it mentions--sub-
        orbital, GSRP, and Centennial Challenges--do not require large 
        investments and will yield training benefits many times more 
        than the necessary investments.

NASA Workforce Within the Broader Context

        <bullet>  The stability of support for and funding for the 
        Vision will be important to industry's ability to attract and 
        maintain skilled and younger workers to support exploration 
        projects.

        <bullet>  NASA's workforce is not an internal matter but must 
        be considered as part of a national strategy with input from 
        national security government agencies, industry, and 
        universities.

NASA: Balancing A Multi-sector Workforce to Achieve a Healthy 
                    Organization (National Academy of Public 
                    Administration, 2007)

    In March 2006, the Senate Appropriations Subcommittee and NASA 
asked the National Academy of Public Administration to conduct a study 
on NASA's workforce that would focus on 1) the challenges of 
transitioning from the Shuttle Program to the Vision, and 2) acquiring 
the right balance within its multi-sector workforce of approximately 
18,000 civil servants and 44,000 contractors.
    Some of the NAPA study panel's specific concerns are summarized 
below:

NASA's Dedication to ``Ten Healthy Centers''

        <bullet>  The panel noted that ``NASA has not established a 
        comprehensive evaluation process to assess and monitor the 
        long-term health of each center.'' The report introduces a 
        guide for assessing the health of each center and recommends 
        that NASA's Program Analysis and Evaluation Office use the 
        guidelines to evaluate each center annually.

        <bullet>  The panel warns that ``. . .the potential danger of 
        the ten healthy centers approach is that actions intended to 
        help the struggling centers could harm the other centers. 
        Therefore, supporting all ten field installations could come at 
        the expense of NASA as an agency.'' The panel added that ``The 
        current and long-term health of the three NASA research centers 
        (Ames, Glenn, and Langley) is questionable and should be a core 
        concern of NASA headquarters.''

Multi-sector Balance

        <bullet>  The panel noted that interpretations of 
        responsibilities that are `inherently governmental,' and 
        therefore should be conducted by civil servants, differ across 
        the government. The report presents guidelines for deciding 
        whether a position should be filled with a civil servant or a 
        contractor. For decisions on civil servant hires, the report 
        introduces guidelines for determining what kind of appointment 
        should be used: tenured permanent or multi-year term.

        <bullet>  NASA's Workforce Strategy is limited to the civil 
        service workforce. It does not address the contractor personnel 
        that comprise two-thirds of the Agency's total workforce. 
        ``Although the Strategy is consistent with historical 
        approaches to civil service workforce planning, it was a narrow 
        interpretation of the Congressional mandate for a human capital 
        strategy to ensure a workforce of the appropriate size and with 
        the appropriate skills.''

        <bullet>  NASA's Competency Management System (CMS) covers only 
        civil service employees, however, NAPA notes that ``other 
        federal organizations have developed systems to capture 
        aggregate contractor competencies. In June 2006, for example, 
        the Department of National Intelligence (DNI) began to develop 
        a comprehensive competency-based inventory for its civil 
        servants and its ``embedded'' (on-site) contractors who are 
        doing core work.''

Contracting Officer Technical Representatives

        <bullet>  The NAPA panel observes that there is ``An 
        inconsistent definition of the federal acquisition workforce, 
        which often excludes and, by implication may undervalue, 
        Contracting Officer Technical Representatives (COTRs). COTRs 
        are an agency's technical link to ensure that contractors 
        deliver quality products meeting agency specifications, 
        schedules, and costs.'' ``The Panel believes that NASA must 
        have more comprehensive information regarding who its COTRs 
        are, what training they have had, what training they need, what 
        parts of their contracting work they are doing effectively and 
        timely, and what responsibilities are perhaps not getting 
        adequate attention.''

        <bullet>  The report also calls attention to a December 2005, 
        NASA Inspector General (IG) report that identified a list of 
        ``trouble areas'' relating to the contracting process, 
        including problems with the financial management system in 
        tracking contract spending; insufficient transparency in work 
        performed by subcontractors; sizable cost overruns in some NASA 
        programs, among other concerns. The IG recommended an improved 
        internal control framework, as well as establishing 
        institutional procurement officials accountable for acquisition 
        integrity.''

Centralization of Human Resources

        <bullet>  The report notes that ``Until recently, each NASA 
        center had its own tools and processes for workforce strategy 
        and planning, which made it difficult to track uncovered 
        capacity, skill mismatches, and other human capital issues and 
        take appropriate corrective actions.'' Recently NASA has moved 
        to centralize and make uniform its human resources activities 
        through its NASA Shared Service Center. ``By consolidating 
        these services, NASA intends to improve operational efficiency 
        and overall customer service and focus more on its core 
        competencies. NASA has projected annual savings of up to $6.6 
        million from NSSC, with more than 200 civil service FTE across 
        the four redirected functional areas.''

Human Resource Tools

        <bullet>  To efficiently manage the anticipated workforce 
        transitions, the NAPA report calls for workforce flexibilities, 
        including ``modified RIF rules, blanket buy-out authority with 
        a higher dollar value incentive, and limited statutory 
        authority for emergency retirement reform.''

Workplace Planning Scope

        <bullet>  The NAPA panel believes that, in light of the 
        considerable uncertainty in mission direction that NASA will 
        receive, NASA's workplace planning should expand from a one to 
        two-year to a five year horizon.

        <bullet>  The panel endorsed a recommendation from a 2005 GAO 
        report (GAO-05-230) to use scenario planning. The planning 
        should be focused and ``Identify the driving forces underlying 
        each likely scenario; Incorporate the scenarios into strategic 
        actions; Identify key events that would indicate a particular 
        scenario is unfolding; Create mechanisms to monitor the 
        environment; Make adjustments to agency strategies based on 
        environmental monitoring; and Identify and coordinate overall 
        agency competencies, schedules, and facilities across programs 
        by scenario.''

        <bullet>  NAPA learned in October 2006 that NASA's Office of 
        Human Capital Management (OHCM) is working to incorporate 
        scenario planning into the workforce planning process across 
        the five-year budget cycle.

Maintaining Core Skills

        <bullet>  Drawing upon workforce studies conducted by RAND, the 
        Panel emphasized the importance of identifying, sizing, and 
        maintaining core competencies. This process requires long-term 
        planning, and according to RAND, analysis of the demand for 
        labor at the skill level over time; understanding and 
        definition of core capabilities; and planning over the long-
        term to maintain such capabilities.

Human Capital Flexibilities

        <bullet>  The NASA Flexibility Act of 2004 enlarged NASA's 
        workforce flexibilities, yet the Panel notes ``While these 
        flexibilities are important, they are much more modest than 
        those given to the DOD and the Department of Homeland Security 
        (DHS). NASA is subject to such Title 5 requirements as 
        staffing, position classification, compensation, and 
        performance management. For example, it is not authorized to 
        implement pay-banding or performance-based compensation 
        strategies.''

        <bullet>  The panel recommends that NASA ``Pursue additional 
        statutory and regulatory authorizations to obtain other 
        flexibilities needed to strategically manage the workforce. . 
        ..'' For example, the Panel's 2005 Human Capital Flexibilities 
        report recommended that NASA be able to alter its agency's 
        career life cycle by modifying retirement rules ``to allow the 
        Agency to separate an employee eligible for optional retirement 
        if doing so would help it achieve workforce reshaping or 
        downsizing goals.''

The Competency Management System (CMS)

        <bullet>  Since 2003, NASA has used a Competency Management 
        System (CMS) to document the workforce competencies required by 
        NASA positions and possessed by NASA employees. As NASA has 
        defined it, a competency is not a role or function, but a base 
        level of knowledge relevant to the Agency's mission that 
        defines for a position what knowledge is needed and how it is 
        applied.

        <bullet>  The report notes that ``As presently constituted, CMS 
        is not always as helpful to centers at the personnel hiring 
        level because it does not track directly to positions.'' The 
        panel recommends that NASA ``Strengthen the CMS by integrating 
        it with existing budget tools. . .with a methodology for 
        translating competency surpluses and deficits into FTE needs.''

Hearing before the Subcommittee on Space and Aeronautics, Committee on 
                    Science, June 13, 2006. ``The NASA Workforce: Does 
                    NASA Have the Right Strategy and Policies to Retain 
                    and Build the Workforce It Will Need?''

    During the 109th Congress, the House Science Committee's 
Subcommittee on Space and Aeronautics examined issues related to NASA's 
workforce during a hearing held in June 13, 2006.

        <bullet>  Ms. Toni Dawsey, NASA Assistant Administrator for 
        Human Capital Management testified on NASA's workforce 
        challenges including the Agency's uncovered capacity and 
        efforts to ensure that employees with critical skills are not 
        lost during buy-outs or early retirement offers. She also 
        discussed the Agency's workforce strategy and the importance of 
        human capital tools and flexibility such as the NASA 
        Flexibility Act, cooperative education programs, and intern 
        programs in attracting new talent into the Agency.

        <bullet>  Dr. Lee Stone, Legislative Representative from IFPTE 
        and an employee of NASA Ames Research Center testified that 
        NASA does not have the right strategies or policies to build 
        the workforce it needs and that the Agency's efforts in 
        workforce planning can only provide short-term solutions. The 
        only long-term solution to building a healthy workforce is to 
        reverse the trend in budget cuts to aeronautics, science and 
        exploration programs.

        <bullet>  Dr. David Black, Co-Chair of the National Academies' 
        report on NASA's Workforce testified that, in the view of the 
        Academy committee, NASA's work is incomplete and represents a 
        top-down approach that does not properly reflect the workforce 
        needs of individual centers. He also noted that the lack of 
        support and budget for the Vision for Space Exploration affects 
        the Agency's ability to find the best and brightest employees. 
        Dr. Black noted that if NASA elects to build its workforce 
        internally rather than use outside contractors, the Agency will 
        over the next five years face a gap in expertise that cannot be 
        addressed through new hires or in-house employees.

        <bullet>  Mr. John Douglass, President, Aerospace Industries 
        Association testified that aerospace workforce is aging and 
        that industry is in the process of rebuilding its workforce for 
        the future. He spoke about the use of contractors for short-
        term projects and civil servants for basic research and 
        development efforts. Mr. Douglass testified that competition 
        for systems engineering skills among industry and other 
        government agencies is of concern. He said that the aerospace 
        industry can absorb more NASA work.

Uncovered Capacity
    Subcommittee Members probed the issue of uncovered capacity. Ms. 
Dawsey reported a total of 1000 FTEs were uncovered, which equates to 
828 employees. NASA's approach to addressing the problem is to reassign 
work to those centers with the most significant uncovered capacity and 
to retrain workers for exploration-related tasks. The union asserted 
that NASA's uncovered capacity problem had little to do with workforce 
and much to do with full cost accounting. Dr. Lee Stone testified that 
NASA managers were diverting labor funds to support hardware 
procurements, thus creating the problem in uncovered capacity.

Competency Management System (CMS)
    The IFPTE union called attention to the deficiencies in NASA's CMS 
system. The system was originally intended to include several databases 
but so far only includes one. The database in use only captures primary 
competencies and cannot reflect an employee's secondary skills. In 
addition, competencies have not been assessed and translated into 
specific positions.

Balance of In-House Civil Servants and Contractors
    The Subcommittee also examined the process for making decisions on 
NASA's use of in-house civil servants versus contractors and the 
balance between these elements of its workforce. Ms. Dawsey noted that 
the Agency was seeking guidance on this issue from the National Academy 
of Public Administration. Dr. Black suggested that NASA look beyond 
itself and consider the question with the broader aerospace and 
research community. Dr. Lee Stone referred to the Columbia Accident 
Investigation Board (CAIB) report and its cautioning on NASA's reliance 
on contractors for technical support, use of experienced managers for 
contract oversight rather than technical leadership, and use of 
inexperienced engineers for management roles.

A Funding Crisis, Not a Workforce Crisis
    Members and witnesses alike referred to the fact that NASA's 
expanding responsibilities are not being met with appropriate 
resources. As a result, the Agency will lose capabilities in science 
programs, especially life and micro-gravity sciences and astrobiology, 
which cannot be easily replaced. Insufficient funding to execute NASA's 
multiple missions does not present a strong signal to graduate students 
and young workers who might be considering NASA or NASA-related work as 
a means to build and grow their careers.

The NASA Flexibility Act of 2004 (P.L. 108-201)

    The NASA Flexibility Act of 2004 granted a range of increased 
flexibilities for strengthening NASA's workforce. Under the Act, term 
appointments could last longer, and conversion from term to permanent 
appointments was made easier. Recruitment, relocation and retention 
bonuses were increased, and redesignation bonuses were added. Authority 
was granted for hiring distinguished scholars and for critical position 
hiring. The time period for an Intergovernmental Personnel Act (IPA) 
assignment limit was increased. Travel and transportation reimbursement 
capabilities, and change of position incentives, were enlarged. Annual 
leave, and Senior Executive Service (SES), eligibilities also were 
enlarged. The maximum allowable rate of pay for NASA-excepted (NEX) 
employees was increased. A scholarship program was established.

The NASA Transition Act of 2007

    The NASA Transition Act of 2007 proposes to amend the Space Act of 
1958 and the NASA Flexibility Act of 2004. The Transition Act includes 
two new workforce management tools:

        <bullet>  Authority to offer a permanent employee an incentive 
        for voluntarily converting to a time-limited appointment; and

        <bullet>  Authority to pay the government's share of the 
        Federal Employees Health Benefits Program (FEHBP) premium for 
        employees who separate because their positions are being 
        eliminated or transferred out of the commuting area. This is 
        expected to result in a greater number of employees being 
        willing to separate voluntarily.

        <bullet>  Specific provisions of the legislation would 
        terminate in 2010.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Udall. The hearing will come to order.
    I want to welcome all our witnesses here today, and before 
I make my opening remarks, I did want to tell everybody who is 
gathered that we have got a tight schedule this morning. I 
apologize in advance. We may be disrupted 45 or 50 minutes into 
the hearing, because we have a series of votes, but we will 
move with some dispatch, because we really do want to hear from 
this distinguished panel.
    I look forward to getting your views on this important 
issue of how best to ensure that NASA will have the workforce 
that it needs to accomplish its various challenging missions. 
It is obvious that NASA's workforce is critical to the success 
of its missions, and yet, it should be equally obvious that the 
continued health and strength of NASA's workforce cannot be 
taken for granted. It needs to be nurtured, supported, and 
given the tools and resources it will need to carry out the 
complex and challenging mission that it has been asked to 
undertake in science, aeronautics, and human space flight.
    That is why I am keenly interested in hearing the findings 
and recommendations of the two recent independent assessments 
of NASA's workforce needs, as well as NASA's response to them. 
However, I envision today's hearing as only the first step in a 
continuing examination of the health of NASA's workforce by our 
subcommittee.
    In particular, I hope to have a follow-on hearing later 
this year to examine some of the particular civil service and 
contractor workforce challenges that are associated with the 
upcoming retirement of the Space Shuttle, and in addition, I 
would like the Subcommittee to review the proposed legislative 
provisions that have been provided to Congress by NASA to 
address some of these workforce challenges.
    Thus, I hope that this hearing will be one in a series of 
hearings on this topic. We owe it to both the highly talented 
NASA employees, as well as to the broader aerospace community, 
to make sure NASA and Congress get it right in attempting to 
shape NASA's future workforce.
    As I have said, and many others have acknowledged it, 
NASA's civil service workforce consists of some of this 
nation's ``best and brightest.'' In most cases, they have made 
a long-term commitment to public service. I respect them for 
that commitment, and I think that whatever workforce strategy 
NASA develops should build on the strengths that these 
individuals bring to the Agency, because if those skills are 
discarded, whether for short-term budgetary reasons, or for 
some other reason, we would find out at a later date that it is 
difficult, if not impossible to recapture skills that the 
Nation discovers it needs. And at the same time, NASA must work 
to attract and properly utilize the young men and women who 
will provide the scientific, engineering, and project 
management expertise required for NASA's future missions 
decades into the future.
    Doing all of that would be a tall order under the best of 
circumstances, and it will be doubly difficult if NASA is not 
provided resources that are equal to the missions that it has 
been asked to undertake.
    Now, I am sure Judge Hall would agree with me that money 
alone will not ensure that NASA will have the strong and vital 
workforce that it needs, but insufficient funding will undercut 
whatever workforce initiatives are put in place.
    We have got a lot to talk about today, and I want to again 
welcome our witnesses, and I am at this time honored to yield 
whatever time he deems necessary to my good friend, Congressman 
Hall, the Ranking Member of the entire Committee.
    Judge Hall.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning.
    I'd like to welcome all of our witnesses to today's hearing.
    We have a distinguished panel, and I look forward to getting your 
views on the important issue of how best to ensure that NASA will have 
the workforce it needs to accomplish its various challenging missions.
    Before I say more, however, I'd like to take a moment to 
congratulate Mr. Feeney on his selection as the new Ranking Member of 
the Subcommittee, replacing my good friend and colleague Ken Calvert, 
who has moved over the Appropriations Committee.
    Welcome Mr. Feeney, I look forward to working with you in your new 
capacity in the days and weeks ahead.
    Now it's obvious that NASA's workforce is critical to the success 
of NASA's missions.
    Yet it should be equally obvious that the continued health and 
strength of NASA's workforce cannot be taken for granted.
    It needs to be nurtured, supported, and given the tools and 
resources it will need to carry out the complex and challenging 
missions it has been asked to undertake in science, aeronautics, and 
human space flight and exploration.
    That is why I am keenly interested in hearing the findings and 
recommendations of the two recent independent assessments of NASA's 
workforce needs, as well as NASA's response to them.
    However, I envision today's hearing as only the first step in a 
continuing examination of the health of NASA's workforce by this 
subcommittee.
    In particular, I hope to have a follow-on hearing later this year 
to examine some of the particular civil service and contractor 
workforce challenges that are associated with the upcoming retirement 
of the Space Shuttle.
    In addition, I would like the Subcommittee to review the proposed 
legislative provisions that have been provided to Congress by NASA to 
address some of those workforce challenges.
    Thus, I hope that this hearing will just be one in a series of 
hearings on this topic--we owe it both to the highly talented NASA 
employees as well as to the broader aerospace community to make sure 
NASA and Congress ``get it right'' in attempting to shape NASA's future 
workforce.
    As I have said in the past, NASA's civil service workforce consists 
of some of this nation's ``best and brightest.''
    In most cases, they have made a long-term commitment to public 
service.
    I respect them for that commitment, and I think that whatever 
workforce strategy NASA develops should build on the strengths that 
those individuals bring to the Agency. . .
    . . .Because if those skills are discarded, whether for short-term 
budgetary reasons or for some other reason, we could find out at a 
later date that it is difficult if not impossible to recapture skills 
that the Nation discovers it needs.
    At the same time, NASA must work to attract and properly utilize 
the young men and women who will provide the scientific, engineering, 
and project management expertise required for NASA's future missions.
    Doing all that would be a tall order under the best of 
circumstances.
    It will be doubly difficult if NASA is not provided resources that 
are equal to the missions that it has been asked to undertake.
    Money alone will not ensure that NASA will have the strong and 
vital workforce that it needs, but insufficient funding will undercut 
whatever workforce initiatives are put in place.
    Well, we have a lot to talk about today.
    I again want to welcome our witnesses, and I look forward to your 
testimony.

    Mr. Hall. I thank you, Mr. Chairman, and I think I would be 
remiss if I didn't say I was honored to be sitting by a member 
of really a great American family, and one that has lived a 
life of public service, and the guy is so dang handsome, I ask 
unanimous consent if I could sit down there, I didn't have to 
sit by him.
    Chairman Udall. Judge Hall, you are out of order, and----
    Mr. Hall. All right, here I go. And I do thank you, Mr. 
Chairman, for holding this meeting, because I always like to 
welcome the witnesses, and thank them for coming today, because 
they are giving up their time. It takes time to get here. I 
think that I saw Mr. Stewart coming in this morning, and I 
thought he was Norm Augustine. I almost said hello, Norm, how 
are you doing. And Ms. Dawsey, good to see you again, and 
welcome, and thank you.
    NASA has a unique and interesting set of missions, and all 
of us on this committee want you to successfully accomplish the 
missions that we have laid out, and I don't think we ought to 
give any on the program that is laid out, we ought to hold what 
is laid out. We shouldn't have to take any suggestion that we 
are not in a good economy, because that wouldn't be true, and 
we don't need to start surrendering any of the gains that we 
have laid out, and that the President's vision has set out, and 
that we have accepted. We need just to carry it out and to 
follow it.
    And the workforce is so important in that. Everything that 
NASA does depends on its ability to maintain a really highly 
qualified and competent workforce, and developing the right mix 
of skills, and keeping people engaged in the challenging work, 
as budgets and program priorities change, I think, requires 
just a very continuing commitment, a commitment that I have 
noticed in NASA from the time I have been here.
    You face a number of workforce challenges over the next few 
years, including retiring the Space Shuttle in 2010, while 
simultaneously completing the International Space Station, and 
developing the new Orion Crew Exploration Vehicle and Ares 
Launch System. NASA's aeronautics program has been refocused, 
shifting away from technology demonstrations and toward long-
term basic research.
    NASA's vital science programs have faced difficult changes 
as well. Furthermore, in addition to technical, scientific, and 
engineering challenges, the Agency also faces daunting 
financial management challenges that it has been largely unable 
to address, in part because of a lack of qualified financial 
auditors and administrators, I am told.
    These pressures are unlikely to go away. In fact, they will 
almost certainly continue in the future. Things are always 
changing, that's the nature of science and technology, but the 
workforce has to adapt to these changes, and the Agency bears 
responsibility to employees and to its stakeholders including 
Congress to develop a strategy to effectively address these 
changes.
    In April of 2006, NASA released its Workforce Strategy 
document, as required by the NASA Authorization Act of 2005. 
The National Research Council and the National Academy of 
Public Administration have each reviewed NASA's strategy, and 
offered very thoughtful perspectives on it. I look forward to 
hearing from them today, and I also look forward to hearing 
from the International Federation of Professional and Technical 
Engineers.
    Workforce is so vital to NASA's mission, NASA has to 
constantly evaluate its future needs, and be ready to take 
preemptive action when necessary to ensure the right people are 
there to do exciting and challenging missions, and continue to 
accomplish extraordinary scientific discoveries.
    I look forward to hearing from you today, from the 
witnesses, and with that, I thank the Chairman, and yield back 
my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    I want to thank Chairman Udall for holding today's important 
hearing. I'd also like to welcome the witnesses, and thank them for 
coming before us today to help us better understand NASA's workforce 
challenges and the strategy to address them.
    NASA has a unique and interesting set of missions, and all of us on 
this committee want NASA to successfully accomplish the missions that 
have been laid out. Everything that NASA does depends on its ability to 
maintain a highly-qualified and competent workforce. Developing the 
right mix of skills, and keeping people engaged in challenging work as 
budgets and program priorities change, requires a continuing 
commitment.
    NASA faces a number of workforce challenges over the next few years 
including retiring the Space Shuttle in 2010 while simultaneously 
completing the International Space Station, and developing the new 
Orion Crew Exploration Vehicle and Ares launch system. NASA's 
Aeronautics programs have been refocused, shifting away from technology 
demonstrations and toward long-term basic research. NASA's vital 
Science programs have faced difficult changes as well. Furthermore, in 
addition to technical, scientific, and engineering challenges, the 
Agency also faces daunting financial management challenges that it has 
been largely unable to address in part because of a lack of qualified 
financial auditors and administrators.
    These pressures are unlikely to go away. In fact they will almost 
certainly continue in the future. Things are always changing--that's 
the nature of science and technology--but the workforce must adapt to 
the changes, and the Agency bears a responsibility to employees and its 
stakeholders, including Congress, to develop a strategy to effectively 
address the changes.
    In April 2006, NASA released its Workforce Strategy document as 
required by the NASA Authorization Act of 2005. The National Research 
Council and the National Academy of Public Administration have each 
reviewed NASA's strategy and offered thoughtful perspectives. I look 
forward to hearing from them today. I also look forward to hearing from 
the International Federation of Professional and Technical Engineers.
    The workforce is so vital to NASA's mission. NASA must constantly 
evaluate its future needs, and be ready and able to take preemptive 
actions when necessary to ensure the right people are there to do the 
exciting and challenging missions, and continue to accomplish 
extraordinary scientific discoveries.
    I look forward to hearing from today's witnesses. And with that, I 
yield back the balance of my time.

    Chairman Udall. Thank you, Judge Hall.
    At this point, if there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record, and without objection, so ordered.
    And at this time, I wanted to introduce the panel of 
witnesses, and I will introduce all of you, and then we will 
start on my left with Ms. Dawsey and her testimony, but let me 
welcome all of you again, and say a little bit about each one 
of you.
    Ms. Toni Dawsey is the NASA Assistant Administrator for 
Human Capital Management. Mr. John Stewart, next in line, is a 
Fellow at the National Academy of Public Administration, and 
was a member of its NASA Multi-sector Workforce Panel.
    Dr. David Black recently co-chaired the National Research 
Council's Committee on Meeting the Workforce Needs for the 
National Vision for Space Exploration, and we have to his left 
Dr. Lee Stone, the Legislative Representative from the 
International Federation of Professional and Technical 
Engineers, who serves on the NASA Council of IFPTE Locals.
    Welcome. I think most of you, if not all of you, are 
professionals at this. You have been in front of the Committee 
and the Subcommittee before, and you know you have five 
minutes, and then, we will turn to questions, so that we can 
further drill down into the expertise you have in your 
perspective.
    So, Ms. Dawsey, the floor is yours for five minutes.

 STATEMENT OF MS. TONI DAWSEY, ASSISTANT ADMINISTRATOR, HUMAN 
   CAPITAL MANAGEMENT; CHIEF HUMAN CAPITAL OFFICER, NATIONAL 
          AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Ms. Dawsey. Thank you Chairman and Members of the 
Subcommittee. I am pleased to appear before you today to 
discuss NASA's workforce.
    Implementing the Vision for Space Exploration clearly 
represents a great management challenge, now and for many years 
to come. In particular, the retirement of the Shuttle, the 
completion of the International Space Station, and the 
development of the multiple elements of the Constellation 
Program involve a daunting series of transitions both 
programmatic and institutional.
    The NASA Workforce Strategy submitted to Congress in April 
2006 laid the foundation for the actions the Agency must take 
to maintain the knowledgebase of the current workforce, and to 
acquire the skills necessary to accomplish NASA's mission.
    The document articulates three principles underlying our 
workforce strategy: building and sustaining ten healthy 
centers, maximizing the use of NASA's people, and evolving to a 
more flexible, scalable workforce.
    We have developed a comprehensive plan based on these 
principles, with three primary goals to implement them. The 
first goal is to understand mission requirements, both near and 
long-term. The second goal is to align the skills of the 
workforce with mission needs, and the third goal is to enable 
more effective and efficient human resources operations, 
through the delivery of comprehensive and authoritative 
workforce information.
    The first goal, understanding mission requirements, 
requires an especially strong workforce planning capability. 
Recognizing that it is critical that all levels of management 
be involved in workforce planning. In January, the Agency 
established a workforce planning governance structure, 
comprised of key agency managers, to identify workforce risks, 
and to develop joint solutions to issues as they emerge. We 
have also integrated workforce planning with the development of 
program and project budgets. With an enhanced workforce 
planning capability, NASA will be better able to determine the 
demand for and supply of individual workforce skills.
    The second goal, to align the workforce with the mission, 
requires strengthening the technical and leadership excellence 
of our employees, and reshaping the workforce to better serve 
future mission requirements. In addition, as more of our 
experienced employees reach retirement eligibility, it is 
imperative that we attract and develop new talent.
    To strengthen technical excellence, the Agency is providing 
workforce retraining and skill development through a number of 
programs designed to develop program and project managers and 
engineers to transfer knowledge across NASA, academia, 
industry, and international partners, and to ensure that 
lessons learned are captured for the next generation. In order 
to build leadership ``bench strength,'' NASA has created a 
corporate leadership framework that provides succession 
planning and executive development.
    Another challenge is to reshape the existing workforce to 
better serve current and future requirements. The use of buy-
out/early out authority to encourage voluntary attrition has 
been critical to NASA workforce reshaping. Since the start of 
Fiscal Year '04, over 1,300 employees in targeted areas of 
surplus took buy-outs or early outs. This is over one third of 
the total attrition of 3,500 during this period.
    We continue to monitor this program to ensure that 
experienced employees with needed and critical skills are not 
leaving the Agency, and that safety of the Space Shuttle or the 
International Space Station is not compromised. To replace 
normal attrition, since 2004, we have hired nearly 2,500 
employees. Of this number, 700 are recent college graduates.
    The tools provided by the NASA Flexibility Act of 2004 
continue to be vitally important to us as we reshape our 
workforce. They provide over a dozen tools that include 
enhanced recruitment, relocation, and retention bonuses, 
expanded use of term appointments, and benefits for new hires.
    In March, NASA submitted legislative proposals to provide 
the Agency with additional flexibilities that it needs to 
better implement the transition from Shuttle to Constellation. 
To effectively manage change, NASA must leverage information 
technology also to provide more responsive, reliable 
information to support decision-making. This is our third goal.
    NASA is working toward full integration of human resources 
information across the Agency. NASA also is converging business 
systems, expanding access throughout the Agency, and increasing 
tools and applications. These efforts will form a human capital 
information environment that will provide a foundation for 
total business systems integration and provide near real-time 
comprehensive information to enable an informed decision-making 
at all levels.
    The initial operating capability for this environment is 
planned for the summer of 2007, with final implementation 
during the fall of 2008. In summary, in implementing the NASA 
Workforce Strategy, NASA is positioning itself to deal 
effectively with the critical issues now facing the Agency on 
an integrated, agency-wide basis. NASA is putting in place 
approaches that not only will alleviate the Agency's current 
imbalances, but also will provide a structure that allows such 
issues to be resolved in the future, as part of a deliberate, 
systematic process.
    The foundation that NASA is building is a big picture view 
that will facilitate and institutionalize long-term planning 
and agency-level coordination.
    Thank you.
    [The prepared statement of Ms. Dawsey follows:]
                   Prepared Statement of Toni Dawsey
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss NASA's workforce.
    Implementing the President's Vision for Space Exploration clearly 
represents a great management challenge, now and for many years to 
come. In particular, the retirement of the Space Shuttle, the 
completion of the International Space Station, and the development of 
the multiple elements of the Constellation Program involve a daunting 
series of transitions both programmatic and institutional in nature. 
The issues associated with these transitions are complex and our 
planning, already well underway, will be an iterative, evolutionary 
process featuring tight integration between these efforts and NASA's 
ongoing Science and Aeronautics Programs.
    The NASA Workforce Strategy, submitted to the Congress in April 
2006, laid the foundation for the actions the Agency must take to 
maintain the knowledge base of the current workforce, as well as 
broaden, reinvigorate, and acquire new skills necessary to accomplish 
NASA's Exploration, Science and Aeronautics missions. The document 
articulates three principles underlying our workforce strategy: 
building and sustaining ten healthy Centers; maximizing the use of 
NASA's current human capital capabilities; and evolving to a more 
flexible, scalable workforce. We remain committed to these principles 
and view them as essential to mission success. Our comprehensive plan 
for managing NASA's current and future workforce is based on these 
principles, and we have developed three primary goals to implement 
them.

        <bullet>  The first goal is to understand mission requirements, 
        both near- and long-term, to enable the identification and 
        matching of needed skills to program tasks through a robust, 
        comprehensive workforce planning process.

        <bullet>  The second goal is to align the skills in the 
        workforce with mission needs by strengthening technical and 
        leadership excellence and by reshaping the existing workforce.

        <bullet>  The third goal is to enable more effective and 
        efficient human resources operations through the delivery of 
        comprehensive and authoritative workforce information for 
        decision-making through integrated human resources, financial 
        and other business support systems.

    Recently, both the National Academy of Public Administration (NAPA) 
and the National Research Council (NRC) released reports of 
recommendations for addressing our overall workforce challenges, as 
well as for addressing more specific issues relating to the 
aforementioned transitions. To a large degree, these reports confirm 
our assessments of the challenges facing us in the workforce arena and 
validate the actions that we have initiated to address the most 
critical and encompassing issues. All of the information, findings and 
recommendations contained in the reports will continue to inform 
implementation of our basic workforce strategy, and will help ensure 
that we remain focused on the key issues.
    Below, I have highlighted some of the key initiatives we've 
undertaken over the past year in support of implementing the Workforce 
Strategy through the stated goals.

Understand the Mission Requirements

Workforce Planning
    Implementation of the Vision for Space Exploration requires an 
especially strong workforce planning capability--a capability that will 
allow Centers and the Agency to identify and assess areas of workforce 
risk so that viable solutions to mitigate those risks can be developed 
and implemented.
    Recognizing that it is critical that all levels of management be 
involved in workforce planning, the Agency's first Workforce Planning 
Governance Structure was established in January 2007. The Governance 
Structure comprises key management officials from across the Agency 
who, in collaboration with the human resources community, work together 
to identify Agency workforce risks and develop solutions to workforce 
issues as soon as they emerge.
    We have also integrated and synchronized workforce planning with 
the development of program and project budgets. This new approach--
planning and integration among all levels of management--helps NASA 
determine the best application of workforce to projects as they proceed 
from formulation through development and mission operations. With an 
enhanced workforce planning capability, NASA will be better able to 
determine the demand for, and supply of, workforce skills based on 
current and projected work requirements and to identify areas of 
potential risk in matching workforce to work. This will allow more time 
to develop strategies to mitigate these risks. In addition, we've 
enhanced our ability to analyze workforce data necessary to support 
effective workforce planning. We have begun to develop measures to 
monitor multiple dimensions of workforce capability at the Centers and 
to identify areas of strengths and weaknesses.
Shuttle Workforce Transition
    With the retirement of the Shuttle in 2010, NASA will shift from 
the current primary focus on operations to one in which we develop new 
systems, with the capability for human space exploration missions to 
the Moon, on to Mars and beyond.
    These changes have significant workforce implications--for both 
civil servants and contractors. The nature of the work will change as 
we transition from Shuttle operations to research and development-
focused activities like planning, design, development, testing and 
verification for Constellation systems. This presents unique challenges 
to the Agency. NASA must retain the skills necessary to safely execute 
the remaining Shuttle missions, manage the transition of skilled 
Shuttle employees into Constellation development, and retain skills 
between FY 2010 and FY 2015 necessary to safely execute Constellation 
flight operations.
    The National Research Council noted that ``NASA has undertaken a 
commendable top-down analysis of current agency needs and the skill 
levels of its current workforce that the committee believes is an 
excellent first step'' (Finding 1). We acknowledge that more work is 
needed, though. As the Constellation Systems Requirements Reviews are 
completed this year, NASA will gain a much clearer understanding of the 
demand for future workforce skills, which will form the foundation for 
making any future decisions.
    We are engaged in many initiatives to manage this transition. We 
are striving to give our employees opportunities to build on their 
existing skills by moving appropriate work packages across the Centers 
to match resident workforce skills, by building ``virtual'' project 
teams within and across Centers, and by offering temporary details. 
Through such initiatives, many employees will be prepared to easily 
transition into new positions when the exploration systems development 
work comes on-line. We are developing a mapping of current available 
skills among the Shuttle workforce with the skills we will need for 
future work so that we can better plan and implement workforce 
reassignments. We are supporting retraining to ensure that employees 
have the skills to be successful in the new work. We are making good 
use of temporary and term appointments to get the flexibility to better 
align to the time-phased workload.
    As we work through this transition, NASA remains committed to 
working with our industry, supplier, and research partners to minimize 
disruption, upheaval, and economic impact, while maximizing support 
vital for Shuttle missions and program requirements. A Shuttle Human 
Capital Council convened recently to bring together the civil service 
and contractor Human Resources Directors to surface and address common 
workforce issues, share best practices in resolving issues, and 
strengthen the human capital network.
Workforce Flexibilities
    In March 2007, NASA submitted legislative proposals to the 
Subcommittee to provide the Agency with additional workforce 
flexibilities to better implement the transition from the Space Shuttle 
era to the new era of exploration.
    Several years ago, NASA gained important new workforce 
flexibilities through the enactment of the NASA Flexibility Act of 
2004. Those flexibilities have made a difference already, and will be 
vitally important to the Agency over the coming years in competing for 
top talent and maintaining the knowledge base of the workforce. 
However, the authorities in the NASA Flexibility Act represent, for the 
most part, tools for attracting and retaining high-quality employees. 
They do not address a different--but equally critical--human capital 
challenge: managing attrition in a strategic, effective, and 
compassionate manner. The need for attrition management tools is 
particularly important to NASA as we face the challenges associated 
with retaining Shuttle skills through completion of the Program, and 
then effectively transitioning that workforce.
    In many cases, skill misalignments can be addressed by retraining 
or reassigning the employees whose skills cannot be utilized 
effectively in their current assignments. NASA has been aggressive in 
this regard over the past several years with hundreds of people now 
productively and enthusiastically engaged in the Constellation Program. 
But not all skill misalignments can be resolved by retraining and 
redeployment. Furthermore, NASA historically has had an exceptionally 
low attrition rate, rendering reshaping of the workforce difficult and 
slow.
    As such, NASA needs to manage attrition in a targeted manner to 
achieve better alignment of the workforce with the mission without 
creating unwanted losses, skill imbalances, and disruption in the 
general workforce. But that is not the only objective. The method by 
which attrition is achieved is just as important. NASA must manage 
attrition in a way that does not demoralize the workforce, create an 
environment of uncertainty, generate a lack of trust in management, or 
stimulate the departure of the workforce the Agency needs to retain. If 
attrition is not managed in the right way, NASA's outstanding image as 
a leading employer of choice will be eroded, resulting in a long-term 
negative impact on the Agency's ability to attract and retain the 
workforce it needs.
    NASA has submitted proposals for two new workforce authorities in 
its legislative package--a conversion incentive and temporary 
continuation of coverage of health benefits--in order to manage 
attrition more effectively and strategically. The conversion incentive 
would allow the Administrator to pay a permanent employee a monetary 
incentive for voluntarily converting to a time-limited appointment. The 
purpose of this financial incentive is to offset the risk the employee 
assumes by giving up the right to continued permanent employment. The 
incentive may not exceed $25,000 or 25 percent of the employee's annual 
salary, whichever is less, for each 12-month period of service for 
which the incentive is paid. Unlike a buy-out, an employee who converts 
to a term appointment and receives the conversion incentive is not 
precluded from securing full time federal employment and retaining the 
incentive.
    This authority is particularly tailored to managing the Shuttle 
workforce. A conversion incentive serves as both an incentive for the 
employee to remain with the program to the date needed by management 
(similar to the concept of a retention incentive) while allowing 
management to plan for an orderly release of employees on a defined 
date without the need to resort to involuntary actions such as a 
reduction-in-force.
    The other workforce provision in the legislative proposals, the 
temporary continuation of coverage of health benefits, would permit 
NASA to pay the government's share of the Federal Employees Health 
Benefits premiums for certain NASA employees who elect temporary 
continuation of health benefits coverage upon separation from NASA. 
Eligible employees would be those who are separating because their 
positions are being eliminated. This provides a ``soft landing'' 
benefit to employees who desire continued health coverage while they 
seek other employment and are not otherwise eligible for the Federal 
health benefits without paying the full cost of the premiums. We 
believe that this benefit will expand the pool of employees who would 
be willing to resign voluntarily from the Agency.
Align the Workforce with the Mission
    NASA is filled with highly educated, dedicated employees at all 
levels who love what they do and are inspired by the challenging and 
exciting environment. Our current diverse workforce represents a wealth 
of skills and valuable experience. In order for the Agency to 
accomplish its aggressive mission, it is critical that this workforce 
be aligned with the mission by strengthening the technical and 
leadership excellence of our employees and by reshaping the workforce 
to better serve future mission requirements. In addition, as more of 
our experienced employees reach retirement eligibility, it is 
imperative that we attract and develop the new talent that is needed to 
implement the Agency's Exploration, Science and Aeronautics missions. 
To do so, we must create, sharpen, and use all the tools that are 
needed to enable current and future employees to support the work of 
this agency.
Technical and Leadership Excellence
    One of our challenges is to strengthen the technical and leadership 
excellence of the NASA workforce. In so doing, we have a number of 
tools at our disposal to ensure that our workforce continues to excel 
technically and that we are building ``bench strength'' in both our 
technical disciplines as well as in our leadership roles.
    To strengthen technical excellence, the Office of the Chief 
Engineer supports NASA's field centers in workforce retraining and in 
current and future workforce skill development through its Academy of 
Program/Project and Engineering Leadership (APPEL), the NASA 
Engineering Network (NEN), and the NASA Engineering Safety Center 
(NESC) Academy. These programs are designed to both develop and enhance 
the professional knowledge of NASA program/project managers and 
engineers at all career levels; to capture and transfer knowledge from 
seasoned program/project managers and engineers across NASA as well as 
from industry, academia, and international partners; and to ensure that 
lessons learned are captured for the next generation.
    In order to build leadership ``bench strength,'' we have developed 
a corporate, integrated approach to leadership development. NASA has 
created a leadership strategy which is used both agency-wide and at the 
Centers as a framework for designing and implementing leadership 
programs. This framework provides continuity through succession 
planning and executive development--creating a skilled pipeline for 
leadership within NASA. It includes a variety of components: workforce 
planning and analysis, career paths, formal agency-wide leadership 
development programs, formal and informal coaching and mentoring 
programs, and leadership training. Many of these Programs are 
supplemented by Center-level development activities. Our formal Agency-
wide programs reflect a life cycle approach to leadership development 
with programs targeting entry, mid and senior level employees as they 
prepare for leadership responsibilities.
Reshaping of the Workforce
    Another challenge is to reshape the existing workforce to better 
serve current and future requirements. This involves not only some 
reductions in aggregate workforce size, but also a build up in areas of 
greater need and reduction in areas that are surplus to evolving 
mission requirements.
    The use of buy-out/early out authority to encourage voluntary 
attrition has been critical to NASA workforce reshaping. Since the 
start of FY 2004, over 1,300 employees in targeted areas of surplus 
took buy-outs or early outs. This is over one-third of the total 
attrition of 3,500 during this period. We continue to monitor this 
program to ensure that experienced employees with needed and critical 
skills are not leaving the Agency and that the safety of the Space 
Shuttle or the International Space Station is not compromised.
    To replace normal attrition and strengthen areas with increased 
requirements, we have hired nearly 2,500 employees with a range of 
experiences and skills. Of this number, 700 are workers hired either 
directly out of colleges and universities, or shortly thereafter. NASA 
Centers make good use of programs such as the student employment 
program and the Federal Career Intern Program to recruit new talent 
into the Agency. NASA Centers have cooperative education program (co-
op) agreements in place with multiple universities. Across the Centers, 
we have maintained a constant average of 450 students participating in 
the co-op Program. These students have an opportunity to get ``hands-
on'' experience in their technical field, and to demonstrate their 
abilities on the job. The best of them are converted to entry level 
engineers, scientists and business professionals upon graduation. The 
Federal Career Intern Program also has allowed us to hire recent 
college graduates. The fact that these interns are brought in as term 
appointments, with the ability to convert them to permanent positions, 
provides additional flexibility in managing our workforce. Of the 700 
entry level hires, 400 have been outside hires and the other 300 are 
conversions from either our co-op pool or from temporary or term 
appointments.
    We are also refining our recruitment strategy by conducting more 
targeted recruitment on mission critical occupations and with under-
represented groups; working with NASA's Office of Education to enhance 
and expand student programs that can serve as a pipeline into our 
workforce; and developing partnerships and relationships that can be 
beneficial in future recruitment efforts.
    The tools provided by the NASA Flexibility Act of 2004 continue to 
be vitally important as we reshape our workforce. They provide targeted 
solutions to multiple challenges--the need to recruit new talent and 
the need to leverage the talent of the current workforce. Along with 
the government wide flexibilities, they provide over a dozen tools that 
include enhanced recruitment, relocation and retention bonuses, 
expanded use of term appointments, pay authority for critical 
positions, and enhanced travel and annual leave benefits for new hires. 
We make use of the full range of these flexibilities and find that 
combining them to create incentive packages tailored to the needs of 
specific candidates has been a particularly successful strategy.

Enable Effective and Efficient Human Resources Operations

    To effectively manage change while attending to our critical 
resource, our people, NASA must leverage information technology to 
provide more responsive, reliable information to support decision-
making.
Workforce Information Systems
    Our current human resources information systems (HRIS) environment 
is quite robust, providing automated solutions for the majority of our 
human capital programs, and providing a wealth of information to 
managers and workforce planners. NASA is working toward full 
integration of the HRIS environment and improvement of capabilities 
that will provide the full range of information required to most 
effectively manage our changing environment.
    Over the years, NASA has invested in a number of Agency-wide 
systems such as our Staffing and Recruitment System and our Competency 
Management System (CMS). CMS enables NASA to assess the demand for, and 
supply of, workforce skills based on current and projected work 
requirements. CMS captures the competencies for every civil service 
position and multiple personal competencies for each individual NASA 
employee. Management of personal competencies enables the 
identification of expertise across the Agency and provides the 
capability to integrate this information for use in planning the 
workforce.
    Competencies are the common thread that tie the elements of 
workforce management together. CMS is a relatively new system that we 
are continually working to improve. By integrating CMS with other 
workforce planning tools, we are able to not only identify the critical 
current and future competency gaps and surpluses, but we can weave that 
competency information throughout the workforce management process.
    Recognizing the almost limitless possibilities of information 
technology (IT), NASA is converging business systems, expanding access 
to managers, supervisors, and employees, and increasing the 
capabilities of tools and applications. These efforts will form a Human 
Capital Information Environment (HCIE) that will provide a foundation 
for total business systems integration, foster Agency-wide 
collaboration, provide tools and information to assist our management 
team in their strategic planning efforts, and provide near real-time 
comprehensive information to enable and inform decision-making at all 
levels.
    Developing an HCIE is the first step in instituting a fully 
integrated, strategically focused, business environment for online, 
near real-time access to reliable, comprehensive information that 
managers need for rapid and accurate decision-making. The HCIE will 
inter-operate seamlessly with NASA's financial management authoritative 
data repository (ADR), and provide dependable integrated workforce and 
financial information to all organizational elements. A common, robust 
data repository will remove the need for redundant systems because the 
ADR will furnish the wealth of information needed to meet the demands 
of this mission-driven, project-oriented Agency.
    Information will be presented through a secure, web-based workforce 
services portal accessible from the user's desktop computer, enabling 
managers to formulate workforce plans and manage employees; manage and 
plan based on workforce indicators, including competency, demographic 
and trending information; and conduct analyses and run reports using 
common and timely information. The initial operating capability for 
HCIE is planned for the summer of 2007 with final implementation during 
the Fall of 2008. The capabilities of HCIE are enormous, limited only 
by our ingenuity in identifying the boundless ways in which information 
can be woven together to drive decisions and enable success.

Summary

    In implementing the NASA Workforce Strategy and associated 
workforce management goals, NASA is positioning itself to deal 
effectively with the critical issues now facing the Agency on an 
integrated, Agency-wide basis. NASA is putting in place approaches that 
not only will alleviate the Agency's current imbalances, but also 
provide a structure that allows such issues to be resolved in the 
future as part of a deliberate, systematic process. To quote the NASA 
Administrator, ``. . .it is clear that an understanding of the broad 
issues, the big picture, is so much more influential in determining the 
ultimate success or failure of an enterprise than is the mastery of any 
given technical detail. The understanding of the organizational and 
technical interactions in our systems, emphatically including the human 
beings who are a part of them, is the present-day frontier of both 
engineering education and practice.'' The foundation that NASA is 
building is a big picture view that will facilitate and 
institutionalize long-term planning and Agency-level coordination. As 
stated in the NRC report, though, some of the issues NASA faces are 
``not unique to NASA'' and require ``a national approach'' to solve 
them. NASA plans to be in the forefront in developing such approaches.
    Last year NASA presented its Workforce Strategy which outlined the 
steps to manage the transitions associated with implementing the 
Agency's Exploration, Science and Aeronautics missions. Since then, we 
have made significant progress, with specific human capital initiatives 
aimed at three key goals: understanding mission requirements, aligning 
workforce to mission, and enabling effective and efficient human 
resources operations. The NRC and NAPA reports confirm the actions 
we've initiated, and will continue to inform further implementation of 
the Strategy.
    I would be please to respond to any questions the Subcommittee may 
have.

    Chairman Udall. Thank you, Ms. Dawsey. Mr. Stewart, five 
minutes.
    Mr. Stewart. I would be personally remiss, Mr. Chairman, if 
I didn't say how much I admired your father, and had a chance 
to work with him on occasion back in the old days, but a truly 
great, great public servant, and I am not just----
    Chairman Udall. On that note, I would put Judge Hall in 
that same category, as a great public servant, and somebody who 
has roots in that area, and Judge Hall has helped to, in his 
own way, keep that spirit alive, so----
    Mr. Hall. Mr. Chairman, would you yield?
    Chairman Udall. I would be happy to yield to my good friend 
from Texas.
    Mr. Hall. I knew Mo Udall, and I'm no Mo Udall. I would say 
this, that I learned more from Mo, my first office was directly 
across from him back 27 years ago, and I learned more from him 
the first 30 days than I had learned in the last ten years in 
the Texas Senate.
    Chairman Udall. You are out of order again twice in one 
day.

 STATEMENT OF MR. JOHN G. STEWART, NATIONAL ACADEMY OF PUBLIC 
   ADMINISTRATION FELLOW; MEMBER, PANEL ON NASA MULTI-SECTOR 
                           WORKFORCE

    Mr. Stewart. Well, anyway, I had better get going here.
    Mr. Chairman and Members of the Subcommittee, Sally Anne 
Harper, our panel chair, very much wanted to present this 
testimony. She is the Chief Administrative Officer at the 
Government Accountability Office, and her duties there this 
morning made her appearance not possible, and so they have to 
go to the bench, and I am here to stand in for Sally Anne 
Harper.
    Our panel had six major conclusions and recommendations. 
First, we said that NASA should make greater use of strategic 
planning mechanisms to position itself for programmatic and 
scheduled changes. The agency needs to adopt a longer range, 
risk-based planning strategy to anticipate and respond 
effectively to future program needs, budget shortfalls, and 
schedule revisions for its total multi-sector workforce.
    Despite declining overall budgets for aeronautics, as well 
as reductions in some scientific programs, NASA has retained 
most of its aeronautic and scientific workforce. Although many 
of these individuals can continue working on existing 
aeronautics and scientific programs, or transition to new 
programs, it is unrealistic to expect that all will be able to 
do so. Essentially, NASA needs to determine the number and type 
of employees that would constitute a critical mass for its 
aeronautics and scientific responsibilities, as well as a 
critical mass to develop the various systems needed to achieve 
the Vision for Space Exploration.
    Second, NASA must broaden its workforce planning to 
encompass its multi-sector workforce. The process should 
inventory the key components and skills available for both 
civil servants and contractor organizations, including the Jet 
Propulsion Laboratory. In the initial version of the NASA 
Workforce Plan, it dealt solely with civil servants, and we 
felt that this was an omission that needs to be acted on.
    Third, NASA must integrate its acquisition and human 
capital planning processes. This is really important. Contracts 
provide surge and long-term support capacity, as well as the 
ability to shift people and competencies as the mission 
dictates. So, NASA has made a good start at establishing a new 
acquisition process that begins with a strategic discussion of 
whether and how to contract for major programs and projects, 
but this should be further developed. Such integration will 
help NASA better understand the workforce implications of 
contracting decisions. To help facilitate this process, the 
Panel designed two rules to help managers focus on the critical 
common factors to consider in making civil service versus 
contractor decisions.
    Fourth, NASA should strengthen its human capital function, 
and use a formal process to decide when to hire a permanent 
civil servant or a term employee. As one of NASA's most 
critical internal support capabilities, human capital needs to 
be a full participant in all agency decisions, with important 
workforce implications, including high level planning for the 
total workforce. And NASA is moving in that direction, let me 
just interject, which is good. And to be effective, human 
capital professionals must have the ability to identify skill 
mismatches, promote the effective use of existing 
flexibilities, and collaborate with others to craft other 
needed flexibilities. In addition, NASA needs to be more 
strategic in how to make civil service hiring and conversion 
decisions, and we have developed a tool to assist NASA 
decision-making in these areas.
    Fifth, the Panel has concerns about the long-term health of 
NASA's research centers, and believes that the Agency should 
use a more comprehensive framework to evaluate them. The panel 
found NASA's approach to healthy centers to be people-focused, 
which to some degree is fine, but with an emphasis on fully 
funding civil servants to assist NASA in this area, the Panel 
developed a detailed 12 factor framework covering such areas as 
center's mission, program performance, civil service, 
contractor workforce, and organizational structure. This 
framework should help NASA balance changing mission 
requirements and budget constraints.
    Sixth, NASA must make maximum use of existing human capital 
flexibilities, while seeking new authorizations for necessary 
reform, and of course, the NASA Flexibility Act of 2004 gave 
NASA some flexibilities. They are being used, but not as fully 
as they could be, and we think there are some more that are 
needed.
    And more controversially, and we know this is 
controversial, the Panel believes that Congress should provide 
NASA with limited emergency authority to invoke a fully 
eligible individual's retirement to meet work restructuring 
needs, if some or all of the following criteria are met, and we 
list those criteria, and we can talk about them in the question 
period. And I want to emphasize that these statutory 
recommendations that we are making cannot be implemented by 
NASA alone. They require action by Congress and OPM in the face 
of likely political resistance. They are controversial. And let 
me just say for the record, we understand that NASA understands 
the nature of this problem. It has taken some initial steps, 
and we have made some suggestions to help them move further 
down the right road.
    Mr. Chairman, that concludes my prepared statement, and I 
will answer questions when that time comes.
    [The prepared statement of Mr. Stewart follows:]
                 Prepared Statement of John G. Stewart
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to testify today. I represent a Panel of the National 
Academy of Public Administration that recently completed, a 
comprehensive study of the workforce challenges facing the National 
Aeronautics and Space Administration (NASA). That study was done at the 
request of the Senate Appropriations Committee. As the former Staff 
Director of the Senate Science, Technology, and Space Subcommittee, I 
recognize the importance this committee attaches to addressing critical 
aeronautics and space issues.
    Also, as a former member of the NASA Aerospace Safety Advisory 
Panel, I strongly believe NASA's mission to advance space exploration, 
scientific discoveries, and aeronautics research is critical to our 
nation. Thirty-eight years after the Apollo 11 mission, NASA remains 
the only organization in the world to have landed a person on the Moon. 
Now, with the Congressionally-authorized Vision for Space Exploration, 
NASA is tasked with expanding our presence in the solar system and 
establishing a permanent human outpost on the Moon.
    Our Panel was asked to examine several critical questions:

        <bullet>  How should NASA decide whether to obtain the services 
        and products from a contractor or hire a civil servant?

        <bullet>  If NASA decides to hire a civil servant, what kind of 
        appointment should it use (tenured permanent or multi-year 
        term)?

        <bullet>  What is a healthy center? How should NASA measure it?

    In responding, we primarily focused on issues facing NASA as it 
transitions from the Shuttle program to the Vision. The Panel had six 
major conclusions and recommendations.

First, NASA should make greater use of strategic planning mechanisms to 
position itself for programmatic and schedule changes.

    The Agency needs to adopt a longer-range, risk-based planning 
strategy to anticipate and respond effectively to future program needs, 
budget shortfalls, and schedule revisions for its total multi-sector 
workforce. Despite declining overall budgets for aeronautics, as well 
as reductions in some scientific programs, NASA has retained most of 
its aeronautics and scientific workforce. Although many of these 
individuals can continue working on existing aeronautics and scientific 
programs or the transition to new programs, it is unrealistic to expect 
that all will be able to do so. Essentially, NASA needs to determine 
the number and type of employees that would constitute a critical mass 
for its aeronautics and scientific responsibilities.

Second, NASA must broaden its workforce planning to encompass its 
multi-sector workforce.

    This process should inventory the key competencies and skills 
available for both civil servants and contractor organizations. 
Although contractors constitute approximately two-thirds of NASA's 
total workforce of 58,000 employees, the Agency's April 2006 Workforce 
Strategy focused solely on its 18,000 civil servants. Many of the 
contractors--and particularly the up to 26,000 on-site contractors--
have competencies that mirror those of NASA civil servants. A broader 
workforce planning process would allow NASA to maximize organizational 
flexibility and fully leverage its workforce to meet changing demands.

Third, NASA must integrate its acquisition and human capital planning 
processes.

    Contracts provide surge and long-term support capacity as well as 
the ability to shift people and competencies as the mission dictates. 
NASA has made a good start at establishing a new acquisition process 
that begins with a strategic discussion of whether and how to contract 
for major programs and projects. But, this should be further developed. 
NASA needs to factor in how cost, safety, facility availability, 
existing expertise, and scheduling will impact agency work. Such 
integration will help NASA better understand the workforce implications 
of contracting decisions. To help facilitate this process, the Panel 
designed tools to help managers focus on critical common factors to 
consider in making civil service vs. contractor decisions.

Fourth, NASA should strengthen its human capital function and use a 
formal process to decide when to hire a permanent civil servant or a 
term employee.

    As one of NASA's most critical internal support capabilities, human 
capital needs to be a full participant in all agency decisions with 
important workforce implications, including high-level planning for the 
total workforce. And, to be effective, human capital professionals must 
have the ability to identify skill mismatches, promote the effective 
use of existing flexibilities, and collaborate with others to craft 
other needed flexibilities.
    In addition, NASA needs to be more strategic in how it makes civil 
service hiring and conversion decisions. While the Agency uses many 
short-tenure employees, each center currently has discretion to make 
its own decisions about which type of civil servant to hire, and 
conversion to permanent employment is the predominant practice for most 
NASA term hires. The Panel developed a tool to assist NASA's decision-
making in these areas.

Fifth, the Panel has concerns about the long-term health of NASA's 
research centers and believes that the Agency should use a more 
comprehensive framework to evaluate them.

    The Panel found NASA's approach to healthy centers to be people 
focused with an emphasis on fully funding civil servants. To assist 
NASA in this area, the Panel developed a detailed twelve-factor 
framework covering such areas as the center's mission, program 
performance, civil service and contractor workforce, and organizational 
structure. This framework should help NASA balance changing mission 
requirements and budget constraints. The Panel believes the ultimate 
test of the ten healthy centers approach is whether it leads to a 
healthy NASA.

Sixth, NASA must make maximum use of existing human capital 
flexibilities while seeking new authorizations for other necessary 
reforms.

    NASA has acknowledged that the significant programmatic changes 
over the past few years have created a major imbalance between the work 
the Agency plans to do and the existing workforce. In the Panel's view, 
this imbalance is NASA's most serious workforce challenge. While the 
Agency's mission and allocation of resources have been changing 
substantially, the civil service workforce has not. The Panel found 
that NASA could be more proactive in using currently available 
flexibilities by establishing a more innovative recruitment program and 
encouraging the out-placement of blocks of employees with competencies 
no longer needed.
    Also, the Panel believes that NASA should be provided a package of 
additional flexibilities. Clearly, Administrator Griffin's recent 
request for legislative authority to pay an allowance to civil servants 
who voluntarily convert to a time-limited appointment recognizes the 
significant challenges facing NASA. Among other things, the Panel 
believes that Congress should increase the monetary cap on buy-outs and 
establish a new Reduction-in-Force (RIF) framework for NASA modeled on 
the National Institute of Science and Technology's Alternative 
Personnel Management System. This new framework would allow the Agency 
to retain its highest-performing employees in critical occupations by 
enhancing the weight given to performance, narrowing the definition of 
``competitive area,'' and preventing employees from ``bumping'' or 
``retreating'' into positions for which they are poorly suited. The 
Panel also believes that OPM should grant blanket authority to NASA to 
conduct buy-outs over the next five years and to waive salary offsets 
when recruiting reemployed federal annuitants for critical areas.
    More controversially, the Panel believes that Congress should 
provide NASA with limited emergency authority to invoke a fully 
eligible individual's retirement to meet work restructuring needs if 
some or all of the following criteria are met:

        <bullet>  The employee's skills are no longer required for 
        mission accomplishment.

        <bullet>  The employee's skills are outdated or unnecessary, 
        and management determines that retraining would not be 
        practical, or the employee is unwilling to update skills.

        <bullet>  Funding for the employee's existing work is not 
        available.

        <bullet>  The employee's skills are not easily transferred to 
        other work.

    Retiring employees should be compensated fairly by being given 
severance pay in addition to earned annuities. While NASA would not 
likely use this emergency statutory authority on a broad basis, its 
availability would provide the means to secure the expertise required 
for its highly complex mission, protecting the safety and integrity of 
the space program.
    I want to emphasize that these statutory and regulatory 
recommendations cannot be implemented by NASA alone. They require 
action by Congress and OPM in the face of likely political resistance. 
However, by providing NASA with the tools to reshape its workforce, 
Congress could more easily hold NASA accountable for meeting program 
milestones in a cost-effective, timely way.
    Mr. Chairman, underlying the Panel's recommendations is the belief 
that NASA's institutional health depends on a knowledge-based, data-
driven approach to workforce utilization and management. For NASA to 
develop an optimally-sized, appropriately skilled workforce that is 
flexible and scalable, it will need to make human capital decisions 
based on the rigorous collection and analysis of data widely shared 
with stakeholders. From our work, we believe that NASA understands the 
nature of this problem. It has taken some initial steps, but more 
significant changes are needed. We believe NASA could adopt most of our 
recommendations without significant additional resources. And, the 
Panel's recommended approach would not only provide a stronger basis 
for internal agency decisions, but would also ensure that you, as 
Members of Congress, have better information decisions about annual 
appropriations and the human capital flexibilities needed to accomplish 
NASA's mission.
    Mr. Chairman, that concludes my prepared statement, and I would be 
pleased to answer any questions you or the Subcommittee Members may 
have.

    Chairman Udall. Thank you, Mr. Stewart, and Dr. Black, the 
floor is yours.

     STATEMENT OF DR. DAVID C. BLACK, PRESIDENT EMERITUS, 
  UNIVERSITIES SPACE RESEARCH ASSOCIATION; ADJUNCT PROFESSOR, 
 PHYSICS AND ASTRONOMY DEPARTMENT, RICE UNIVERSITY; CO-CHAIR, 
  COMMITTEE ON ISSUES AFFECTING THE FUTURE OF THE U.S. SPACE 
 SCIENCE AND ENGINEERING WORKFORCE, NATIONAL RESEARCH COUNCIL, 
                     THE NATIONAL ACADEMIES

    Dr. Black. Chairman Udall, Ranking Member Hall, and 
Committee Members, I appreciate the opportunity to testify 
before you today. I appear in my capacity as Co-Chair of the 
National Research Council's Committee on Issues Affecting the 
Future of the U.S. Space Science and Engineering Workforce. My 
Co-Chair of the NRC study, Professor Daniel Hastings, joins me 
today, and you can tell which one of us drew the short straw.
    Our committee found it useful to consider two distinct 
timeframes when evaluating the NASA workforce as it relates to 
NASA's implementation of the Vision for Space Exploration. 
Specifically, we looked at the next five years, and then, the 
timeframe beyond 2012. I want to highlight three aspects of our 
committee's conclusions.
    First, in the view of our committee, NASA does not 
currently have the expertise needed in-house, particularly in 
the areas of systems engineering and project management, to 
implement the Vision, nor do we feel that any amount of 
training or retraining during this timeframe will address fully 
the shortage of expertise.
    Second, we are confident that a well thought out and 
implemented training and hiring program will allow NASA to be 
well positioned in the post-2012 timeframe to implement the 
Vision. Third, the Committee feels strongly that the issues 
NASA faces are not unique to NASA. They are at the heart of any 
assessment of the Nation's aerospace technical workforce 
generally, and as such, deserve consideration on a national 
scale.
    Mr. Chairman, I would like to share a story with the 
Committee. At the end of April, after our committee presented 
its report to NASA, the Agency announced the winner of its 
Astronautic Glove Challenge. The winner was Mr. Peter Homer. 
NASA used this new and nontraditional approach to acquire a 
hardware design that will eventually improve the ability of our 
astronauts to work in space, but this is not simply a story 
about new equipment or an innovative approach to finding new 
ideas, one that our committee, in fact, endorses. It turns out 
that Mr. Homer is unemployed, and actually left the field of 
aerospace engineering many years ago to work as a sales manager 
in the computer industry.
    Indeed, this is a frequent aspect of the aerospace 
workforce, if I could have the first figure, please. This is 
some data that we got from NSF, and pertains to the year 2003. 
As you can see, of the roughly 200,000 people, that blue 
circle, currently working in the aerospace and space science 
arenas, only 40 percent of them have degrees in those areas. 
Oh, you can't see it. I can see it. I am sorry you can't see 
it.
    Chairman Udall. Dr. Black, why don't you continue, and we 
will----
    Dr. Black. I will just continue.
    Chairman Udall. And this will be included in the record, 
and we will do our best--here we go.
    Dr. Black. Very good. Thank you. The blue area, as I say, 
has roughly 200,000 people, and those are the ones currently 
working. Only 40 percent of them actually have degrees in that 
area. Another point to make here is that the NASA civil service 
workforce comprises only 10 percent of that area.
    Moreover, fully 75 percent of the people with degrees in 
aerospace and space science are not currently working in this 
area, people like Mr. Homer. The point here is that one needs 
to take care in interpreting the many numbers floating around, 
in terms of how many skilled workers truly are available for 
these kinds of activities.
    One of the main themes of our report is the need for hands-
on training for NASA's workforce, particularly in the areas 
that are key to achieving its programs on schedule and on 
budget. The Committee recognized that two skill areas are 
important not only to NASA, but to the national security space 
programs. These are systems engineering and program project 
management. Those skills cannot simply be produced in a 
classroom. They must be acquired over time. Just as a baseball 
player cannot become proficient by seeing the game explained on 
a blackboard, a systems engineer cannot become proficient at 
his job without building and integrating a spacecraft.
    But also, just as baseball players do not immediately head 
to the major leagues without first graduating from Little 
Leagues, through the farm systems, up to the majors, a systems 
engineer or program manager must also start small and gain 
experience. Unfortunately, the opportunities for gaining this 
kind of experience are missing. If you look at the following 
figure, that shows the kind of opportunities for hands-on 
experience by graduate students in earth and space sciences 
over the years, and as you can see, they have been diminishing. 
That shows both sounding rockets, airborne opportunities, 
balloons, and spacecraft, and in the aggregate, as well as each 
of the individual elements of that graph, have all been 
decreasing drastically over the years.
    In closing, I would like to return to the third aspect of 
our conclusions. My experience as a former NASA employee and as 
the president of a not-for-profit association of a hundred 
universities working with NASA is that the Agency has a 
tendency, has tended to deal with problems in relative 
isolation of other entities, a reflection of the can-do 
attitude of the Apollo era, as well as a bit of the not 
invented here syndrome. The Committee feels that NASA workforce 
issues are a microcosm of a broader set of national concerns, 
and that solutions are best sought in the context of what the 
Committee refers to as the aerospace ecosystem, shown here.
    NASA is a relatively small player in this ecosystem. As I 
said earlier, the civil service makes up only 10 percent of the 
total workforce, and it therefore seems that it would do better 
to work with other elements in defining and understanding the 
key issues, and then arriving at a solution that is in 
everyone's best interest. In this way, NASA would be able to 
leverage its concerns off of those of the larger inhabitants of 
the ecosystem.
    That concludes my remarks, Mr. Chairman, and I thank you 
for your interest in this important topic, and would be happy 
to answer any questions you have.
    [The prepared statement of Dr. Black follows:]
                  Prepared Statement of David C. Black
    Mr. Chairman, Ranking Minority Member, and Committee Members: I 
appreciate the opportunity to testify before you today. My name is 
David Black. I am President Emeritus of the Universities Space Research 
Association. I am also an Adjunct Professor in the Physics and 
Astronomy Department at Rice University. I appear today largely in my 
capacity as Co-Chair of the National Research Council (NRC)'s Committee 
on Issues Affecting the Future of the U.S. Space Science and 
Engineering Workforce. The NRC is the operating arm of the National 
Academy of Sciences, National Academy of Engineering, and the Institute 
of Medicine of the National Academies, chartered by Congress in 1863 to 
advise the government on matters of science and technology. The views 
expressed in my testimony today are primarily those expressed by the 
NRC Committee in its Final Report, as well as my own.\1\ I shall do my 
best to make clear which views are mine and which are those of the 
Committee. The latter views are fully supported by my co-chair of the 
NRC study, Dr. Daniel Hastings, Dean for Undergraduate Education and 
Professor of Aeronautics and Astronautics and Engineering Systems at 
MIT.
---------------------------------------------------------------------------
    \1\ Issues Affecting the Future of the U.S. Space Science and 
Engineering Workforce--Interim Report, The National Academies Press, 
Washington, D.C., 2006.
---------------------------------------------------------------------------
    Allow me to address the specific questions that you posed prior to 
this hearing. Your questions are indicated in bold type followed by my 
responses.

What was the scope of your recently released report on NASA's 
Workforce, and what are its major findings and recommendations?

    The NRC Committee's charge from NASA is to explore long-range 
science and technology workforce needs to achieve the Nation's long-
term space exploration vision, identify obstacles to filling those 
needs, and explore solutions for consideration by government, academia, 
and industry. The specific tasks that we have been requested to 
undertake are the following:

        1.  Assess current and projected demographics of the U.S. 
        aerospace engineering and space science workforce needed to 
        accomplish the exploration vision;

        2.  Identify factors that impact the demographics of the 
        affected workforces;

        3.  Assess NASA's list of the workforce skills that will be 
        needed to implement the Vision for Space Exploration, both 
        within the government and in industry;

        4.  Identify the skills needed to implement NASA's Vision for 
        Space Exploration within the academic community;

        5.  Assess the current workforce against projected needs;

        6.  Identify workforce gaps and analyze obstacles to responding 
        to the workforce needs, and in particular, analyze the proper 
        role of academia and the obstacles to achieving this proper 
        role; and

        7.  Develop recommendations for specific actions by the Federal 
        Government, industry, and academia to address those needs, 
        including considerations such as organizational changes, 
        recruiting and hiring practices, student programs, and existing 
        workforce training and improvement.

    The NRC Committee has drawn upon input from a workshop and 
meetings, documents provided by NASA, and our own experiences to arrive 
at the following findings and associated recommendations:

Finding 1: NASA has undertaken a commendable top-down (i.e., 
headquarters-directed) analysis of current agency needs and the skill 
levels of its current workforce that the committee believes is an 
excellent first step. But although NASA has considered workforce needs 
for the Agency as a whole, it has not yet projected its requirements 
for future hiring in terms of (1) the numbers and specific skill sets 
of workers expected to be needed by each NASA center over time and (2) 
the timeframes for hiring based on anticipated retirements of the 
present workforce. The committee believes that understanding future 
hiring requirements will depend on an accurate, detailed assessment of 
the skills, Vision for Space Exploration-related development 
capabilities, and expected attrition of the workforce for each center.

Recommendation 1: Collect detailed data on NASA workforce requirements.

    The committee recommends that NASA collect detailed data on and 
develop accurate assessments of the capabilities possessed by the 
current workforce and required for the future S&T workforce. The issue 
here is not simply ``more data,'' but data that are more to the point 
in terms of understanding the workforce issue. Examples of the type of 
data are cited below.

        <bullet>  Because each NASA center has unique mission 
        requirements and the mobility of personnel between centers is 
        limited, NASA should complete a center-developed, bottom-up 
        assessment of the current skills, experience levels, and 
        projected attrition of the workforce for each individual NASA 
        center.

        <bullet>  NASA should use the data obtained from such 
        assessments to develop a model for projecting future NASA 
        priorities for Vision for Space Exploration skill development 
        and hiring by competencies, experience levels, and centers, as 
        well as a model for the best mix of skill development conducted 
        within NASA versus within industry.

        <bullet>  NASA should translate identified workforce needs from 
        competencies and experience levels into specific positions to 
        be implemented at individual centers at specific points in 
        time.

        <bullet>  NASA should assess whether the skill levels of in-
        house scientists at each field center are appropriate to 
        fulfilling that center's scientific leadership and service 
        responsibilities and should ensure that appropriate efforts are 
        made to maintain the scientific competency and currency of each 
        center's scientific workforce.

        <bullet>  NASA should ensure that hiring constraints such as 
        pay levels, personnel ceilings, and ability to recruit suitable 
        candidates guide make-or-buy decisions about how staffing needs 
        will be met.

        <bullet>  NASA should ensure that appropriate workforce 
        strategies?including providing training for staff (e.g., 
        through the NASA Academy of Program/Project and Engineering 
        Leadership program), contracting out work to industry and 
        academia, facilitating exchange programs, and hiring temporary 
        contract and term employees are applied at each center.

    The committee believes that it is premature to recommend a 
particular mix of strategies for obtaining the desired worker skill mix 
until NASA fully defines its staffing needs. NASA is moving to collect 
the data necessary to help them make these capability assessments. 
Since NASA is in the Vision for Space Exploration for the long-term, 
NASA will need to establish a systematic process for monitoring and 
updating its workforce needs.

Finding 2: In the short-term, NASA has too few program and project 
managers and systems engineers with the requisite experience in human 
space flight systems development to successfully oversee Vision for 
Space Exploration projects. Given the lack of detailed data on NASA's 
near-term workforce skills and needs as well as uncertainties over 
NASA's budget, the committee did not attempt to assess the likely 
success of NASA's planned steps to address near-term workforce 
problems.

Recommendation 2: Hire and retain younger workers within NASA.

    The committee recommends that NASA implement a long-term strategy 
for hiring a steady supply of younger workers and subsequently 
retaining those workers as they rise to senior management positions so 
that a balanced distribution of age and skill is maintained throughout 
the Agency's entire workforce.

        <bullet>  NASA should take full advantage of the NASA 
        Flexibility Act of 2004, which was passed to facilitate the 
        Agency's recruitment of employees from industry. NASA has 
        already utilized the act to a considerable extent, and the 
        committee encourages the Agency to continue to do so, as well 
        as to inform Congress of any additional hiring flexibility that 
        is required.

        <bullet>  NASA, working with Congress and the executive branch, 
        should develop solutions to legal problems that limit the flow 
        of senior and highly skilled employees from industry to NASA 
        even when such employees are willing to accept lower salaries. 
        Issues regarding share holding, pensions, and perceived or 
        actual conflicts of interest severely hamper personnel 
        exchanges between industry and NASA. These problems stem from 
        policy issues that cannot be resolved by NASA alone but instead 
        require action by Congress and the executive branch working in 
        concert with NASA.

Finding 3: NASA's workforce requirements and challenges cannot be 
considered in isolation from those of other government and industry 
organizations. NASA is part of an aerospace workforce ecosystem in 
which the health and needs of one organization or sector can affect 
another. Thus, NASA's workforce issues require the intervention and 
assistance of higher-level government organizations such as the Office 
of Science and Technology Policy in the Executive Office of the 
President.

Recommendation 3: Ensure a coordinated national strategy for aerospace 
workforce development among relevant institutions.

    The committee recommends that representatives from relevant 
government agencies, the aerospace industry, including the emerging 
private sector, and the academic community work together to develop a 
coordinated national strategy to ensure an effective aerospace 
workforce ecosystem. When NASA is using only approximately 10 percent 
of the workers in the aerospace workforce, it must think about its 
needs in the context of agencies and actors who have much larger needs.

Finding 4: There is a longstanding, widely recognized requirement for 
more highly skilled program and project managers and systems engineers 
who have acquired substantial experience in space systems development. 
Although the need exists across all of NASA and the aerospace industry, 
it seems particularly acute for human space flight systems because of 
the long periods between initiation of new programs (i.e., the Space 
Shuttle program in the 1970s and the Constellation program 30 years 
later). NASA training programs are addressing some of the Agency's 
requirements in this experience base, but the current requirement for a 
strong base of highly skilled program and project management and 
systems engineering personnel, and limited opportunities for junior 
specialists to gain hands-on space project experience, remain 
impediments to NASA's ability to successfully carry out Vision for 
Space Exploration programs and projects.

Recommendation 4: Provide hands-on training opportunities for NASA 
workers.

    The committee recommends that NASA place a high priority on 
recruiting, training, and retaining skilled program and project 
managers and systems engineers and that it provide the hands-on 
training and development opportunities for younger and junior personnel 
required to establish and maintain the necessary capabilities in these 
disciplines. Specific and immediate actions to be taken by NASA and 
other parts of the Federal Government include the following:

        <bullet>  In establishing its strategy for meeting Vision for 
        Space Exploration systems engineering needs, NASA should 
        determine the right balance between in-house and out-of-house 
        work and contractor roles and responsibilities, including the 
        use of support service contractors.

        <bullet>  NASA should continue and also expand its current 
        employee training programs such as those being conducted by the 
        Academy of Program/Project and Engineering Leadership (APPEL). 
        To facilitate the development of key systems engineering and 
        project management skills, NASA should increase the number of 
        opportunities for entry-level employees to be involved in 
        hands-on flight and end-to-end development programs. A variety 
        of programs--including those involving balloons, sounding 
        rockets, aircraft-based research, small satellites, and so on--
        can be used to give these employees critical experience 
        relatively early in their careers and allow them to contribute 
        as systems engineers and program managers more quickly.

    System Engineering is a discipline and skill that can be partially 
taught and also has an important component of learning from 
experiences. It is much easier to learn on small projects where 
mistakes can be made and recovery is possible than from large projects 
where recovery might not be possible.

Finding 5: NASA relies on a highly trained technical workforce to 
achieve its goals and has long accepted a responsibility for supporting 
the training of those who are potential employees. In recent years, 
however, training for students has been less well supported by NASA. A 
robust and stable commitment to creating opportunities at the 
university level for experience in hands-on flight mission development, 
graduate research fellowships for science and engineering students, and 
research is essential for recruiting and developing the long-term 
supply of competent workers necessary to implement NASA's future 
programs.

        <bullet>  Faculty research not only is fundamental to student 
        training but also leads to the development of new technology 
        and tools for future applications in space. Programs supporting 
        critical scientific and technological expertise are highly 
        desirable.

        <bullet>  Hands-on experience for students is provided by sub-
        orbital programs, Explorer and other small spacecraft missions, 
        and design competitions, all of which rely on continuing NASA 
        support.

        <bullet>  The Graduate Student Researchers Program supports the 
        education and training of prospective NASA employees and 
        deserves augmented support.

        <bullet>  Undergraduate and graduate co-op student programs are 
        particularly effective in giving students early hands-on 
        experience and in exposing students and NASA to each other to 
        help enable sound career choices and hiring decisions.

Recommendation 5: Support university programs and provide hands-on 
opportunities at the college level.

    The committee recommends that NASA make workforce-related programs 
such as the Graduate Student Researchers Program and co-op programs a 
high priority within its education budget. NASA should also invest in 
the future workforce by partnering with universities to provide hands-
on experiences for students and opportunities for fundamental 
scientific and engineering research specific to NASA's needs. These 
experiences should include significant numbers of opportunities to 
participate in all aspects of sub-orbital and Explorer-class flight 
programs and in research fellowships and co-op student assignments.

Finding 6: Although NASA's primary role is not education or outreach, 
improved support of the higher education community and of young 
professionals is critical to maintaining a sufficiently talented 
workforce. Involvement in providing development and educational 
opportunities, especially hands-on flight and vehicle development 
opportunities, will pay future dividends not only by encouraging larger 
numbers of talented students to enter the field, but also by improving 
the abilities of incoming employees. Indeed, a failure to invest in 
today's students and young professionals will ultimately lead to a 
crisis when that generation is expected to assume the mantle of 
leadership within the U.S. aerospace community.

Recommendation 6: Support involvement in suborbital programs and 
nontraditional approaches to developing skills.

    The committee recommends that NASA increase its investment in 
proven programs such as sounding rocket launches, aircraft-based 
research, and high-altitude balloon campaigns, which provide ample 
opportunities for hands-on flight development experience at a 
relatively low cost of failure. Rather than viewing sounding rockets, 
aircraft-based research, and balloon programs simply as low-cost, 
competed, scientific missions, NASA should also recognize as an equal 
factor in the criteria for their selection their ability to provide 
valuable hands-on experience for its younger workers and should 
investigate the possibility of funding such programs through its 
education budget. In addition, NASA should take advantage of 
nontraditional institutions and approaches both to inspire and to train 
potential future employees. Investment in programs such as Centennial 
Challenge prizes and other innovative methods has the potential to pay 
benefits many times greater than their cost, by simultaneously 
increasing NASA's public visibility, training a new generation of 
workers, and pushing the technology envelope.
    Strategic planning for workforce issues is difficult because budget 
and program decisions often have major impacts on the workforce that 
make strategic planning irrelevant. The committee heard from industry 
representatives who stated that NASA's ability to attract junior-level 
personnel and retain senior personnel would be heavily influenced by 
perceptions about how compelling and stably funded the Vision for Space 
Exploration is. The committee thus believes that NASA must adopt 
policies that, while relatively inexpensive, can have a longer-term 
impact on its ability to obtain the highest-quality personnel. The 
development of the right people is as important as the development of 
the right hardware. NASA policies must recognize and reflect this 
attention.

Which issues, according to the report, present the most serious 
challenges to building and maintaining a healthy and strong NASA 
workforce?

    The major challenges identified by the Committee are a) conducting 
programs on time scales that are better matched to those of the 
emerging labor market and for the near future, up to roughly five years 
from the present, and b) finding ways to tap the broad and deep 
experience base in key job areas that currently exist outside of the 
Agency. Allow me to expand on both of these points.
    The Committee received input from university professors who 
observed that people in today's young to middle-age labor market are 
more focused on short-term success and are more mobile than were their 
counterparts of the Apollo era. They are attracted to careers where 
measurable progress of both a personal and professional nature takes 
place over five to ten years, as contrasted with decades. The vast 
majority of current and recent large scale and therefore highly visible 
NASA programs, be they robotic or human space flight, are of the latter 
variety. For example, it took nearly three decades of planning, 
replanning and redesigning before the remarkably successful Spitzer 
telescope was launched. It has been over 23 years since President 
Reagan charged NASA with building and operating a space station, and 
the end of that journey remains far in the future. These examples are 
typical of current NASA programs. Perhaps just as telling is that this 
trend appears to be true also for the Vision. The projected 
availability of the two key hardware components of the Vision is 
slipping for a number of reasons.
    The Committee's discussions with members of the academic community 
revealed that most are unwilling to urge their best students to pursue 
a career with NASA or NASA-related programs. Moreover, given the 
propensity of younger members of the aerospace workforce to seek 
shorter-term gratification, they are looking to other professions such 
as bio-related fields, or economics, as their first choice rather than 
the Nation's space program. This represents rational choices given the 
potential returns and the perceptions of involvement in programs that 
might take a long time to come to fruition.
    The Committee found that pay scales for entry to mid-range 
professionals at NASA are generally comparable, or even better, than in 
competing job sectors. This is generally not the case for the more 
senior members of the aerospace workforce. The drawn out nature of 
NASA's current programs, coupled with the pay discrepancy, is a major 
cause for the drain of experienced workers from the Agency. Additional 
barriers in bringing experienced people back to NASA are found in 
conflict of interest issues and the need for these individuals to 
divest themselves of the financial returns that took them to industry 
in the first place. This tends to make these opportunities most 
attractive to people who are retiring from industry.

How well does NASA's Workforce Strategy address the findings and 
recommendations contained in your report?

    The Committee applauds NASA's early efforts at developing a 
strategy for workforce development, but feels that it needs substantial 
work on several fronts. This strategy is based fundamentally on the 
notion of maintaining ten healthy centers. While such an approach is 
understandable from a purely political perspective, I am concerned that 
it runs great risk that it becomes essentially a jobs program with work 
being sent to centers that are not necessarily staffed to do the jobs. 
If there were complete mobility in the civil service workforce, NASA 
might be able to make this approach viable, but that mobility does not 
exist.
    The NASA Workforce Strategy does recognize many of the key 
challenges that NASA faces, but the Committee is concerned that the 
NASA strategy views its workforce issues in isolation of what the 
Committee has dubbed the ``aerospace workforce ecosystem.'' The 
workforce problems that NASA faces are a microcosm of a broader 
national problem, one that faces academia, industry and other 
government entities, and it is the view of the Committee that all 
parties would be best served by seeking a national solution to these 
problems. This approach would yield a more stable long-term solution 
for NASA and the Nation's aerospace workforce as a whole. This may take 
a cultural shift on the part of NASA and its centers. Data provided to 
the Committee by NSF from 2003 reveals that fully 75 percent of the 
workforce with a degree in aeronautics and space science-related fields 
does not currently work in those fields (Figure 1). The workforce is 
potentially available, but needs revectoring.

Given that NASA is a multi-mission agency, how de we ensure that core 
competencies are maintained in each of NASA's core missions?

    The fundamental issue facing NASA in its efforts to maintain core 
competency in the short-term is its shortage of qualified experienced 
personnel in key areas such as systems engineers and project managers. 
The Committee feels that training or retraining of existing staff 
cannot meet this shortage in the near-term. There are too few 
opportunities to gain the needed experience, particularly in the human 
space flight regime to provide the number of needed experienced staff. 
Viewed from a longer-term perspective, say the time frame from 2012 and 
beyond, a well conceived and implemented set of training programs and 
opportunities could provide the necessary core of skilled workforce. 
This may mean looking to the full aerospace workforce ecosystem as a 
means to provide adequate hands-on training opportunities, not just 
NASA missions.
    NASA is a relatively small player in the aerospace workforce 
ecosystem from a pure numbers perspective. For this reason, and others, 
the Committee encourages NASA to look for opportunities to leverage its 
efforts with those of the DOD, industry, and the academic community to 
identify existing programs that could provide opportunities, as well as 
work in a coordinated manner to develop new programs to accomplish this 
vital training.

Which of the recommendations do you believe NASA could readily adopt 
(i.e., that do not require significant resources or disruption in 
business processes), and which do you think will be the most difficult 
to implement?

    A strong finding from the Committee's work is that meaningful 
opportunities for hands-on training, an end-to-end involvement in doing 
space projects, has been a declining element of NASA's portfolio for 
several years (see Figure 2). The programs that are most effective in 
providing the experience that is needed are the low cost suborbital 
programs, such as sounding rockets and balloon programs. Relatively low 
cost space missions such as the small end of the Explorer line are also 
of value here, but they do not provide the opportunity to reach as many 
students as do the sub-orbital programs. Reaching students and workers 
when they are younger, and potentially more open to career paths is 
important.
    Increasing efforts in the suborbital programs, particularly if 
paired with other entities with a vested interest in seeing skilled 
workers developed, would cost relatively little and could begin to show 
dividends on a time scale that is short compared to other similar 
training opportunities. The Committee feels that use of NASA 
educational funding, along with joint funding from other entities, 
could be brought to bear in this area. Emphasizing workforce 
development as a major factor in proposal competition for such 
programs, as distinct from a focus purely on the scientific return is 
also encouraged by the Committee. This would bring an explicitly 
strategic view to the funding of these opportunities.

Which issues related to NASA's workforce are least well understood and 
what recommendations does your report offer for addressing those 
uncertainties?

    An oft-used exemplar for NASA's workforce is a plot of the age 
distribution. Two aspects of this distribution are usually mentioned; 
that the age of the peak has been steadily increasing over the past 
several years, and that those members at the upper end of the 
distribution will soon be retirement eligible. While it is the case 
that there has been an aging of the workforce distribution, a 
comparison with the other aerospace workforce sectors shows that NASA's 
workforce is not significantly different than the aerospace workforce 
generally (Figure 3).
    The Committee would emphasize several points regarding this 
characterization of the NASA workforce. It does not capture a key 
aspect of the workforce, viz., the experience associated with the 
bodies that are represented in the data, and as the Committee has 
emphasized it is the lack of experienced personnel that lies at the 
heart of NASA's workforce issues. Moreover, the Committee was unable to 
find evidence that NASA, or anyone else for that matter, was able to 
say what the ``right'' distribution should be for an employer with 
NASA's needs and challenges. A key element here is how one can model 
this distribution so as to understand the ``sources and sinks'' that 
alter the distribution, understand the time scales over which those 
sources and sinks operate and hence alter the distribution. The 
Committee feels that any strategic plan that NASA develops for 
workforce development must include an effort to model and ultimately 
understand the dynamics of its workforce age distribution. The 
Committee was not able to conduct an extensive search for people or 
organizations that do, or could do, this type of analysis, but it seems 
clear that it lies outside of NASA, most probably in the academic 
community. We would strongly encourage studies in this area. We would 
also encourage NASA to periodically reevaluate its model and update its 
data both for the results and as a way of keeping focus on these 
critical workforce concerns.
    In closing my prepared remarks Mr. Chairman, I would reiterate that 
the NRC Committee feels strongly that NASA needs to look outside of 
itself in assessing the nature, scope, and possible solutions for its 
skill mix. NASA has historically been a ``can-do'' agency, but also one 
afflicted to some extent with the ``not invented here'' syndrome. The 
issues NASA faces in terms of workforce are national in character; they 
reverberate through other government agencies involved in space-related 
work, as well as the private sector including universities. NASA should 
not, in our Committee's view, try to structure a solution in isolation 
from consultation with the broader set of communities noted above. I 
believe I can speak for many people in saying that the Nation's space 
programs would benefit if the issue of workforce is addressed by 
involving the representatives of the workforce ecosystem in both the 
assessment of the problem and the range of possible solutions.
    Thank you again for the opportunity to share with your committee 
the perspectives on this important issue that the NRC Committee has 
developed over the past year.
    I would be happy to expand on my remarks or address additional 
questions should you wish.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for David C. Black
    DAVID C. BLACK, is President Emeritus of the Universities Space 
Research Association (USRA), a consortium of 97 different colleges and 
universities having graduate programs in space science or engineering. 
He is also adjunct professor of space physics and astronomy at Rice 
University. Between 1970 and 1975 Dr. Black served in various 
capacities at NASA's Ames Research Center, including chief of the 
Theoretical Studies Branch and deputy chief of the Space Science 
Division, and he was the first chair of the Ames Basic Research 
Council. Dr. Black was selected as the first chief scientist for the 
space station program at NASA Headquarters in 1985. He returned to NASA 
Ames in 1987 as the chief scientist for space research. He spent an 
academic year as a visiting professor at the University of London 
(1974-1975). Dr. Black is an internationally recognized researcher in 
theoretical astrophysics and planetary science, specializing in studies 
of star and planetary system formation. He has also done pioneering 
experimental research involving the isotopic composition of noble gases 
in meteorites, was the first to discover and correctly identify 
evidence for non-solar material in solar system matter, and was the 
first to show that the isotopic composition of solar flare noble gases 
differs from that of solar wind noble gases. He is a leader in the 
current effort to search for and study other planetary systems. He is 
past chair of the Solar System Exploration Subcommittee and the Origins 
Subcommittee of NASA's Space Science Advisory Committee. Dr. Black also 
served as a member of the NRC Planetary and Lunar Exploration Task 
Group (1984-1988) and the Working Group on Search for Extraterrestrial 
Intelligence (1979-1983).
    Dr. Black served as Co-Chair with Dr. Daniel Hastings of the 
National Research Council (NRC)'s Committee on Issues Affecting the 
Future of the U.S. Space Science and Engineering Workforce. Dr. 
Hastings is a Professor of Aeronautics and Astronautics and Engineering 
Systems and Dean for Undergraduate Education at the Massachusetts 
Institute of Technology (MIT). The other committee members were:

         BURT S. BARNOW, Johns Hopkins University

         JOHN W. DOUGLASS, Aerospace Industries Association of America, 
        Inc.

         RAY M. HAYNES, Northrop Grumman Space Technology

         MARGARET G. KIVELSON, University of California, Los Angeles

         WILLIAM POMERANTZ, X PRIZE Foundation

         JOSEPH H. ROTHENBERG, Universal Space Network

         KATHRYN C. THORNTON, University of Virginia

    Chairman Udall. Thank you, Dr. Black, and we worked through 
the audiovisual glitch, and that is important data. We will put 
that in the record.
    Dr. Stone, five minutes is yours, and welcome.

 STATEMENT OF DR. LEE STONE, LEGISLATIVE REPRESENTATIVE, NASA 
     COUNCIL OF IFPTE LOCALS, INTERNATIONAL FEDERATION OF 
              PROFESSIONAL AND TECHNICAL ENGINEERS

    Dr. Stone. Thank you, Chairman Udall and Ranking Member 
Hall for providing the International Federation of Professional 
and Technical Engineers, NASA's largest federal employee union, 
the opportunity to present our perspective on the workforce 
challenges facing NASA today.
    IFPTE's primary interest in testifying is to provide 
advocacy for maintaining the technical excellence and 
independence of NASA's civil service workforce. However, our 
interests extend more broadly to a deep commitment to NASA's 
success, not only in the near-term, but more important, in the 
long-term, consistent with the true spirit of the Vision for 
Space Exploration.
    NASA is not facing a workforce crisis. It is facing a 
fiscal crisis. The President's Vision outlines a bold and 
ambitious set of milestones, yet NASA is not being given a bold 
and ambitious budget needed for success. As long as the Vision 
remains largely an unfunded mandate, all of NASA's missions and 
its workforce will remain at risk, and that is the primary 
issue.
    The last time a President asked NASA to send humans to the 
Moon, NASA had nearly 36,000 civil servants onboard, and an 
annual budget of more than $30 billion, adjusted for inflation, 
and they were not being asked to fix design problems with the 
Shuttle or to build a Space Station at the same time. Yet 
today, NASA's civil service workforce has been halved, and its 
budget reduced by more than 40 percent. Until the fundamental 
discrepancy between mission and budget is corrected, NASA's 
problems cannot be properly solved.
    First slide, please, or the only slide, please. A workforce 
demographic problem is readily apparent in Figure 2-2 of the 
NRC report. The real problem is the five-fold reduction in the 
30- to 34-year-old range between 1993 and 2005, indicated by 
the vertical blue arrows on the left, a fivefold reduction. 
Management, however, remains obsessed with the faux problem of 
the right hand tail of the distribution to the right of the 
vertical red line, which represents only about five percent of 
the workforce, and has been stable for more than a decade, yet 
there is where they keep pounding to reduce it.
    IFPTE applauds the National Research Council for its 
thoughtful analysis and recommendations on NASA's Workforce 
Plan. The report recognizes the immediate need to engage 
aggressively in the education, the hands-on training, and 
recruitment of the next generation of NASA employees. IFPTE, 
however, is disappointed with the National Academy of Public 
Administration's report, as it fails to question management's 
assertions. It accepts as fact uncertain and mistaken premises 
that NASA's budget will not grow, that its current employee 
skills are seriously mismatched with NASA's new mission, and 
thus, that NASA must reduce it science, aeronautics, and 
technology development activities and workforce. We 
fundamentally disagree.
    IFPTE, however, continues to support the ten healthy 
centers philosophy initiated by Dr. Griffin, and we reject the 
criticism of that plan in the NAPA report. We encourage Dr. 
Griffin to persevere in his efforts to decentralize the 
Constellation Program. Unfortunately, current policies continue 
to severely stress NASA's research centers. The solutions 
should not be, and cannot be to convert them into mini-
operational centers, or to subject them to some BRAC-like 
process. Rather, the revitalization of cutting edge R&D at the 
field centers is crucial for the safe and meaningful return to 
the Moon, as well as for delivering on our promises in science 
and aeronautics.
    To reinvigorate NASA's workforce in support of all of its 
missions, and to maintain America's prestige and leadership in 
science and aerospace R&D, IFPTE offers the following seven 
recommendations.
    First, Congress should fund NASA at close to the authorized 
level as possible, and prohibit transfer authority across major 
accounts. IFPTE proposes at least an additional $300 million 
for science, $420 million for exploration systems, $200 million 
for aeronautics, $30 million for education, and $50 million for 
critical facilities over the President's Fiscal Year 2008 
proposal.
    Second, Congress should preserve the technical excellence 
and independence of NASA's civil service workforce. NASA should 
fund civil servant salaries directly to the centers, 
independent of programs, to allow for the effective use of 
matrix management, and to end the scapegoating of civil service 
employees.
    Third, NASA should provide stability for its current 
workforce, to reassure its future workforce. The Administrator 
should publicly reject any use of RIFs, so that the best and 
the brightest young engineers and science graduates can once 
again see NASA as a great career move.
    Fourth, IFPTE supports the NRC recommendations. NASA must 
begin an aggressive campaign to recruit young employees while 
the current staff is still on board to transfer its critical 
knowledge.
    Fifth, IFPTE strongly opposes three of NAPA's 
recommendations. IFPTE opposes any authorization to use a BRAC-
like process to close centers, any streamlining of the RIF 
procedures, and any authority to unilaterally terminate 
retirement eligible employees.
    Sixth, IFPTE supports enhancing voluntary buy-out 
authority. We support the post-employment extension of medical 
coverage, and an increase in the buy-out incentive up to an 
individual's severance pay, capped at one year's salary.
    Seven, IFPTE strongly opposes any new authority to 
facilitate the conversion of permanent positions to term 
positions, and therefore, we oppose the Administration's 
proposed term conversion legislation.
    In closing, IFPTE is very grateful for the bipartisan 
Congressional rescue that has thus far protected NASA's 
workforce from a misguided RIF. Let us now turn from the era of 
workforce damage control to a more positive era of rebuilding 
NASA's future workforce.
    Once again, Chairman Udall and Ranking Member Hall, IFPTE 
thanks you for inviting us to bring these important issues to 
the attention of the Subcommittee.
    [The prepared statement of Dr. Stone follows:]
                    Prepared Statement of Lee Stone
    Thank you, Chairman Udall and Ranking Member Calvert, for providing 
the International Federation of Professional and Technical Engineers, 
NASA's largest Union, this opportunity to present our perspective on 
the workforce challenges facing NASA today. It is a privilege and honor 
for me to speak for IFPTE and for the thousands of NASA employees we 
represent.
    IFPTE's primary interest in testifying today is to provide advocacy 
for maintaining the technical excellence and independence of NASA's 
civil service workforce that has served the Agency so well for decades. 
However, our interest extends more broadly to a deep commitment to 
NASA's success not only in the near term but, more importantly, in the 
long term, consistent with the true spirit of the Vision for Space 
Exploration (VSE). NASA's rank-and-file employees are not only the 
heart and soul of the Agency, but also provide much of its brain power. 
They are hard working and dedicated to mission success, but see this 
success as including all of NASA's critical missions. Indeed, many of 
our nation's best and brightest came to NASA primarily to be part of 
endeavors greater and nobler than more lucrative pursuits available to 
them in the private sector. They came to discover and to explore so 
that America can lead mankind in aerospace science, engineering, and 
exploration. That dream is in jeopardy today, not because of a failure 
of technical competence or innovation, but because of a failure of 
political will.
    NASA is not facing a workforce crisis; it is facing a fiscal 
crisis. The President's Vision outlines a bold and ambitious set of 
milestones for NASA, ultimately leading to permanent human presence on 
the Moon and a safe manned mission to Mars. Yet unfortunately, the 
White House has thus far been unwilling to propose a bold and ambitious 
NASA budget to match. The misguided policy decision to make the VSE an 
unfunded mandate is the driving force behind all of NASA's current 
woes. IFPTE calls on Congress to redirect this policy and to fund NASA 
at the levels Authorized less than two years ago with overwhelming 
bipartisan support. This course of action is essential for enabling 
NASA's success, for maintaining America's prestige and leadership in 
aerospace R&D, and ultimately for safeguarding our national security.

        <bullet>  Unless NASA's budget is increased significantly, 
        commensurate with its full set of responsibilities, mission 
        failure is a real possibility. Something has to give. Either 
        the Constellation schedule will need to be significantly 
        slipped, or Shuttle and Space Station activities will need to 
        be curtailed even further, or, as the Administration would now 
        have it, critical Aeronautics, Science and Technology 
        activities will be severely cut, leaving Orion and Ares 
        vehicles with ill-defined missions and NASA's Science and 
        Aeronautics responsibilities unfulfilled. This is not a 
        partisan concern; for example, Representative Calvert, the 
        former Chairman (and now Ranking Member) of this subcommittee, 
        recently expressed concern about how cuts in NASA Aeronautics 
        R&D impact the Nation's effort, coordinated by the newly 
        established inter-agency Joint Program Development Office 
        (JPDO), to develop the next generation airspace system:

           ``. . .Congress anticipated that the Federal Aviation 
        Administration, as the operator of our nation's ATM system, and 
        the National Aeronautics and Space Administration, as our 
        nation's leading aeronautics R&D organization, would continue 
        to work collaboratively as they have for more than forty years: 
        NASA researching and developing long-lead, high risk 
        technologies; FAA adapting their research products to 
        incorporate them into the national airspace system. . .. The 
        JPDO recognized NASA's expertise early on by selecting them to 
        lead the `Agile Airspace' integrated product team. . .. In the 
        last eighteen months, however, and subsequent to the creation 
        of the JPDO, NASA's aeronautics R&D program has undergone a 
        major reorganization. . . I remain concerned that so early in 
        this grand endeavor now known as NextGen, one of the two key 
        partners is changing the rules of the game, and it's happening 
        at a time when R&D roadmaps are being finalized, and spending 
        for developing and integrating new technologies is about to 
        ramp up. I would strongly prefer that NASA's Airspace 
        Management program continue to advance promising technologies 
        to a high level. . . It is my sincere hope that NASA's actions 
        don't hinder JPDO's efforts to develop technologies upon which 
        NextGen is reliant.''

           IFPTE shares this concern and urges Congress to properly 
        fund NASA's Aeronautics R&D mission, which will not only 
        address this and other critical national needs, but will also 
        greatly reduce the workforce instability at the Agency.

        <bullet>  The Administration's fiscal policy is driving the 
        indefinite postponement of the recruitment of NASA's next 
        generation of scientists and engineers thereby seriously 
        compromising the long-term health of the Agency. At an All-
        Hands meeting at Ames Research Center on February 22nd 2007, 
        Administrator Griffin responded to a query about what NASA is 
        doing to recruit young scientists and engineers by saying:

           ``I cannot grow the Agency by bringing in even all-stars 
        right now that I want to bring in, unless and until folks like 
        us who, as you said, are getting older, until and unless these 
        folks retire.''

           While we sympathize with the Administrator, given the 
        untenable position he is in of trying to meet NASA's many 
        awesome responsibilities without an honest budget, we must 
        stand in opposition to any further stalling. This defeatist 
        statement, coming directly from the Administrator, reveals that 
        the current workforce plan is simply to punt, effectively 
        sacrificing NASA's future to meet its immediate milestones, 
        leaving his successor to deal with an even more serious problem 
        down the road.

    IFPTE applauds the National Research Council (NRC) for its 
thoughtful report and recommendations on NASA's workforce planning. The 
report properly recognizes the symbiotic relationship between NASA's 
in-house scientists and their academic colleagues, as well as the 
immediate need to engage aggressively in the education, hands-on 
training, and recruitment of the next generation of NASA employees. We 
fully endorse their key recommendations.

        <bullet>  Although the NRC primary interest is in maintaining 
        NASA's support of academic research and IFPTE does not agree 
        with all of the statements made in the report, nonetheless, 
        IFPTE believes that NASA's entire multi-sector workforce would 
        be well served by following their recommendations.

        <bullet>  One concern however is the references made about 
        government conflict-of-interest rules hindering the recruitment 
        of senior program/project managers from industry. IFPTE 
        strongly believes that these ethics rules are absolutely 
        essential for protecting the government and the taxpayer from 
        the corrupting influence of private profit motives. The 
        influence of the aerospace industry on NASA policies is 
        powerful enough already, any weakening of government ethics 
        rules would be unwise.

    IFPTE is disappointed with the National Association of Public 
Administration (NAPA) report and strongly objects to the fact that it 
blindly accepts the Administration's assertions about NASA's fiscal and 
programmatic constraints and uses them to bolster their argument that 
some dramatic workforce realignment with a significant reduction of 
civil service component is somehow required for the success of the VSE. 
This simply is not the case and indeed, we believe the converse is 
true. We also strongly object to their recommendations that NASA 
management be given new authority for streamlined Reductions-In-Force 
(RIFs) and for termination based on retirement eligibility.

        <bullet>  For example, the NAPA report (p. 164) makes the 
        astounding statement that:

           ``Most employees who have been ``uncovered'' in the past are 
        concentrated in various legacy programs and related 
        occupations, such as engineering and science support 
        (technicians); . . .program/project management; computer 
        science and information technology; space sciences; . . 
        .various systems engineering competencies; electrical and 
        electronics systems; . . .The April 2006 NASA Workforce 
        Strategy recognized this reality.''

           The above statement that NASA does not now need and is not 
        going to need these ``legacy'' competencies to meet its future 
        missions in Science, Aeronautics, and Human Space Flight is 
        absurd. Yet, assertions like this are used throughout the 
        report to justify a persistent call to target CS employees for 
        layoffs. Indeed, the NRC report correctly points that NASA 
        desperately needs to recruit more talent in the areas of 
        program/project management and in systems engineering (and 
        talented Aeronautics program/project managers and systems 
        engineers can clearly be quickly cross-trained to support space 
        flight programs). Furthermore, the NAPA report's lack of 
        objectivity is revealed as it repeatedly uses the term 
        ``reality'' to describe unchallenged assertions by NASA 
        management, while they refer to Union statements as ``views.''

        <bullet>  The fatal flaw in the NAPA report is that most of its 
        recommendations are based on mistaken or uncertain premises 
        presented as facts. The budgetary and the programmatic 
        assertions made are not the clear cut ``reality'' that NAPA 
        would have one believe; for example, the drastic and unwise 
        cuts to Science, Aeronautics, and Technology Development in the 
        President's proposed FY 2008 budget will not become reality 
        unless Congress agrees to them. Over the last few years, a 
        bipartisan coalition in Congress has repeatedly shown its 
        willingness to restore NASA funding in these areas.

    IFPTE continues to support the ``ten healthy Centers'' philosophy 
put forward by Dr. Griffin; we reject criticism of his plan within the 
NAPA report. Unfortunately, the implementation has been spotty. In 
particular, as noted in the NAPA report (p. 57), current policies have 
severely stressed NASA's research centers. The solution to this problem 
cannot be to convert them into mini-operational centers or to subject 
them to a BRAC-like process. Rather, the Administration must recognize 
that revitalized R&D at NASA's research centers is crucial for the 
success of the VSE and NASA's Science and Aeronautics missions. NASA's 
research centers and their academic partners must be provided with the 
resources needed for them to continue to make their contributions to 
NASA's longer-term missions.

        <bullet>  Specifically, healthy Aeronautics and Exploration 
        research budgets should be fully sequestered from the manned 
        space flight operational and exploration development budgets 
        and should be managed by the research centers. This is 
        necessary to prevent continued pilfering of longer-term 
        research projects in support of shorter-term Constellation 
        milestones, and to make sure that the technologies needed to 
        support productive and safe long-duration lunar missions are 
        available when the rockets are ready to get us there. In 
        particular, the Advanced Capabilities programs should be 
        managed by research centers with their R&D activities primarily 
        at the research centers. This will protect these vital efforts 
        from being usurped by Constellation and will foster innovation, 
        unfettered by the constraints of current operational thinking. 
        Constellation must be kept healthy by direct funding, not by 
        co-opting R&D funds.

        <bullet>  As recommended in the NRC report (recommendation 6), 
        small scale flight projects (e.g., small sats, free flyers, 
        balloon launches) should be revitalized thereby enhancing 
        synergistic links between academia, the smaller emerging 
        ``new'' space industry, and the research centers. This not only 
        has the potential to produce good space, Earth, life and 
        microgravity science for less money, but will also provide the 
        key hands-on experience needed to develop strong in-house 
        program/project managers/scientists and to educate/recruit the 
        next generation of employees.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The key problem and the misguided nature of the current management 
approach are readily apparent in Fig. 2-2 of the NRC report (see 
above).

        <bullet>  The real problem is the nearly five-fold reduction in 
        the number in the 30-34 year old range between 1993 and 2005 
        (see vertical blue arrow). The last two Administrations share 
        the blame for dereliction of their duty to renew and replenish 
        this critical national capability.

        <bullet>  NASA management (and the NAPA report) is obsessed 
        with the faux problem of the right-hand tail of the 
        distribution (to the right of the vertical red line), which 
        represents only about five percent of the workforce and has 
        demonstrated itself to be stable for more than the last decade. 
        Furthermore, this tail represents the older, experienced and 
        dedicated, scientific and engineering workforce, whose 
        retention is often critical for mission success because of the 
        priceless corporate memory they possess.
Matrix management and full-cost recovery of civil-service salaries:
    NASA's peculiar version of matrix management, in which programs 
wield all budgetary power and line management is effectively impotent, 
is harming morale and productivity at most centers among both the rank-
and-file and line managers.

        <bullet>  When NASA claimed to convert over to ``full-cost 
        accounting'' in FY04, it actually converted over to a full-cost 
        recovery system. This system unwisely empowered distant program 
        managers to siphon salary and facilities money away from field 
        centers. By giving so much power to senior program managers 
        (for Constellation, program management is often 
        indistinguishable or closely aligned with line management at 
        Johnson Space Center), a low priority has been placed on 
        preserving long-term institutional assets and capabilities at 
        the less-powerful centers. Labor costs at these centers can 
        thus be low-balled by pitting competing centers against each 
        other and they have ended up being forced to provide technical 
        support to programs at below actual cost simply because a half 
        FTE for full time work is better than nothing. This has created 
        the artificially inflated ``uncovered capacity'' that is being 
        exaggerated by anti-CS proponents to justify layoffs.

        <bullet>  The Administration has only recently begun to pay 
        adequate attention to the agency-wide consequences of full-cost 
        recovery on core technical competencies and facilities. There 
        is little incentive within program management (which controls 
        nearly all of NASA funds and is under terrible pressure to meet 
        current fiscal-year milestones) to be interested in any long-
        term agency-wide workforce planning.

        <bullet>  Matrix management coupled with full-cost recovery is 
        seriously undermining line/center management authority and 
        morale. For matrix management to work properly, line and 
        program management must have equal, complementary authorities. 
        Line managers should control CS labor and travel costs 
        (provided directly to each center); while program managers 
        should control procurement and contractor labor costs. This 
        more equitable balance would then force greater cooperation 
        between line and program management to the benefit of the 
        Agency, its programs, and all of its employees.

Abuse of term hiring:
    NASA management has been systematically abusing its authority to 
create term civil-servant positions with strict quotas on hiring 
permanent positions, thus forcing centers to make improper term hires 
to fill long-term technical needs more properly served by a permanent 
hire.

        <bullet>  The percentage of NASA's civil service workforce that 
        is employed under a term contract has increased more than 7-
        fold since the beginning of FY2003. Of the current term 
        positions, 80 percent are scientists or engineers and many of 
        them will leave the Agency in two to six years, despite NASA's 
        considerable investment in training them.

        <bullet>  The number of outside hires into permanent science 
        and engineering positions decreased more than 9-fold between FY 
        2000 and FY 2006.

        <bullet>  The ratio of permanent to non-permanent outside hires 
        shifted from 1.3 in FY 2000 to 0.4 in FY 2006.

        <bullet>  As noted in the NAPA report (p. 160), ``NASA has used 
        term employment as a vehicle to extend the typical one-year 
        probationary period.'' Even if this is meant to be benevolent, 
        this common rationale for using a term hire instead of a 
        permanent hire improperly circumvents the intent of Title 5 and 
        the Flexibility Act.

        <bullet>  IFPTE agrees with the NAPA recommendation that the 
        decision to offer term or permanent status should be based on a 
        careful analysis of the job requirements and of the long-term 
        need for the relevant skills. NASA must develop transparent, 
        consistent, and compelling criteria for denying full civil-
        service rights to any new hire. However, IFPTE is troubled by 
        the conclusion of Chapter VI of the NAPA report that asserts 
        that

           ``Term employment may be preferable to permanent employment 
        options given the great deal of budget and programmatic 
        uncertainty.''

           This statement openly advocates for the improper use of term 
        positions to compensate for political instability at the 
        Agency. Every year, NASA's budget and programs are uncertain, 
        so this cannot be used as a criterion for determining whether a 
        position is best filled by a permanent or term hire. That 
        decision should be based on the position's skill requirements 
        and the long- vs. short-term need for the specific competency 
        being hired.

        <bullet>  The exploding use of term positions is threatening 
        the quality and independence of our technical staff. The best 
        and brightest new scientist and engineering graduates are being 
        wooed by MIT, Johns Hopkins, Carnegie Mellon, Stanford, Cal 
        Tech, UC-Berkeley and many other high-caliber academic 
        institutions. Premier academic institutions offer tenure. In 
        the past, NASA has been able to get its fair share of these 
        candidates because it offered tenure, better benefits, and a 
        similarly excellent intellectual environment. The NRC report 
        (p. 41) notes that the reduction in federal pension benefits 
        made under the Reagan Administration is hindering NASA's 
        ability to recruit senior staff away from more lucrative 
        private-sector positions with better benefits than the 
        government. Any diminution of tenure rights will only make 
        recruitment even more difficult as it will make cold cash the 
        only usable currency to compete for top talent and the 
        government is not in a good position to win based on that 
        criterion. More critically, tenure provides technical employees 
        with the security they need to speak truth to power.

        <bullet>  A more extensive analysis of the crucial value of 
        civil-service tenure can be found in IFPTE's testimony to this 
        Subcommittee on June 13th, 2006.

Balancing the public and private workforce components:
    IFPTE reiterates its prior testimony stating that NASA benefits 
greatly from the synergy generated by its combined federal and private-
sector workforce. However, we also believe that NASA has achieved the 
minimum healthy balance between its current 18,020 civil servants on 
duty (16,299 full-time permanent) and its dedicated contractor 
workforce of around 40,000. The latest CS number represents a nearly a 
two-fold change from the 35,860 civil servants on board in FY1967, the 
last time NASA was working to send Americans to the moon and back 
safely. Any further decrease in the civil-service component would 
appear unwarranted and would put mission success at increased risk.
    IFPTE is concerned that neither the NRC nor the NAPA report 
emphasized the many important reasons for maintaining a strong civil-
service component to NASA's workforce especially when facing budgetary 
and schedule pressures. A few of these reasons are:

        <bullet>  Civil servants serve as smart buyers so the taxpayer 
        buys good products at a fair price.

        <bullet>  Civil servants are needed to provide proper technical 
        monitoring and financial oversight of NASA's contractor and 
        academic efforts.

        <bullet>  Civil servants are needed to balance out private-
        sector profit motives in order to maintain safety. The Columbia 
        Accident Investigations Board (p. 198) indeed pointed out that 
        increases in the industry workforce together with reductions in 
        the CS workforce contributed to the disaster and that, over 
        time, NASA management tends to forget this.

           Prior to Challenger, Shuttle Program structure had hindered 
        information flows, leading the Rogers Commission to conclude 
        that critical information about technical problems was not 
        conveyed effectively through the hierarchy. The Space Shuttle 
        Program had altered its structure by outsourcing to 
        contractors, which added to communication problems. The 
        Commission recommended many changes to remedy these problems, 
        and NASA made many of them. However, the Board found that those 
        post-Challenger changes were undone over time by management 
        actions. NASA administrators, reacting to government pressures, 
        transferred more functions and responsibilities to the private 
        sector. The change was cost-efficient, but personnel cuts 
        reduced oversight of contractors at the same time that the 
        Agency's dependence upon contractor engineering judgment 
        increased.

    The Agency also needs to engage more scientists, engineers, and 
technicians, and fewer managers, deputy managers, associate managers, 
and assistant managers. NASA's dedicated technical workforce at all of 
its centers, both civil servant and contractor, stands ready, willing, 
and able to support all of NASA's missions and there is more than 
enough technical work to go around. NASA headquarters needs to reduce 
the load of self-generated program-reporting busy work that it dumps on 
its front-line managers, which then reduces real productivity and 
drives the ``need'' for excess management.

Decentralizing the Constellation program:
    Administrator Griffin deserves considerable praise for realizing 
that all of NASA Centers should share in the work opportunities (and 
responsibilities) provided by the Constellation program, according to 
their capabilities and facilities. This idea, however, has been 
difficult to implement fully and is not a long-term solution.

        <bullet>  Constellation program management is too closely 
        allied with Johnson Space Center management and has therefore 
        been very reluctant to comply fully with the decentralization 
        process. As stated in the minutes of the NASA Strategic 
        Management Council's February 21st 2007 meeting:

           ``. . .flight centers seem reluctant to place development 
        work at research centers. . .''

           Indeed, when Constellation work-packages have been 
        transferred to other centers, JSC has only minimally complied 
        by transferring the CS Full Time Equivalent (FTE) portion of 
        the funds, while retaining the procurement dollars and 
        contractor work-year equivalent (WYE) funds, thereby making it 
        impossible for other centers to match JSC's apparent 
        productivity. JSC continues to prefer hiring within their local 
        JSC contractor teams and to resist transferring the full budget 
        associated with Constellation work-packages to CS-contractor-
        academic teams at other centers.

        <bullet>  IFPTE concurs with the NRC report finding that 
        rigorous requirement management is a critical factor in mission 
        success (Box 4.1). It would therefore appear troubling that 
        Constellation and JSC management have chosen to use employees 
        of the Orion prime contractor to help define the development, 
        validation, and verification of Orion's requirements; this 
        creates an obvious conflict of interest as these requirements 
        impact the profitability of the prime contract. To protect the 
        taxpayer, civil-service ethics rules would disqualify any 
        civil-servant employee from working on a NASA project in which 
        they had a direct financial interest. Furthermore, this 
        questionable out-sourcing is particularly harmful when the 
        expertise contracted out already exists in-house at another 
        NASA center.

        <bullet>  The Constellation work is largely short-term 
        technical oversight tasks of hardware-software development 
        programs, with the lion's share of the real work ultimately 
        performed by the Orion prime and sub-contractors. These work 
        assignments are generally not full-time and do not generally 
        cover NASA's world-class scientists and technology developers, 
        whose innovative research is critical for the long-term health 
        of the Agency and the ultimate success of the VSE. The only 
        sustainable long-term solution is to revitalize NASA's 
        Aeronautics, Exploration Research and Technology, and Science 
        programs.

The Administration's proposed new flexibilities:
    IFPTE supports NASA's efforts to obtain enhanced voluntary buy-out 
authority. However, we strongly opposed the effort to obtain 
legislation to enhance their authority to convert permanent positions 
to term positions as this would only exacerbate the current abuse of 
term hiring.

Recommendations:
    In order for NASA to move forward towards reinvigorating its 
workforce to better support all of its missions, IFPTE offers the 
following recommendations:

        1.  Congress should fund NASA as close to the authorized level 
        as possible and prohibit executive transfer authority.

                <bullet>  In its endorsement of the VSE, Congress 
                authorized $18.7 billion for FY08, yet the President 
                has proposed only $17.3 billion. This $1.4 billion 
                shortfall is at the core of all of NASA's problems.

                <bullet>  None of the National Research Council 
                recommendations on NASA workforce revitalization can 
                come to fruition without adequate Appropriation.

                <bullet>  Congress' direction will not have the 
                intended impact unless all major Appropriations 
                accounts are unambiguously specified, with executive 
                transfer authority limited to moving funds within these 
                major accounts (e.g., Education funds should be 
                specifically appropriated with transfer to other 
                activities prohibited).

                <bullet>  IFPTE proposes an additional $300 million for 
                Science above that in the President's budget (including 
                increased funding for the Research & Analysis 
                activities called for by the NRC to support both in-
                house and academic research), an additional $120 
                million for Exploration Advanced Capabilities (to 
                support the longer-term R&D needed to maintain healthy 
                and strong technology development both in-house and 
                externally), an additional $30 million for Education 
                (to encourage our youth to devote themselves to a 
                technical education leading to a career in aerospace), 
                and an additional $200 million for Aeronautics (to 
                support NASA's traditional forte in Aeronautics R&D as 
                well as its traditional relationship with the aviation 
                industry and its new commitments to the JPDO). In 
                addition to fully supporting NASA's key missions, these 
                specific Appropriations proposals also form the basis 
                of an implementation plan for workforce renewal, 
                consistent with the NRC report.

        2.  Congress should preserve and protect the technical 
        integrity and independence of NASA's civil-service workforce.

                <bullet>  All talk of downsizing should cease 
                immediately and be replaced by talk of sustained 
                recruitment of NASA's new generation of employees.

                <bullet>  Congress should prohibit the disruptive and 
                misguided policy of full-cost recovery of civil-service 
                salaries, thereby re-empowering rank-and-file employees 
                and their line management with the flexibility to 
                assign and perform work as needed within a balanced 
                partnership with program management.

                <bullet>  Congress should require NASA to fund CS 
                salaries and travel directly to the centers, 
                independent of programs, to allow for more balanced and 
                effective matrix management. This would put an end to 
                the scapegoating of the CS workforce for NASA's overall 
                budgetary shortfall.

                <bullet>  Congress should ask the Government 
                Accountability Office to audit NASA's use of term 
                positions.

                <bullet>  Although Congress has temporarily prohibited 
                layoffs, as seen in the recent NAPA report, some within 
                NASA management continue to promulgate anti-civil 
                service rhetoric. Without adequate factual 
                justification, NAPA has endorsed a plan to consider 
                downsizing NASA's CS workforce (i.e., they want to put 
                RIFs back on the table with weaker safeguards, with 
                management's latest target being 2,000 Shuttle 
                employees primarily at JSC and KSC as we near 2010). 
                Clearly, most of these employees can be retrained to 
                work on Constellation or they will simply retire, yet 
                NASA is asking for legislation to go after them.

        3.  NASA management should provide visible and sustained 
        stability for its current workforce to support the inspiration 
        then recruitment of its future workforce.

                <bullet>  The best and brightest young engineering and 
                science graduates need once again to see aerospace as a 
                stable career option in general and NASA as a great 
                career move in particular, comparable to accepting a 
                job at a premier academic or private-sector research 
                institution (e.g., MIT or Google or Lockheed Martin). 
                They need to feel confident of stable job opportunities 
                at NASA early in their education to inspire them to 
                embark on the demanding educational paths of science, 
                engineering, and math.

                <bullet>  NASA should re-embrace its Aeronautics, 
                Science, and Technology missions as these activities 
                are a major component of the attraction to NASA for the 
                best and brightest young minds.

        4.  IFPTE supports the NRC recommendations, especially #2, #4, 
        and #6.

                <bullet>  NASA must begin an aggressive campaign to 
                recruit young employees while the current senior staff 
                is still on board to transfer its knowledge.

                <bullet>  NASA must aggressively establish hands-on 
                training programs and research opportunities for both 
                current employees and students (aka future employees) 
                to help forge a strong future workforce.

                <bullet>  NASA must maintain a portfolio of smaller 
                flight programs to both provide valuable, yet less 
                expensive, scientific return (especially given that the 
                Shuttle is no longer available to support Life or 
                Microgravity Science) and to train young project 
                managers/scientists within more modest projects.

        5.  IFPTE strongly opposes three NAPA recommendations.

                <bullet>  The NAPA report is deeply flawed as it 
                accepts, unchallenged, erroneous premises associated 
                with the Administration's policies. In particular, the 
                argument that NASA's mission is changing dramatically 
                thereby requiring a smaller CS workforce is fallacious. 
                NASA's mission has been and will continue to be to 
                perform aerospace-related scientific research & 
                engineering development. The current transient emphasis 
                on spacecraft design and development will pass and 
                should not be the pretext for a massive downsizing of 
                NASA's civil service workforce. The crisis is 
                artificial; without adequate funds for Constellation, 
                the Administrator has resorted to cannibalizing the 
                Science and Aeronautics budgets and their associated 
                employees. Rather than advocating for a fictitious 
                realignment, the NAPA report should have performed a 
                more neutral and vigorous examination of the budgetary 
                and programmatic premises provided to them by the 
                Administration.

                <bullet>  The recommendation that NASA should 
                contemplate a BRAC-like process to consider the closure 
                of one or more of its research centers completely 
                misses the mark. BRAC was a unique response to America 
                winning the cold war. The US therefore needed to 
                dramatically transition its military posture to be more 
                appropriate for the completely different post-cold-war 
                world. NASA, on the other hand, is preparing to re-
                invigorate its human space flight mission in response 
                to the VSE. It is moving back to the future to re-
                invent Apollo, while also maintaining its traditional 
                portfolio of Aeronautics and Science. The VSE does not 
                represent a dramatic change in NASA's mission but 
                rather only a transient re-emphasis on spacecraft 
                design and development. Furthermore, NASA's research 
                centers function as a lifeline to academia and are 
                absolutely essential if NASA is going to solve the very 
                real technology development obstacles on the critical 
                path to lunar outpost and Mars. NASA's highly-respected 
                research centers need to be rescued from the 
                Administration's current misguided policies, not 
                sacrificed to meet short-term budgetary shortfalls.

                <bullet>  The recommendation that NASA management be 
                allowed to streamline its RIF procedures fails 
                completely to acknowledge the fundamental principles 
                behind the creation of the civil service. Hiring and 
                firing employees nearly at will, as is sometimes done 
                in the private sector, may provide management with the 
                flexibility it craves, but it does not work well when 
                management is playing with the taxpayers' money. The 
                usual market-force feedback is not present and thus 
                very stringent regulations are absolutely necessary to 
                prevent patronage, cronyism, and other forms of 
                corruption. Furthermore, given that Chapter IV of the 
                NAPA report laments that NASA management currently is 
                not properly following existing federal law related to 
                contractor employees, it would seem imprudent to reward 
                NASA management with greater authority to fire CS 
                employees. Again, NASA's primary workforce challenge, 
                as repeatedly highlighted in the NRC report, is to 
                recruit and build its future workforce. The obsession 
                with layoffs is misplaced, is wasting taxpayer dollars, 
                and harming morale and productivity.

                <bullet>  The recommendation that NASA management be 
                allowed to declare an emergency and terminate its older 
                annuity-eligible employees is not only wrong-headed, it 
                is overtly discriminatory. Retirement eligibility 
                (which correlates strongly with age) should never be 
                used as a criterion for termination or any other 
                adverse employment action. When all other criteria are 
                the same, using retirement eligibility to decide who 
                stays and who is fired is unconscionable. IFPTE is 
                simply shocked that the NAPA would openly advocate for 
                age discrimination. NASA employees generally become 
                annuity eligible at 50 years young; IFPTE believes that 
                rather than considering employees over 50 as 
                liabilities, NASA management should acknowledge that 
                the maturity, wisdom, and hands-on experience that our 
                older scientists and engineers provide are critical for 
                mission success.

        6.  IFPTE supports enhancing NASA's voluntary buy-out 
        authority.

                <bullet>  Congress should consider legislation to allow 
                enhanced buy-out authority for NASA. We therefore 
                support the temporary continuation of medical coverage 
                in Section 102 of the Administration's proposed 
                flexibility legislation.

                <bullet>  Many non-critical employees would like to 
                retire immediately, but need to stay on a few 
                additional years for financial reasons. A more 
                reasonable compensation package would greatly help NASA 
                persuade these employees to retire without impacting 
                morale and would ultimately save the taxpayer a lot of 
                money.

                <bullet>  The NAPA recommendation that NASA management 
                be allowed to increase its voluntary buy-out cap from 
                $25,000 to $35,000 is simply inadequate to effectively 
                enhance this incentive. The high-tech industry standard 
                is generally one year's pay, which is much more than 
                NASA's current $25,000 or the proposed $35,000.

                <bullet>  IFPTE proposes a more realistic incentive, in 
                line with those available to many untenured private-
                sector employees, with the buy-out calculation equal to 
                the individual's severance pay (regardless of annuity 
                eligibility) capped at one-year's salary.

        7.  IFPTE strongly opposes any new authority to facilitate the 
        conversion of permanent positions to term positions.

                <bullet>  NASA management is already abusing its 
                current expanded term authority and should not be given 
                additional authority to undermine civil-service 
                independence. We therefore oppose Section 101 of the 
                Administration's proposed flexibility legislation.

    In conclusion, IFPTE is encouraged by the recent effort to 
distribute Constellation work more fairly and intelligently across the 
centers, and is very grateful for the bipartisan Congressional rescue 
that protected NASA's workforce from the Administration's reckless RIF 
plan. We must now turn from the era of workforce damage control to the 
more positive task of re-building NASA's future multi-sector workforce. 
We hope that the Subcommittee will seriously consider our 
recommendations above, as well as those of the NRC panel.
    Once again, Chairman Udall and Ranking Member Calvert, IFPTE thanks 
you very much for the opportunity to bring these important issues to 
the attention of the Subcommittee.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Udall. Thank you, Dr. Stone. At this point, let us 
open up our first round of questions, and the chair will 
recognize himself for five minutes.
    I am going to direct my first round of questions to Dr. 
Black and Mr. Stewart. Ms. Dawsey's testimony notes that to a 
large degree, these reports, and that is the National 
Academies' and the NAPA reports, confirm our assessments of the 
challenges facing us in the workforce arena, and validate the 
actions that we have initiated to address the most critical and 
encompassing issues.
    Do you agree with NASA's response to the findings and 
recommendations of these reports, and if not, which of your 
recommendations do you think need the most attention by NASA?
    Dr. Stone, let us start with you, and then, we will move to 
Mr. Stewart, and then, if Ms. Dawsey has--if there is time 
left, we will give you a chance to share your point of view. 
So, Dr. Stone.
    Dr. Stone. So, your question is what do I think of NASA's 
response to these reports?

     Opinions on NASA's Response to National Academies' and NAPA's 
                                Reports

    Chairman Udall. Yes, yeah, and if you don't agree with all 
of them or most of them, or some of them, which of your 
recommendations do you think need most attention by NASA?
    Dr. Stone. Okay. I would say that NASA has, indeed, 
basically, except for the most extreme proposals at the end of 
the NAPA report, that I would like to address separately. The 
NAPA report basically is just a rubber stamping of the approach 
that NASA has been taking, of trying to realign its workforce 
through a process that largely involves the flexibility to 
enhance attrition, and to reduce the civil service complement, 
and I think there is a strange mixture in the goals of NASA's 
management, between trying to adjust to the real goal of the 
Vision, and trying to implement a civil service reshaping that 
involves a reduction of several thousand employees.
    And I think the latter is a political decision that isn't 
linked to any reality to the Vision, and so, there is some 
schizophrenia to their response, in that some of it is 
addressing real issues, and some of it is really just 
addressing that, what seems to be a predetermined goal to 
reduce the civil service complement.
    As far as the NRC report, I don't see much of a response at 
all to what they have suggested, and indeed, they seem to be 
continuing to shrink their education budget, continuing to 
reduce efforts to bring in young people, and in my longer 
testimony, there is a quote from the Administrator on this that 
I think is really telling. And there was a question asked at an 
all hands meeting at Ames a few months ago by a very prominent 
scientist, and the scientist asked: ``What is NASA doing to 
recruit young people?'' which is the largest effort in the NRC 
recommendations, and the Administrator's response was: ``I 
cannot grow the Agency by bringing in even all stars right now, 
that I want to bring in, unless and until folks like us, who as 
you said, are getting older, until and unless these folks 
retire.'' And indeed, I don't think this is official policy, 
but I think there is a quota of three to one, where centers are 
not allowed, the research centers are not allowed to hire 
someone until three people retire.
    And so, I think that there is a fundamental resistance from 
management to actually seriously take on the question of 
solving that fivefold reduction in the younger employees, and 
on one side, I find that reprehensible, and on the other side, 
it is understandable. It comes back to the point that I said at 
the beginning. There isn't enough money for Dr. Griffin to meet 
all the challenging needs of Constellation, and also, rebuild 
the workforce. And he is choosing to meet the short-term 
milestones of Constellation, and leave the workforce rebuilding 
problem to his successor, and he is doing so, I believe, not 
because he wants to, but because he is not being given adequate 
budget to do it right.
    Chairman Udall. Thank you, Dr. Stone. I am going to try and 
give Dr. Black a minute or so here to respond, and then, we 
will, in the next round, I will give Mr. Stewart and Ms. Dawsey 
a chance as well.
    Dr. Black. Thank you, Chairman.
    The problem of the workforce is a daunting one, and I think 
NASA has made at least good initial strides in trying to deal 
with this. As has been pointed out by Dr. Stone, our 
committee's concerns as regards young people and fresh hires, I 
think that they have not yet done all that well there.
    One of the things to understand is this is a very, very 
difficult problem. If you look at the kind of curve that Dr. 
Stone showed, one of the things that I think NASA has not done 
is to characterize its people both by the true level of their 
experience, their expertise, they count belly buttons in bins 
by job categorization, but not whether they really have the 
skills necessary.
    And the other thing that is really crucial in the strategic 
sense is to understand the dynamics of that curve. What are the 
sources and sinks? How do you adjust? Over what time scales? 
Different things have different timescales. Graduate students 
have certain timescales, industry has timescales. So, I think 
they really need somebody, and I don't believe this expertise 
exists in the Agency. We did a modest search. We were unable to 
find things, but I am sure somebody in the university community 
knows how to do this, to really understand what are the forces 
that shape and evolve that curve that Dr. Stone showed. And I 
think essentially, you are going to have to have that, if you 
are going to truly have a strategic plan to deal with workforce 
issues.
    Thank you, Dr. Black, and at this time, I will recognize 
the Ranking Member, Mr. Hall, for five minutes.
    Mr. Hall. Thank you, Mr. Chairman. Ms. Dawsey, it seems to 
me that we all agree that NASA's workforce is likely to face 
some changes--we expect that--that is given--in order to meet 
new goals that we have in exploration, science, and 
aeronautics, and NASA sent us a Workforce Strategy over a year 
ago, and I presume that you have been busy over the past year 
trying to implement some of this strategy. I think that is a 
good presumption.
    Would you please give me some specifics about what NASA is 
doing to bring its workforce into appropriate alignment to meet 
our exploration, science, and aero goals, and specifically, to 
answer the in-house problems, as set out by Dr. Black?

                 How NASA Is Achieving Workforce Goals

    Ms. Dawsey. Yes, sir. We have been working very hard over 
the past year to implement the Workforce Strategy. The 
Workforce Strategy is still current. What we have done is we 
have developed a comprehensive implementation plan, and that 
implementation plan, as I said, is worked around three goals, 
and one of them is workforce planning.
    Over the past year, we have set up a governance structure 
which includes human capital as, I believe, Mr. Stewart 
recommended, in all of the workforce planning decisions, 
aligned with other key officials in the Agency. We have also 
set up in that governance structure a standing workforce 
planning team, technical team, that includes human capital and 
workforce planning, workforce transition, staff from around the 
Agency, and we have specific sub-teams that will address 
specific issues, for example, for any skill mix issues, or the 
Shuttle transition. We have a team set up to do the mapping of 
Shuttle employees from Shuttle to Constellation.
    In terms of alignment, we have redesigned our leadership 
development programs. Basically, what we are working on is 
while our entry level pipeline is getting some criticism here 
this morning, we do have that pipeline. We have students, co-op 
students at NASA. We have about 400 of them at any given time. 
We also have over 400 graduate students working on NASA 
projects.
    The other part of the alignment, though, is to make sure, 
as also was suggested this morning, that we have program 
managers, project managers, senior technical, and senior 
executive service pipelines, and so, we are building career 
paths and training programs that start fairly early in our 
employees' career, and give them experience as needed, not only 
to build within their own career, but to understand NASA as a 
whole, both the program side of the house and the institution 
side of the house.
    And finally, we have taken our systems that have been 
operating pretty much independently of one another, the systems 
that would inform our leadership, and we are integrating them, 
so that they have all the workforce data they need, all the 
demographic data they need, to make decisions for the 
workforce.
    Mr. Hall. I thank you for that. So, the NASA Workforce 
Strategy, the ten healthy centers, I think the Administrator 
pretty well put that to bed.
    Ms. Dawsey. Yes.
    Mr. Hall. That there was talk of closing them at one time, 
and maybe some others on here think that might be the thing to 
do, but I think he has taken a pretty firm position on that, 
and I think a lot of us up here recognize how very capable he 
is.
    The second one is to maximize the existing workforce, as 
you have pointed out, and I think we have to do that, and 
third, then, you said three goals, and is the third one to 
evolve to a more flexible civil service, by--in your workforce, 
you pointed out the temporary people that you were using, and 
how many different universities they were from. Does that kind 
of summarize what--the three that you have said, or have I left 
out something?
    Ms. Dawsey. No, those are the three.
    Mr. Hall. All right. I think my time is almost up, and I 
yield back, and I do thank all four of you. Thank you, Dr. 
Black.
    Chairman Udall. Thank you, Judge Hall, and at this point, 
yield five minutes, to recognize for five minutes the gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, and well, first of 
all, let me ask Dr. Stone. You made suggestions about spending 
large amounts of money. Could you suggest to us where that 
money will be coming from?

                  Suggested Resources for Funding NASA

    Dr. Stone. First of all, I don't think they are large 
amounts of money that we are talking about, asking for----
    Mr. Rohrabacher. Anytime you talk about over $100 million, 
it is a lot of money.
    Dr. Stone. Okay. But----
    Mr. Rohrabacher. Where is it supposed to come from? You 
want to take it from the military? You want to take it from 
health research? To be taken seriously, when someone testifies 
here nowadays, you can't just come up and say you want hundreds 
of millions of more dollars here, hundreds of millions of 
dollars more there, and just expect we are going to come up 
with it like the Tooth Fairy is going to deliver it. If you 
want to be taken seriously, it is like any engineer, you have 
to know that you can't build something out of nothing. So, 
where do you want to get that money?
    Dr. Stone. With all due respect----
    Mr. Rohrabacher. I am asking a specific question. You can--
--
    Dr. Stone. The numbers that we quoted there were right out 
of the Authorization Bill. The Authorization Bill was passed 
almost unanimously by both sides of Congress.
    Mr. Rohrabacher. Well, fine.
    Dr. Stone. And so I didn't invent----
    Mr. Rohrabacher. Fine.
    Dr. Stone. But secondly----
    Mr. Rohrabacher. Well, I will have to tell you that I 
disagree with--quite often, when this Congress irresponsibly 
authorizes money, and doesn't say where it is coming from. You 
are an engineer, where do you want us to take it from?
    Dr. Stone. Well, you mentioned the military. The military 
has well over $22 billion----
    Mr. Rohrabacher. Okay.
    Dr. Stone.--for its space research program. A lot of the 
Constellation efforts----
    Mr. Rohrabacher. Okay.
    Dr. Stone.--are efforts that could be leveraged by the 
military. Indeed, when the Shuttle is gone, satellites are 
going to need to be repaired in different ways, and I would 
think that a lot of the technology that would be developed 
under the Constellation program would be dual use, and so, it 
would not be unfair to leverage some of those funds.
    Mr. Rohrabacher. All right. That is a good answer. That is 
what I was looking for. So, you think that we can actually find 
more funds by finding, by looking into what is now in the DOD 
budget, and either rechanneling them, or leveraging them, and 
making sure that they pick up some of the costs for what you 
want to do on the NASA side. Is that what you are talking 
about?
    Dr. Stone. That was one suggestion. The bottom line 
question is, though, if you ask NASA to do something, then you 
have to pay for it, so if you are not going to give us the 
billion dollars, then you have to decide what we are not going 
to do.
    Mr. Rohrabacher. And I agree with that as well, but let us 
just note that when people are advocating that we are going to 
end up spending so much more money, it has got to come from 
somewhere, and almost, you know, in my 18 years here, at least 
the Democrats now are suggesting that we have pay go, you have 
got to know where the money is coming from in order to advocate 
something, and I think to be taken seriously, and the 
suggestion you just gave, I think, is a good suggestion.
    Dr. Stone. Thank you.
    Mr. Rohrabacher. All right. Let me note that when we are 
talking about the workforce and future workforce, which you 
also stressed, we should be, I think NASA should be focusing 
more, although we just heard the testimony that there are 400, 
was it interns?
    Ms. Dawsey. There are 400 cooperative program interns at 
NASA.
    Mr. Rohrabacher. Right. It would seem to me that there 
should be more than that. That is a very cost-effective 
program. We have passed scholarship concepts here, which I have 
pushed for over the years, to try to target those people who 
are getting their education, and may not be able to afford it, 
unless we help them. The scholarships and the internships and 
apprentice programs, these are all things that I think are very 
cost-effective that should address some of the concerns of Dr. 
Stone and others that have testified today.
    Let me note that for a long time, I have been on this 
committee now for 19 years, and for at least 15 of those years, 
we were begging for a space strategy, and no President gave it 
to us except this President, and I have my differences with 
this President on a number of issues, but I will suggest that 
he did give us a space strategy. He wants us to focus on the 
Moon, he puts that forward, back to the Moon is the primary 
mission, and if we now know that that is the space strategy, 
and we all were begging for one, shouldn't NASA be restructured 
so that it meets that strategy as its primary goal?
    And you are not going to do it by keeping NASA exactly the 
same number of, you know, of employees, exactly the same number 
of centers. There has to be a prioritization in order to meet a 
goal. We finally have somebody set a goal, and I would suggest 
that we are going to have, Mr. Chairman, I would suggest that 
we are going to have to do some serious reform if we are to 
suggest to the people that we are serious. Now, I just asked 
Dr. Stone to be serious about it, give us an example, we have 
got to prioritize as well, and we have accepted the space 
strategy, let us get to work on it, and I am very, very pleased 
that Mr. Feeney is going to be the Ranking Member, and working 
with you, Chairman Udall, and you can count on my active 
support to try to make sure we reach that goal of back to the 
Moon, set that strategy, as the President has, and do the 
things that are necessary to responsibly reach those goals. 
Other goals have to be secondary, and it might mean closing 
some of the centers and letting some of the people go, mainly 
because you can't, as you say, you have got to spend money. The 
money hasn't been allocated, so let us spend the money that we 
have got wisely, to achieve the specific goals that have been 
set by the President. And I might say, approved by Congress.
    With that said, thank you very much, Mr. Chairman.
    Chairman Udall. Thank you, Congressman Rohrabacher, for 
your spirited interchange with the Panel. I would acknowledge 
and point out that all of us on the Committee know that we have 
to find some additional resources, and we are working in a 
bipartisan way to do so. At this point, I want to yield to----
    Mr. Rohrabacher. Mr. Chairman, could--just one note.
    Chairman Udall. Yes.
    Mr. Rohrabacher. It is finding additional resources or 
making the system more efficient.
    Chairman Udall. My opinion would be we need to both. Thank 
you for that question, Congressman Rohrabacher. At this point, 
I want to yield to Judge Hall, we want to start the clock for a 
special announcement and acknowledgment. Judge Hall.

              Introduction of Mr. Feeney as Ranking Member

    Mr. Hall. Mr. Chairman and Members on both sides of the 
docket, I am honored to say that when Ken Calvert was moved to 
Appropriations, it meant that we selected from among our group 
one to be ranking with you, Mr. Chairman, here, and the 
selection has been made. It is Mr. Feeney. He represents the 
Kennedy area, and is a very great supporter and very 
knowledgeable about space and aeronautics, and I think to 
demonstrate that I recognize him, that I will abandon this 
area, and let him come on and take my place, and I will go 
about looking for another job or something. Yield back.
    Chairman Udall. Thank you, Congressman Hall, and as 
Congressman Feeney moves over here, I will filibuster for a 
minute or so before I recognize Congressman Feeney. I would 
tell you that, as Judge Hall mentioned, Congressman Calvert has 
taken an important position on the Appropriations Committee. He 
has, I am sure, committed to all of us that we will take this 
particular committee's interests to heart on the Appropriations 
Committee, but I feel like we have actually generated a dual 
benefit, because as Congressman Calvert moves to the 
Appropriations Committee, we now have a new Ranking Member, Mr. 
Feeney from Florida, who represents the Kennedy Space Center, 
and I know will be a strong advocate for all things NASA.
    I had a chance to get to know Congressman Feeney a little 
bit better when we traveled together last summer to see the new 
series of Shuttle launches. We, as we often do, as Members of 
Congress, jinxed the launch for that particular day, but those 
of you remember the narrative, the Shuttle was launched on the 
4th of July, which was very appropriate, and I know Mr. Feeney 
was one of the proud observers that day.
    So, Congressman Feeney, I am looking forward to working 
with you. Welcome, as the new Ranking Member of the Committee, 
and the floor is yours to provide questions to the Panel, and 
to make any comments you would like to make.
    Mr. Feeney. Well, thank you, chairman. I am really honored. 
I am especially honored that my friend, Ralph Hall, would ask 
me to take this position. In the interest of full disclosure, 
you know, I am a real estate lawyer by background. I don't know 
much about science or space. I have got a lot of people in my 
district that do, including my wife, who spent about two 
decades as an engineer for a major contractor at Kennedy Space 
Center, and I like to point out that my political adversaries 
regularly say I am no rocket scientist, and that is true, but I 
am married to one, or she is pretty close, anyway, and that is 
about the best I can do, but having said that, I appreciate the 
chairman's leadership, and I agree with him that we are going 
to need both more resources and more efficient use of our 
resources, and I think that is an attitude that the both of us 
share, and I am very excited about pursuing ways to do that.
    I am particularly interested in some of the criticism of 
the strategy that Ms. Dawsey has laid out today, and I think 
there is a lot of good things in it, but some of the criticism 
focuses, and I think Congressman Rohrabacher mentioned it, on a 
lack of an aggressive enough plan for young people. And I 
should share with you that along with Mark Kirk and Rick 
Larsen, I was the first American allowed to see the Chinese 
civil space launch facility in Jiuquan, and that was a year and 
a half ago, and one of the remarkable things about what the 
Chinese are doing is that they are having young people develop 
a next generation rocket. What they admitted to us, and of 
course, all of their program is in their military budget, and 
they intentionally obfuscate what they are doing, but they 
admitted that they have over 100 university centers working on 
things involved in future space issues, whether it is creating 
robots to explore the Moon. Whether it is different types of 
technology. And one of my concerns is, and I think Dr. Black 
had a great analogy, no matter how talented you are, you can't 
walk onto a baseball field. I mean, try explaining the rules of 
baseball to a foreigner. It is almost impossible, and it takes 
time to understand the rules, let alone develop the specific 
skills. And I am concerned, Dr. Stone, I think, pointed out 
with the retirement that we are facing, I am very concerned 
that we do not have the long-term plan in place to attract the 
young people that we are going to need to maintain space 
predominance, and failure to maintain space predominance is 
simply not an option. We don't know what the Chinese long-term 
intentions are, for example, but we cannot permit space 
predominance, anybody other that even potentially could be 
hostile to peaceful interests, and I think it is very 
important.
    Dr. Black, would you elaborate, because you talk about the 
fact that we ought to visualize the workforce as more than just 
the 80,000 people that are working directly in aerospace and 
also trained in aerospace, but we have got a much larger pool, 
DOD, aerospace industries, can you give us some idea how we can 
better use the available pool today, but also, develop a larger 
pool for tomorrow, of young people?

       Suggestions for Utilizing the Current Pool of Workers and 
                 Developing a Workforce for the Future

    Dr. Black. Well, there actually is, as you are well aware, 
I am sure, there is an Interagency Aerospace Workforce 
Revitalization Taskforce Act, which you have been involved 
with, and that is, I believe, a term thing that is involved, 
focuses strictly on government entities. One thing I would 
encourage you to do is try and broaden that. The ecosystem that 
we talk about includes not only the government, but also, the 
university community, as well, and the private sector of the 
contractors, and it is in that context that I think the 
solution must be sought, in terms of how to balance, move, have 
flexibility for the overall aerospace workforce.
    I would say that if you take your point on China, I think 
China now is much like it was when I was a kid, at the 
beginning of the Apollo, I am giving my age away here. It is--
--
    Mr. Feeney. You mean, much like we were.
    Much like--right. And as, I think that it is one thing to 
maintain existing space capabilities. It is another thing to 
have young people actually develop new----
    Dr. Black. Well, that is right. And I think the enthusiasm, 
what the Chinese youth are probably seeing now is much what the 
youth of America saw in the late '50s and early '60s.
    Mr. Feeney. I can tell you, their taikonauts are heroes 
over there. We are----
    Dr. Black. Oh, you bet. You bet. And so, and I think that 
is one of the things we have lost, if you--as we listen to 
various witnesses that came before us and our committee, one of 
the things that emerged is that NASA is no longer the place, 
necessarily, where the people in universities are recommending 
their best students go, and in fact, many of the best students 
no longer do go there. And one of the reasons for that is 
programs take so much longer. If you look at what has happened 
with--I was the first chief scientist for the Space Station 
Program. I came here in 1985 for that function, and left in 
'87. I don't have to tell you where we are on that right now.
    So, that is the kind of thing that if you are today's 
youth, and by the way, today's youth, I think, as a professor 
at Rice University, are--my experience and my colleagues' 
experiences are that they are much more oriented toward quick 
return. They are not as career-oriented as many of us were, so 
I think the ability to attract young people is a much more 
difficult challenge, and to keep them in the workforce, than it 
was when we were growing up.
    But I think it is important to do that, and Ms. Dawsey 
points out the 400 kids working. The problem is, many of those 
are associated with what is truly the sort of crown jewel of 
NASA, the science programs. They are very excited, and they 
come over, and that is great, and I don't think that should be 
discouraged, but the shortage that the Committee noticed was 
more in the systems engineering, project and program 
management, and there are very few programs that NASA has to 
bring youth in those areas. They are very strong in the science 
areas, but not so strong in those areas, so I think if they are 
going to truly address the shortages that they have, they need 
to pay more attention to that aspect, as well.
    Chairman Udall. Thank you, Congressman Feeney. Thank you, 
Dr. Black. I wanted to acknowledge that a contributing and a 
very engaged Member of the Committee has joined us, Mr. 
Melancon from Louisiana. I know at this time, he doesn't have 
any questions and wants to learn from the panel, so at this 
time, I will recognize the Member from Alabama, Mr. Bonner, and 
we all envy Alabama's delegation, and its commitment to 
aerospace and aeronautics, and the tremendous set of facilities 
and operations they have down there. So, Congressman Bonner.
    Mr. Bonner. Thank you, Mr. Chairman, and thanks to each of 
the panel members.
    I am going to give you an unscripted question, because a 
lot of times, we get questions given to us that we think we 
need to put on the record. As a nation, we have often looked to 
our President or to the head of NASA, or other leaders in the 
field to set out a vision, and I think it is safe to say that 
each of the four of you have a passion for NASA, and have a 
passion for the mission of NASA. But as President Kennedy in 
the 1960s, and as other Presidents in more recent years have 
done, in describing their vision of where they would like NASA 
to be in the 10, 15, 20 years in front of us, where would you 
like to see NASA be? If you differ from what Congressman 
Rohrabacher indicated President Bush's mission of taking us 
back to the Moon, and possibly on to Mars, where would you 
like, and this is not a loaded question.
    I would just like to know from your experience, where would 
you like to see NASA go in the next 20, 30 years? And it is 
open to all four of you.

                         Future Vision for NASA

    Mr. Stewart. Well, I think in fact, I think that the Vision 
that President Bush set out is a pretty good one, and it is a 
very challenging one. I mean, we have been talking this morning 
as though this is going to be a piece of cake. Well, I mean, 
given the realities of the budget situation that the Congress 
faces, and given the realities of the existing NASA workforce, 
and given the fact that one of the first things that 
Administrator Griffin mentioned when he took responsibility for 
that position was that he wanted to bring the core 
responsibilities back into NASA. He wanted NASA to have the 
expertise and the experience to take charge of developing the 
various elements that are going to be needed to achieve the 
Vision.
    And that was exactly the right thing to say. I mean, that 
was precisely on target, but it laid out a very daunting 
agenda, because the fact is, and I think both our reports 
indicate that, the expertise and the technical expertise that 
is needed to do that does not currently exist in NASA to the 
degree that it needs to if they are going to accomplish it. So, 
that is why this workforce thing is so important.
    And so, it is a challenging Vision that the President has 
set out, and it is one that I think has it, I mean, you know, 
the Shuttle has been, in many ways, a real triumph, in many 
ways, a great tragedy, but because it never really went 
anywhere, you know, it just went around in circles, so to 
speak, it didn't have quite the same excitement associated with 
the Apollo Program.
    Well, that is going to change now. And I think when we are 
actually another couple of years down the road, and the young 
people of this country see, in fact, that we are going to go 
back to the Moon, I think there is going to be a lot of them 
who are going to get very excited about that, as they did 
before, and I certainly hope that that is what happens. I think 
it will, and that is--if we could achieve that, I would think 
we would be--and don't forget, the Vision includes not stopping 
at the Moon. And so, if you really take that seriously, you 
have really got yourself an agenda.
    Ms. Dawsey. Congressman, I agree with Mr. Stewart. I think 
that the Vision set before us is an exciting Vision, and it is 
where NASA should go.
    I would like to say that our Administrator, Mike Griffin, 
is doing his best to carry out that Vision. He has reorganized 
NASA back to the, almost to look like the organization under, 
during the Apollo era, and we are all tasked, Mike Griffin has 
spoken very directly, as many of you may know, he is a very 
open, direct person, and he has told us what he expects of us. 
And yes, it is a daunting challenge, but I really feel 
convinced that NASA is doing everything it can, given what 
people are calling challenges in terms of budget and FTEs, but 
what we have done in the past year is remarkable.
    In terms of workforce planning, for example, I have talked 
about a governance structure, but we took 75 separate systems 
just in HR that didn't talk to one another, and we pulled them 
together, to give the leadership an idea of who is working on 
what, and when and where. We have a competency management 
system that now is loaded with personal competencies, as well 
as position competencies, and they are validated by supervisors 
or expert panels. That system is married now with the Workforce 
Information Management System, to show, the CMS shows supply, 
the Workforce Information Management System shows demand, and 
together, they are showing us where our gaps and surpluses are, 
so that we can start building recruitment programs around 
those.
    The other thing that we are doing, in terms of setting, 
making sure we are moving quickly enough and in the right 
direction, is we have mapping plans of Shuttle to 
Constellation, so again, we are watching that workforce, and 
where we don't have, we have ceiling restrictions, when I 
mentioned that we had 400 cooperative education students in 
NASA, they are across all centers. They are in science and 
engineering, and where most of the science funds are going are 
to the graduate students, and yes, most of the money for the 
graduate student program is science.
    The other part of the problem is we do have a workforce 
that has been at NASA a long time. People love NASA. It is an 
exciting place to work. They come to work there, and it is 
their career. They are not looking to move on. The newer 
generation might be, but our experience so far is they want to 
be there. So, we are putting in place really serious retraining 
programs. We are developing program project management training 
programs. We have engineering programs going. We are sending 
people to colleges and universities, as well as doing internal 
training. We have realized that we used to be ten centers, and 
we realized that we need to be one NASA, and Mike Griffin is 
really pushing that. So, when we look at the exploration 
program, if work can be done at other centers, the work goes 
there. And NASA has educated, intelligent engineers and 
scientists in all ten of those centers, and so, we have been 
really, really successful.
    Two years ago, we had over 2,000 unfunded FTEs, we have 
that down to 200 now, because we have moved work judiciously, 
and we have reassigned people. We have offered buy-outs and 
early outs to allow us to recruit, and over 1,300 people have 
left, because we have that flexibility. It is very difficult to 
explain how all of this is coming together. We are working very 
hard on the institution side of the house to support the 
program side of the house, and there are a lot of exciting 
activities going on. And we also have updated----
    Chairman Udall. Ms. Dawsey, if I might, the gentleman's 
time has expired, and I appreciate your passion for the 
subject, and if the other witnesses would like to comment for 
the record on the question that Mr. Bonner directed, we would 
be happy to accept those comments.
    I want to make a comment and make an acknowledgment before 
we recognize Dr. Wu. Congressman Bonner talked about unscripted 
remarks. He is now in a very exclusive group, because 
Congressman Rohrabacher never makes scripted remarks, to his 
great credit.
    I did want to acknowledge we were talking about heroes in 
the Chinese society, and we have just been joined by a true 
American hero, and that is Buzz Aldrin is here, sitting on the 
front row, and we want to acknowledge the great Buzz Aldrin. 
Thank you. Thank you for your service and your example, and we 
are honored to have you here, sir.
    I would be honored to yield five minutes to Congressman Wu.

                 Age Demographics of the NASA Workforce

    Mr. Wu. Thank you very much, Mr. Chairman, and thanks for 
making me a doctor. I have really disappointed my parents by 
not going down, further down that road. But I am making up for 
it today.
    Ms. Dawsey, perhaps I will give you an opportunity to 
follow up on the answer that you were making, and I am asking 
this question just based on anecdotal evidence, personal 
experience of visiting three or four NASA centers, and 
attending several lectures of folks who were with the Mercury, 
Gemini, and Apollo Programs, and these were active 
participants. If you did the arithmetic, you sort of thought oh 
my gosh, you know, these are folks who were in their early to 
mid 30s when they were in charge of major parts of the program.
    That is one information set, if you will, and then, during 
my walkthroughs, and this could be anecdotal and not accurate, 
it could be because of the people I was with, and what I was 
looking at, but it sure seemed to me like, and I hate to use 
the term old, because these were folks about my age, maybe 
slightly older, maybe slightly younger, but there were a whole 
bunch of folks who were sort of longer in the tooth, like me, 
than coming to the younger age groups, there seem to be 
precipitous dive-downs statistically, and then, as you get to 
the youngest of the professional groups, or out in the assembly 
areas, there might be a little blip of younger people. But 
there seem to be a real collection of people at the older end 
of the spectrum, and then, at least as a significant valley of 
people in the in between range, and a shortage of younger 
people.
    And I just, when I observe that, and this was, you know, 
over a period of a few years, and I have not been back in the 
last 12 months or so, at least, I have a concern in the back of 
my head about whether we have the right, whether we will have 
the right personnel mix to accomplish the missions that have 
been set out for us, and it is not that you don't learn a lot, 
get better at things, as one hopes, also, as one gets older, 
but I am just wondering about the age distribution of the 
workforce that we have today, as compared to the early 
exploration phases that NASA engaged in, whether that has 
something to do with NASA budgets, whether that has something 
to do with the competitive arena that you all are engaged in, 
with the private sector or others, and I would like to just 
turn it over to you and the rest of the panel to address that 
as best you can.
    Ms. Dawsey. I will try to keep my response shorter. One of 
the reasons that what you observed is true is NASA has always 
worked hard not to conduct reductions in force, and in the 
'90s, when there was major downsizing across government, NASA, 
attrited through natural attrition, and did not conduct 
reductions in force when most other government agencies did. 
So, that is why you see that gap in the middle.
    As I said, when we are able to hire, we are trying to hire 
to fill that, to do the succession management kind of hiring, 
so that we have people who are filling in the middle group, and 
bringing in younger students. We recognize we do have an issue, 
and we are working to address it.
    One of the ways we are addressing it is we are having 
different--Constellation is relatively new, and we are just 
finishing the systems requirements, and the systems 
requirements reviews this month, and we are going to do a 
program baseline synchronization following that, and that will 
show, give us a better idea of what the new requirements are 
for Constellation and where we need to direct our recruiting, 
and so, that is another effort to know what kinds of skills and 
when we can start hiring to fill those skills, those skill 
needs.
    Mr. Wu. Thank you. Would any of the other panelists like to 
make a comment?
    Mr. Stewart. You are right about the age distribution and 
so on. It is very striking, and a good part of this is due to 
the fact that in the '90s, there was a job freeze in most areas 
of NASA, and it was very difficult to deal with that, and there 
weren't any fresh outs coming in in several of those years. And 
I was on the Aerospace Safety Advisory Panel in those years, 
and we wrote specific reports on the safety implications of not 
having adequate workforce dealing with the Space Shuttle, and 
it got to be 2000, 2001, those restrictions were relaxed, and 
we could begin to hire young people and so on.
    But there are going on in NASA today, and we talk about it 
in our report, various experiments, which are very 
encouraging--let me see if I can get the right title on it--the 
Contracting Intern Program--which has been done in the Office 
of Procurement, to go out and find young people, bring them in, 
circulate them around through the centers, so they don't get a 
headquarters mentality, has been very successful.
    There are a number of examples in other federal agencies, 
which we talk about in our report, that I think NASA could 
usefully adopt, and not at any great additional funding, none 
of these are going to cost more money, but there are examples, 
and I think the panel agrees, I don't agree with much of what 
Dr. Stone said, let me say, but I do agree that we have got to 
get more young people in.
    Chairman Udall. Mr. Stewart, thank you. The gentleman's 
time has expired. We have just had a series of votes called, 
but I think we will try and get another round from the Chairman 
and from the Ranking Member, if you all would be willing to 
stay, and then, we will have to adjourn the hearing.

                     Workforce Implementation Plan

    Ms. Dawsey, you stated that NASA has a Workforce 
Implementation Plan to accompany the Workforce Strategy. Does 
that plan have specific objective, steps to achieve those 
objectives, specific milestones and resources requirements, and 
if not, why not, and would you please either way, provide the 
Implementation Plan to the Subcommittee?
    Ms. Dawsey. Yes, I think it is on, the Implementation Plan 
is on its way to the Subcommittee, if you don't already have 
it. It was requested on Monday, so you may have it by now.
    The Workforce Implementation Plan is very comprehensive. I 
mentioned the three goals that we had, and each of those goals 
has three objectives, but the total is 150 tasks to implement 
the strategy.
    Chairman Udall. Does it have timetables and milestones?
    Ms. Dawsey. Yes, it has timetables and milestones, and we 
have an automatic tracking system, and the automatic tracking 
system shows the milestones, the metrics, timetables, and the 
leads. And it is agency-wide, we have--some of our centers are 
some of the leads on the projects, on the tasks.
    Chairman Udall. Thank you, and we look forward to reviewing 
that plan when you send it over to us. Thank you.
    Dr. Black, the National Academies report notes that it is 
critical to maintain in-house scientific competence to provide 
leadership and to maintain expertise in specialty areas that 
are not broadly practiced in universities and industry. Would 
you elaborate on that point?

               Importance of In-house Scientists at NASA

    Dr. Black. You know, the in-house scientists at NASA play a 
very special role. They provide the linkage with the project 
and the science objectives of the missions. They help translate 
the requirements. They are, in a sense, the guardians of the 
sciences, as the trades need to be made, and as the mission 
goes forward.
    And these are the kinds of activities that typically 
university people do not have the time or the inclination to 
stay involved with. So, it is very important that NASA maintain 
a core scientific expertise with people who have the ability to 
work with the projects, work with the engineers, to make sure 
that the projects are being done in a way that really realizes 
the scientific objectives that are set out. And so, these are 
the kinds of skills, if I understand your question, that we 
think that it is important to maintain inside the Agency.
    We did remark in our report that it would probably be 
worthwhile at least doing a head count, and see whether, in 
fact, all of the scientists associated with NASA need to still 
be involved that way, but that is a separate issue.
    Chairman Udall. In the couple of minutes I have remaining, 
anybody else on the panel want to comment on that particular 
question? Mr. Stewart.
    Mr. Stewart. Well, somewhere before the hearing is over, I 
want to just say clearly for the record, that I think Dr. Stone 
has seriously mischaracterized the NAPA report, and I take real 
exception to some of the things that he said. I just want to 
get that on the record. For example, nowhere in our report do 
we talk about BRAC commission. It just isn't there. I mean, we 
talk about the fact that there ought to be a systematic 
methodology for looking at the centers, for matching the 
responsibilities of the centers to the workforce that they 
have, and providing the flexibility and tools that are 
necessary to get the right people to the right place at the 
right time.
    The Senate Appropriations Committee, when they asked us to 
do this report, I don't think anticipated that we were going to 
come back to them and say well, you know what, folks, what you 
need to do is appropriate more money. I don't think that was 
what they had in mind when they gave us that assignment. We 
didn't get into the issue of what the NASA budget ought to be. 
That was not our assignment. Our assignment was how do you make 
a flexible, scalable workforce a reality in NASA, given the 
tasks that they have to accomplish, and the budget restraints 
that are part of their world, and we have attempted to do that.
    And if one reads the report carefully, you will see we are 
saying you need data, you need data at the right places, you 
need data that is integrated. You need mechanisms, and we have 
provided several, that will help you make sense out of that 
data, and then, you need the tools that you can then act on 
that data. That is essentially what the report is all about.
    Chairman Udall. Thank you, Mr. Stewart, and you can 
certainly submit additional testimony on that line of thinking.
    Mr. Stewart. I think we will.
    Chairman Udall. Dr. Stone, you want the last 38 seconds?
    Dr. Stone. Just check the PDF file and do a search for 
BRAC. You will find it.
    Chairman Udall. Let me turn, at this time, to the gentleman 
from Florida for the final round of questioning. Mr. Feeney.
    Mr. Feeney. Well, thank you. Again, I want to thank 
Chairman Udall, and we have to run off, and we have got a 
series of about eight votes, so this will probably be the end, 
so that you guys can go to lunch, and we can get about our 
business.

           Ratio of Permanent and Nonpermanent Civil Servants

    I focused earlier on the need to recruit youth, whether 
directly in NASA, or DOD, or the aerospace community, that are 
excited about this, and now, I want to address a question that 
Dr. Stone has raised and Mr. Stewart has raised, and that is 
the question of what the proper balance is, being the strategy 
that Ms. Dawsey described, talks about a more appropriate blend 
of permanent and nonpermanent civil servants.
    And I guess I would like very briefly, because we only have 
a few minutes, I think I know Dr. Stone's answer here, but I 
would like to have the, maybe he can address this very quickly, 
but then the others. What is the proper ratio? How do we 
determine that, and for Ms. Dawsey, who I guess we will let 
finish up, how is NASA going to make these judgments and 
decisions about who ought to be permanent, as opposed--who 
ought to be nonpermanent civil servants.
    Dr. Stone, you want to start?
    Dr. Stone. Just briefly. As I said in the beginning of my 
opening statement, there were 36,000 NASA civil servant 
employees the last time we went to the Moon, and we went there 
successfully. And now, we have only 16,300 permanent, full-time 
civil servants left.
    And rather than give a long answer right now, I would just 
encourage the Subcommittee Members to take a look at the 
Columbia Accident Investigation Board and their advice on this 
topic, because I think there is a detailed analysis done by an 
objective panel about the role of over-outsourcing technical 
responsibilities to the private sector, and undermining the 
internal technical abilities of the agencies, and that 
contribution to the Columbia disaster, and I think that 
analysis is thorough, and that would give you an idea of what 
our concerns are. I can't give you a magic number, but I think 
when you look at the situation today, and you look at the graph 
that I showed you up there, the biggest problem facing NASA 
today is not to reduce its civil service workforce, and so, the 
obsession with this is a little bit troubling, considering that 
is not what the big problem is.
    And secondly, in one of the responses made earlier by Mr. 
Stewart, he said that the problem of recruiting young people 
was only in the '90s, but if you take a look at the graph, half 
of that fivefold reduction in the employees between 30 and 35 
was between 1993 and 2000, and the other half of it was between 
2000 and 2005. So, all I am saying is we are not hiring young 
civil servants, and the few young civil servants that we are 
hiring, we are hiring into term positions, which are much less 
attractive than the positions that were open to young people 
when I was looking at the Agency.
    Mr. Feeney. We are running out of time very quickly. Dr. 
Black and Mr. Stewart.
    Dr. Black. I just want to know if I get hazardous duty pay 
for sitting between these two.
    No, I don't really have that much to add. I think it is, 
the only thing I would say here is that, do not fall into the 
trap of just looking at a simple curve or two, and listening to 
numbers about how many are in this bin or in that bin. This is 
a far more complex issue than that, and to look at the dynamics 
of how you get people in, as I said earlier, to look at the 
differing timescales for the sources and sinks of these people, 
understanding the evolution of this workforce is a very, very 
daunting problem, and I don't think we have our arms anywhere 
near yet around how to do that.
    Mr. Feeney. Mr. Stewart.
    Mr. Stewart. You can't give a precise ratio off the top of 
your head. It is a position by position decision that the 
hiring authority has to make, and it is the nature of the 
position, the nature of the responsibilities that person would 
hold, along with a number of other factors, and we have a very 
precise decision guide in our report that will help managers 
make that decision in a coherent, rational way.
    In some cases, a term employee fits the position very well. 
In other cases, the term employee would not be a good decision, 
but you have to make that in a kind of rational way, and not 
just sort of grab something out of the air, and what we have 
tried to do here is to provide a mechanism for doing that in a 
rational and coherent way, and if that is done, we think that 
the actual ratio will take care of itself.
    Mr. Feeney. Ms. Dawsey, you have got about 10, 20 seconds.
    Ms. Dawsey. Okay, first of all, using term appointments is 
not for the purpose of attriting civil servants. The purpose of 
the term appointment is to look at work that is changing over 
the next 20 years, and making sure, as Mr. Stewart said, that 
the position dictates the type of appointment. Term 
appointments are for two years initially, but can be extended 
up to six years, and with our new term flexibility, we can 
convert without further competition to permanent if we, in 
fact, still need the skills. Right now, we have a skills mix 
issue that using term appointments will help us prevent in the 
future.
    Chairman Udall. Thank you. We are in a bit of a hurry, so 
you will understand as we depart quickly, but I want to thank 
the panel particularly, and for the very forthright and 
impassioned conversation we have had. And Dr. Black, you can 
apply for hazard pay at the site office. But I think that as a 
service we all care deeply about NASA. We have a passion for 
its future, and we also have great pride in what it has 
accomplished, and that is the point of the hearing, and the 
point of your all's appearance.
    If there is no objection, the record will remain open for 
additional statements from the Members, and for answers to any 
follow-up questions the Subcommittee may ask of you all, the 
witnesses. Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Toni Dawsey, Assistant Administrator, Human Capital 
        Management; Chief Human Capital Officer, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Chairman Mark Udall

Q1.  What are the critical milestones for NASA's workforce planning 
over the next few years, and do you anticipate any difficulties in 
reaching those milestones?

A1. The single most critical milestone for NASA's workforce planning 
over the next few years is the end of the Shuttle Program in 2010. As 
the new Constellation Program begins, NASA is shifting from a primary 
mode of operating and sustaining two major legacy systems, to a period 
of concurrent development of several new systems, and then to a period 
of transitioning from exploration back to operations. Operations 
personnel will be critical elements of developmental design, testing, 
and verification activities for Orion and Ares I initially. Once 
operational, the next developmental iteration of Ares V, the Earth 
Departure Stage, and the Lunar Surface Access Module will begin, 
thereby concurrently driving the need for a substantial developmental 
workforce. Thus, the NASA paradigm must shift more than once over the 
next few years. First, toward our new focus on development, and then to 
operations cycles that allow the Vision laid out in the NASA 
Authorization Act of 2005 to be fully executed on the schedule and 
funding profile outlined by the President and Congress. NASA's 
overarching goal is to preserve its critical skill base, ensure the 
viability of its core competencies, and execute the bold missions 
assigned to the Agency--this will be challenging, dynamic, and 
evolutionary. The major milestones for workforce planning related to 
transition are tied to the design milestones for the Constellation 
program (including initial operational capability for the Orion/Crew 
Exploration Vehicle currently planned for March 2015) as well as the 
retirement of the Shuttle program in 2010. NASA will evaluate these 
milestones, and revise them as appropriate, as part of the annual 
Planning, Programming, Budget and Execution process.
    Workforce and critical skills must be retained for safe execution 
of the remaining Shuttle missions, managed appropriately during the 
transition to ensure that the new developmental program workforce 
requirements are met, and engaged during the period following Shuttle 
retirement in 2010 prior to initial operational capability of the 
Orion/Crew Exploration Vehicle. For those elements of our new 
spacecraft systems that are based upon heritage Shuttle hardware or 
existing designs, the skill set requirements will be directly 
transferable to the new programs. In other cases, some of our workforce 
will have to shift roles, jobs, and possibly duty locations as the 
needs of the new programs require. The inherently more efficient design 
of the new systems will result in a need for fewer direct operations, 
support, and processing skills. Thus, some of the operations-focused 
workforce will be leveraged and shifted to more development-focused 
activities such as planning, design, testing and verification, and 
integration in order to build a workforce capacity that enables future 
developmental cycles spanning the transition from initial Ares I/Crew 
Launch Vehicle and Orion capability, to development and fielding of 
Ares V, Earth Departure Stage, Lunar Surface Access Module, Lunar 
Outpost, and then to systems that will take America to Mars.
    NASA plans to maintain this vital workforce and experience through 
final fly out of the Shuttle through: applying some of the new 
processes required for the new Ares and Orion vehicles to Space Shuttle 
processing in order to give workers the skills and hands-on experience 
they need to qualify for future work; non-monetary award based 
strategies; financial incentives when necessary; conversion to 
temporary and term appointments; and solid leadership. In addition, 
NASA is developing integrated workforce requirements across the 
Shuttle, International Space Station and Constellation programs. This 
will help with scenario planning, identification of gaps and overlaps 
in skills availability, and further refinement of the workforce 
profile. All of these steps will ensure we maintain the proper 
workforce for continued safe operations.

Q2.  Your testimony notes that ``with an enhanced workforce planning 
capability, NASA will be able to determine the demand for, and supply 
of workforce skills based on current and projected work requirements.'' 
What is the timetable for having the enhanced workforce planning 
capability, and how are decisions on workforce being made in the 
meantime?

A2. NASA's workforce planning capability is being enhanced in two key 
areas: (1) the Planning, Programming, Budget and Execution (PPBE) 
process; and, (2) the improvement of the quality of planning data used 
to determine gaps between workforce supply and demand.
    As explained more fully in the response to Question for the Record 
number nine below, workforce planning at NASA is programmatically 
driven through the PPBE process. Formulation of the FY 2009 budget is 
the first time that NASA is fully integrating workforce planning into 
the PPBE process. FY 2009 budget formulation is currently in process, 
and the impact of enhanced workforce planning integration is already 
being seen as workforce analysis drives Agency mission and work 
distribution planning. In addition to the normal PPBE data collection, 
the Agency is using the NASA Workforce Integrated Management System to 
improve its ability to track and manage the Available for New Work pool 
(uncovered capacity; i.e., civil service employees at NASA that are not 
currently assigned or supporting Agency programs) through new data 
collection formats.
    NASA plans to complete several efforts to improve the quality of 
workforce planning data for use outside of the budget process by the 
end of the calendar year. One important initiative is the development 
of a Strategic Workforce Management Model which will be an Agency-wide 
``FTE demand'' (i.e., the anticipated long-term need for workforce FTE, 
to accomplish funded programs and projects) model to be used in 
workforce planning activities. In addition, NASA is holding Agency-wide 
capability assessment forums to further refine the Agency's workforce 
planning picture. Finally, the Agency is now evaluating several 
modeling, simulation and analytical tools in an effort to better 
capture system dynamics and requirements-driven workforce and skill-mix 
forecasting.

Q3.  The National Academies report recommends that NASA increase 
opportunities for younger workers to obtain hands-on flight development 
experience through NASA's sub-orbital programs. The report also 
suggests that NASA fund these hands-on training opportunities through 
the Education Office. Does NASA have any plans for adopting this 
recommendation and has it been discussed with NASA's Education Office?

A3. Experience has shown that exciting and compelling NASA missions 
truly can inspire the next generation of explorers, innovators, and 
leaders. NASA's unique program content, people, and facilities can be 
leveraged to spark interest, capture imaginations, and guide students 
toward careers in STEM fields while increasing their scientific and 
technologic literacy to the benefit of the Nation.
    A top priority for the new management of NASA's Science Mission 
Directorate (SMD) is to provide greater hands-on development and flight 
opportunities as a way to prepare undergraduate and graduate students 
in science and engineering to lead larger missions in the future. 
Through NASA's suborbital sounding rocket, balloon, and aircraft 
research programs, as well as flight projects, SMD is currently 
conducting a comprehensive study of student hands-on opportunities to 
better prepare new scientists and engineers in the scientific 
exploration of space through a Student Collaboration Definition Team. 
This team was established to: 1) explore best practices in project-
based learning exemplifying the nature of NASA's scientific exploration 
in space; 2) explore additional learning opportunities of a similar 
character that is not part of a flight missions; and, 3) provide 
opportunities for input from the community engaged with SMD. This team 
held its first meeting in early May 2007. A white paper is under 
development and a community workshop will be held at the end of 2007 or 
early 2008. The sub-orbital research programs continue their 
involvement of students in relevant authentic research opportunities. 
In addition, four new sounding rocket payloads were recently selected 
for flight, with research launches planned between 2008 and 2010.
    NASA's Office of Education in collaboration with the Agency's four 
Mission Directorates provides additional opportunities for students to 
engage in NASA mission related experiences. For example, within SMD, a 
broad spectrum of education activities are sponsored ranging from 
kindergarten to postgraduate levels. All of NASA's science missions and 
programs are required to have an education and public outreach 
component. Through a competitive, peer-review selection process, NASA 
provides funding dedicated to education and public outreach to 
researchers. NASA also sponsors graduate and post-doctoral fellowship 
opportunities. In addition, the Agency is looking for new ways to 
provide increased opportunities for students to gain greater experience 
developing and launching their own science instruments, either in 
conjunction with science missions or through its sub-orbital rocket and 
balloon programs.
    Examples of successful collaborations include:

        <bullet>  Launched in January 2006 as part of the New Horizons 
        Mission, the Student Dust Counter is the first student-built 
        instrument selected by NASA to fly on a planetary mission. 
        Built by students at the University of Colorado at Boulder, the 
        counter will monitor the density of dust grains in space. This 
        data is of particular interest to researchers. Given the nine-
        year travel time, discoveries from this mission will engage 
        today's elementary school student until college when this 
        spacecraft encounters Pluto.

        <bullet>  Aeronomy of Ice in the Mesosphere (AIM) began its 
        two-year mission on April 25, 2007, after a flawless ride to 
        Earth orbit aboard an Orbital Sciences Pegasus XL rocket. AIM 
        is the first mission dedicated to exploring mysterious ice 
        clouds that dot the edge of space in Earth's Polar Regions. 
        With AIM, Hampton University in Virginia has become the first 
        Historically Black College and University to lead a NASA 
        satellite mission. Undergraduate and graduate students from 
        various STEM disciplines will have an opportunity to join 
        faculty researchers in the analysis of collected data.

        <bullet>  On February 17, 2007, NASA launched five Time History 
        of Events and Macroscale Interactions during Substorms (THEMIS) 
        micro-satellites to study the Earth's magnetosphere. THEMIS 
        will help scientists understand how and why space storms create 
        havoc on satellites, power grids, and communication systems. 
        Students will work with scientists to unravel a variety of 
        scientific mysteries.

        <bullet>  Between the International Space Station, the Space 
        Shuttle, sounding rockets and high altitude balloons, NASA's 
        Education Flight Projects provide hands-on experiences to 
        inspire and motivate students to pursue studies and careers in 
        STEM through participation in NASA research applications. NASA 
        is using its unique assets like the C-9 better known as ``The 
        Vomit Comet'' to allow students to study microgravity. The 
        Agency is launching student experiments more than 25 miles 
        above the Earth on sounding rockets. And NASA astronauts make 
        phone calls from 240 miles above Earth's atmosphere to students 
        to involve them in current research aboard the International 
        Space Station. All these opportunities take advantage of NASA's 
        flight hardware projects provide real, hands-on experiences to 
        inspire the minds, imaginations, and career ambitions of 
        America's young people.

        <bullet>  NASA's support of higher education students is 
        embodied by the National Space Grant College and Fellowship 
        Program, which continues to provide fellowships and 
        scholarships to students across the country. Recent statistics 
        show that, of the pool of students who completed their degrees, 
        31 percent were employed in STEM careers and 48 percent 
        continued their education to the Master's, Ph.D., or 
        postdoctoral levels. Many consortia have implemented hands-on, 
        university student-led projects in aeronautics, rocketry, 
        scientific ballooning, rocketry, and nano- and micro-satellite 
        development. These types of projects provide the professional 
        training that enable students to be fully prepared to enter the 
        STEM workforce.

        <bullet>  NASA, in collaborations with the International Space 
        Education Board (ISEB), is increasing science, technology, 
        engineering, and mathematics literacy and enhancing future 
        workforce needs with the development of Global Education Ground 
        Station Network. The network will serve the interest of all 
        universities wishing to launch small satellites, by providing 
        near continuous ground station coverage for all educational 
        satellites. NASA is funding California Polytechnic University 
        (Cal Poly) to collaboratively develop software in support of 
        the Global Educational Ground Station Network. The software 
        will schedule passes autonomously, monitor for errors, perform 
        error correction, prioritize utilization, etc. The network is 
        to be developed by students for students.

        <bullet>  The Office of Education is sponsoring one Science, 
        Engineering, Mathematics and Aerospace Academy (SEMAA) team to 
        participate in ARLISS (A Rocket Launch for International 
        Student Satellites). ARLISS is designed to provide an 
        educational experience to students in the design, flight, and 
        data analysis of a space experiment (an experiment housed in a 
        coke can). This program is to prepare students for an exciting, 
        technical challenge that may lead to launching space 
        experiments into low-Earth orbits and beyond. University 
        aeronautics/astronautics students, high school students, 
        robotic clubs, and hobbyists get together each year to fly 
        their satellite projects in rockets supplied by Aero-pac. 
        Stanford University and others around the world sponsor this 
        project.

Q4.  According to the list of NASA workforce competencies provided in 
the National Academies report, there are 106 NASA workers with 
competency in astronomy and astrophysics, eight with competency in 
hydrological science, 36 in air traffic systems, and so on. How is NASA 
making decisions about how many individuals are needed to maintain core 
competencies in science and aeronautics areas?

A4. The NASA centers use the Agency's Workforce Integrated Management 
System (WIMS) to plan the individuals and competencies required for 
future work elements. WIMS aggregates the numerical data expressing 
workforce requirements for each center. Center management reviews this 
planning data and makes adjustments as necessary, including adjustments 
to the size of specific workforce components. Each center is the focus 
for specific key capabilities required for the overall NASA mission, 
including space flight, aeronautics and science capabilities. Through 
the annual budget process, centers work with Headquarters in making 
decisions that affect the workforce strength available in the future to 
provide key capabilities.

Q5a.  With respect to the ``Ten Healthy Centers'' component of NASA's 
Workforce strategy, Dr. Black questions whether the Centers will have 
the appropriate staff to handle work that is sent to the Centers. Mr. 
Stewart raises concerns about how NASA plans to measure the health of 
its Centers. What are NASA's current plans for implementing the ``Ten 
Healthy Centers'' approach?

A5a. NASA has implemented and intends to maintain the ``Ten Healthy 
Centers'' approach.

Q5b.  What criteria is NASA using to evaluate the health of its 
Centers?

A5b. An essential attribute of a healthy center is a skilled and 
flexible blended workforce with sufficient depth and breadth to meet 
the Agency's challenges. Recognizing that NASA must be able to assess 
the capability (or ``health'') of its workforce to meet mission goals, 
the Agency recently developed six measures of workforce capability that 
are being used to monitor multiple dimensions of workforce health at 
the centers and identify areas of misalignment. These measures are: 
scalability, skill availability and access, performance and 
proficiency, sufficiency, sustainability, and utilization. They are 
defined below.

        <bullet>  Scalability: Extent to which a center is able to 
        adjust the number of FTE (civil service employees) and WYE 
        (contractor employees) of different types quickly enough to 
        meet changes in workforce demand within an anticipated range of 
        future work.

        <bullet>  Skill Availability and Access: Extent to which a 
        center has access to needed competencies at an acceptable 
        quality level for range of anticipated work.

        <bullet>  Performance and Proficiency: Extent to which civil 
        service and contractor performance is (or is anticipated to be) 
        reliable for range of work--particularly with work that is new, 
        high risk or inflexible in terms of schedule or cost.

        <bullet>  Sufficiency: Degree to which a center has sufficient 
        capacity, appropriate skill mix, and competence within the 
        civil service workforce to fulfill management and oversight 
        responsibilities.

        <bullet>  Sustainability: Extent to which a center has 
        sufficient ``bench strength'' over time to sustain appropriate 
        level of internal capacity in key business, technical, and 
        managerial positions to grow in-house skills and replace 
        workforce as they move up or out.

        <bullet>  Utilization: Degree to which civil service workforce 
        is used efficiently to perform the work of the center, in terms 
        of ``coverage'' of workforce by budgeted FTE dollars as well as 
        efficient and effective use of staff to funded work.

    Associated with each measure are qualitative and/or quantitative 
indicators (including demographic patterns, refresh rates, attrition 
patterns, career development paths) that each center uses to assess its 
workforce relative to that measure. The measures can be used 
individually to describe specific areas of misalignment, but are 
intended to operate as a set to demonstrate the overall ``health'' (or 
capability) of a center's workforce and indicate potential tradeoffs 
that may be necessary to meet particular workforce objectives.
    It is important for the Agency to identify potential misalignments 
sufficiently early that there is adequate lead time to develop and 
implement effective strategies to correct the misalignments. For that 
reason, we have integrated this assessment process with the annual 
Planning, Programming, Budgeting, and Execution process. The objective 
is to have centers provide information to the Agency regarding the 
capability of their workforce over the budget planning horizon using a 
consistent and systematic approach.

Q6.  How are decisions currently being made on whether NASA projects 
should be conducted by in-house civil servants or by contractors?

A6. NASA has a policy directive in place to address distinguishing 
between contractor and civil service functions. NASA also has 
identified specific activities that it has determined to be vital to 
keep in house. These include: strategic guidance, oversight, 
fundamental decision-making, sustaining program momentum, retention of 
institutional memory, decisions about cost trade-offs, and 
architectural understanding. Decisions regarding whether projects 
should be conducted by in-house civil servants or by contractors are 
made within the framework of the NASA Strategic Acquisition Approach. 
During acquisition strategy planning, leadership considers issues such 
as alignment with the Agency Strategic Plan and the NASA Ten Healthy 
Centers policy. Prior to acquisition or to partnership commitments, 
Acquisition Strategy Meetings are held to validate make-buy rationales 
and to make final make-buy decisions.

Q6a.  How does NASA determine whether it has the right level of in-
house expertise to make ``smart-buyer'' decisions?

A6a. Assuring ``smart-buyer'' capability is inherent in Agency and 
center leadership's responsibility to manage NASA's multi-sector 
workforce. It is inextricably linked with responsible institutional and 
technical management practiced at NASA. Several major Agency-level 
processes come together to ensure that NASA has the right level of in-
house expertise to make ``smart-buyer'' decisions. Within the 
acquisition process, NASA leadership at both the Agency and center 
level work together in the Strategic Acquisition Approach to make sure 
that all pertinent considerations (such as key activities and Agency 
strategy and policy described above) are taken into account in 
determining which work to contract out and which to perform in-house. 
Within the budget process, the Agency makes decisions about the 
assignment of work to centers such that risk to the long term viability 
of centers and their ``smartbuyer'' capability is minimized and center 
health assured. Within the human capital process, recruitment, staffing 
and development actions are undertaken continually to improve NASA's 
``smart-buyer'' capability.

Q6b.  Does NASA plan to use the tools for decisions about the mix of 
contractors and civil servants in NASA projects provided in the NAPA 
report?

A6b. It is important to note that NAPA's eight major categories of 
critical importance in deciding whether to hire a civil servant or use 
a contractor are not conceptually new to NASA. Considerations of 
Function, Resources, Workload, Labor Market, Accountability, Risk, 
Quality/Service Level, and Employment/Flexibility are already part of 
NASA's decision-making. What is new about NAPA's NASA Civil Servant-
Contractor Decision-Making Guide is its quantitative approach to using 
the scoring and rating of multiple criteria within each category to 
drive Agency make-buy decisions. NASA is currently in the process of 
coordinating analysis and evaluation of NAPA's Guide to determine how 
it may be incorporated into Agency practice.

Q7.  Your testimony refers to the creation of a Workforce Planning 
Governance Structure. How often does this group meet and could you 
please provide some examples of the types of decisions that they are 
making?

A7. The Workforce Planning Governance Structure, established to 
strengthen NASA's human capital strategic planning capability, has 
representation from the Agency's human resources community, mission 
directorates, other mission support offices, and the NASA centers. The 
governance process will be used to align the Agency's resources in a 
manner that ensures the effective utilization of the workforce and the 
skills needed to accomplish the Agency's mission. The focus will be on 
increasing the level of integration and collaboration across workforce 
planning functions, improving the quality of information used to make 
decisions, and balancing short- and long-term planning needs.
    There are three main components of the Governance Structure: the 
Agency Governance Group, a Workforce Planning Technical Team, and other 
issue-specific ad hoc technical teams that are formed as needed.
    The Agency Governance Group is responsible for surfacing high-risk 
issues and recommendations to senior management, evaluating the results 
of planning activities, monitoring the progress of the operational 
groups, and developing workforce planning capabilities.
    The Workforce Planning Technical Team is a standing, on-going group 
that implements workforce planning guidance and policies; helps develop 
and implement center workforce planning capabilities; and assists in 
collecting data in support of workforce activities undertaken by the 
team. It is the hub of workforce planning information collection, 
distribution, analysis, and reporting across NASA.
    The ad hoc technical teams are formed to deal with specific issues. 
Their purpose is limited to the issue they are tasked with solving, 
with a defined scope and timeline.
    The Workforce Planning Technical Team is the element that meets 
regularly to address important workforce issues facing the Agency and 
to develop strategies to address the issues. It is not the group that 
makes the key decisions for the Agency; instead, it functions as a 
working, representative team that studies significant workforce issues 
and provides information, data, and recommendations to Agency senior 
management to consider. This team held its first meeting in mid-
February and meets (via telecon) every two weeks. This group has 
focused on a number of significant workforce planning initiatives over 
the past four months, including:

        <bullet>  establishing a greatly improved process for 
        identifying the Available for New Work (uncovered capacity) 
        segment of the workforce to facilitate finding solutions to 
        mitigate the problem; and,

        <bullet>  ensuring that centers understand the new ``Measures 
        of Workforce Capability'' adopted by the Agency to assess 
        workforce health at the centers so that the information centers 
        provide will generate valuable insights into the workforce 
        challenges they face, enabling Agency leadership to identify 
        the actions needed to strengthen and sustain workforce health.

Q8a.  At the June 13, 2006, Subcommittee hearing, you testified that 
NASA had reduced its uncovered capacity through retraining, job fairs, 
and buy-outs, among other measures. What is the current status of 
NASA's uncovered capacity and how does NASA track who is uncovered and 
by how much?

A8a. As stated in the NASA response to Questions for the Record number 
two above and number nine below the Agency plans individuals to 
programs and projects at one tenth of an FTE level by program and 
project at the work breakdown (WBS) level by name in the current year 
and next two years in the Agency Workforce Integrated Management System 
(WIMS). WIMS identifies which of the workforce is not fully assigned to 
a WBS and by how much.
    NASA's level of Available for New Work has been reduced to less 
than 100 FTE in FY 2008, an amount that is historically manageable as 
it is owed primarily to normal starting and stopping of tasks or 
projects. The success in reducing the level of uncovered capacity is 
due primarily to assigning Constellation Program work to every NASA 
center so that all centers are vested in the space exploration mission. 
While NASA still has skill mix imbalances at the centers the Agency 
continues to address those through early out/buy-out measures.

Q8b.  At last year's hearing, you noted that NASA had established 
retraining programs lasting several months at research Centers to allow 
staff to develop the skills needed to handle new work sent to the 
Centers. What is the result of those training programs and how are you 
assessing the effectiveness of those programs?

A8b. Many NASA centers have initiatives in place to ensure they have 
employees in place with the skills necessary to take on Constellation 
work. The retraining efforts predominantly focus on program and project 
management and systems engineering. Many of these initiatives are in 
their infancy, with identified employees still working on competency 
and skills development. NASA's Academy for Program Project and 
Engineering Leadership, which provides the bulk of this type of 
training within the Agency, conducted over 1,600 instances of related 
training in FY 2006. Training instances in FY 2007 will exceed last 
year's number.
    NASA's Langley Research Center (LaRC) in Virginia has begun a 
program of retraining that includes technicians. LaRC has also offered 
open enrollment courses on program management. In addition, LaRC has 
begun a series on program management and exploration which consists of 
courses, mentoring, projects, and details to other centers. To date, 
the participants have completed all the course work and are scheduling 
other aspects of the curriculum. NASA's Glenn Research Center in Ohio 
has recently begun its second class of systems engineering. They are 
conducting a mid-point evaluation of the first class and will make 
needed adjustments. Program effectiveness will eventually be assessed 
by engineering and project management feedback.
    In addition, other centers have transition teams in place to manage 
retraining efforts. NASA's Johnson Space Center in Texas has 
established an Engineering Academy designed to provide a comprehensive 
training program for the next generation of engineers. This effort will 
prove especially useful to those engineers currently supporting the 
Space Shuttle Program, as they gain knowledge & training in design and 
development competencies. NASA's Kennedy Space Center in Florida 
centralized all day-to-day engineering functions into a new Engineering 
Directorate in October 2006. The realignment effort will enable them to 
more efficiently and effectively utilize current engineering skills and 
resources as well as position themselves to be prepared for meeting 
Constellation workforce and skills requirements. NASA's Marshall Space 
Flight Center in Alabama has created a Shuttle Transition Team that is 
heavily engaged with human resources staff to define skill gaps, 
recruitment and retraining strategies.
    Not all of the research centers have been conducting retraining. 
NASA's Dryden Flight Research Center in California, for example, was 
able to hire within the past year. Individuals were selected with the 
needed skill set to support the Center's Constellation work.
    The centers are working to ensure that they have the necessary 
competencies and skill sets to support the Vision for Exploration. They 
have positioned themselves well as the workforce plan more sharply 
focuses on the competencies needed for the Agency's future.

Q9a.  Your testimony states that NASA has ``integrated and synchronized 
workforce planning with the development of program and project 
budgets.'' Could you please describe in concrete terms how workforce 
planning is integrated with programs and with project budgets?

A9a. NASA utilizes the Planning, Programming, Budget and Execution 
(PPBE) process as an Agency-wide methodology for aligning resources in 
a comprehensive, top-down approach that supports the Agency's vision 
and mission. It focuses on translating Agency strategy, priorities and 
planned outcomes into actionable programs. Workforce planning at NASA 
is programmatically driven through this budget process. The preparation 
of the FY 2009 budget is the first year that we have fully integrated 
workforce planning into the PPBE process through all phases.
    Several of the annual PPBE process milestones incorporate workforce 
planning: (1) Both the Strategic Program Guidance and the Program and 
Resource Guidance incorporate workforce planning policy guidance; (2) 
Interim snapshots of workforce distribution data inform all of the 
milestones within the programming phase of PPBE; (3) The Institutional 
Infrastructure Analysis includes the evaluation of qualitative 
Workforce Measures of Capability (e.g., sustainability, scalability, 
etc.) and quantitative workforce planning data focused on areas of 
concern collected from the NASA centers; (4) Workforce data and 
analysis informs make-buy decisions made under NASA's new Strategic 
Acquisition Approach, as well as final Programming decisions; and, (5) 
Outputs of the PPBE Programming phase include a comprehensive plan for 
work and workforce distribution for the current and next five fiscal 
years.
    Data collection, tracking and reporting for PPBE workforce planning 
is managed through the NASA Workforce Integrated Management System 
(WIMS). Within WIMS, the supply of current and planned civil servants 
is aligned with planned program-based work demand and funding sources. 
WIMS outputs include a workforce plan that ties each employee (to the 
1/10 of an FTE level) to a specific project work breakdown structure 
(WBS) element for the current and next two years. For the following 
three years, FTE-competencies are planned by WBS. Because of these 
plans, each NASA center understands how many FTEs and what type of FTE 
is funded for the various projects assigned to it, and it can plan its 
human capital programs accordingly.

Q9b.  Prior to this integration, how were workforce decisions made with 
respect to program developments and project budgets?

A9b. Prior to the implementation of the Planning, Programming, Budget 
and Execution (PPBE) process, there was a greater separation between 
budget planning and workforce planning. The processes were more 
sequential, with workforce planning being secondary. Budget decisions 
were made first, and these drove workforce planning. In recent years, 
key aspects of budget planning and workforce planning take place 
concurrently. NASA's implementation of full cost accounting has shed 
light on the workforce impacts of what previously might have been 
understood as primarily budget decisions. Currently, analysis of the 
workforce frequently influences and even drives budget and mission 
planning decisions; for example, in determining at what NASA center 
work packages will be directed.

Q10a.  Your testimony notes that ``Competencies are the common thread 
that tie the elements of workforce management together. CMS is a 
relatively new system that we are continually working to improve. By 
integrating CMS with other workforce planning tools, we are able to not 
only identify, the critical current and future competency gaps and 
surpluses, but we can weave that competency information throughout the 
workforce management process.'' Could you please describe the history 
of the CMS development along with milestones for improvements that are 
being made or are planned to be made.

A10a. The Competency Management System (CMS) is managed and operated by 
the Office of Human Capital Management at NASA Headquarters, working 
with mission directorates, mission support offices and the NASA 
centers. The primary objectives of CMS are to maintain a listing of 
workforce competencies across the Agency, align the expertise of the 
workforce to the mission via the budget planning process, and enable 
the Agency to build the level of expertise in targeted knowledge areas.
    The CMS was deployed in multiple phases as it grew in scope and 
operations. The goal was to try and minimize the impact and work at the 
centers, so early deployment was limited to a small audience at each of 
the centers. This also allowed greater flexibility with the design by 
allowing the team to incorporate lessons learned from one phase into 
the next.
    Since the start of the program, the Agency has undergone several 
major strategic and operational changes. Therefore, the CMS must, and 
does continue, to adjust and adapt to the changing business environment 
in order to maintain its relevancy and usefulness to the Agency's 
mission.

The history of CMS development along with milestones for improvements:

Development/Center Implementation Pilot Phase (2000-2001)

        <bullet>  Developed the competency model (concepts, data 
        structure and business process)

        <bullet>  Developed a Competency Dictionary at one center 
        (content from subject matter experts)

        <bullet>  Collected competency data from all 1,800 employees at 
        the center over a three month period

        <bullet>  Supervisors and peer reviewers conducted validation 
        of employee competencies over a five month period

Agency Implementation Pilot Phase (2001-2003)

        <bullet>  Developed the Competency Dictionary for the entire 
        Agency (consensus by subject matter experts from the centers)

        <bullet>  Generated an initial Position Level Competency 
        Inventory (based on NASA Classification Codes)

        <bullet>  Centers refined the position inventory

        <bullet>  Performed FY 2005 interim budget assessment of 
        workforce FTE needs in terms of competencies

        <bullet>  Performed first GAP analysis and identification of 
        critical competencies

Agency Implementation Deployment Phase (2004-2006)

        <bullet>  Performed FY 2006 budget assessment of workforce FTE 
        needs

        <bullet>  Conducted revision 5 of the Competency Dictionary 
        (increased review audience to include functional offices at the 
        corporate level)

        <bullet>  Requested competency data from all employees in the 
        Agency

        <bullet>  Supervisors performed validation of employee 
        competencies

        <bullet>  Planned deployment of additional functionality (2007-
        2008)

        <bullet>  Integrated with the employee development process and 
        the Agency's new Learning Management System

        <bullet>  Modified the Agency workforce gap analysis process to 
        adapt to changes of the Agency budget planning process

Operational & Maintenance Phase (2008-)

        <bullet>  Perform annual review and revision of the workforce 
        competency dictionary

        <bullet>  Perform annual Agency workforce gap analysis in 
        conjunction with the Agency budget submittal

        <bullet>  Supervisors and human resource specialists maintain 
        accurate and updated competency requirements for job positions

        <bullet>  Employees and supervisors develop and implement 
        individual learning plans to build and maintain employee's 
        expertise

Q10b.  What are the other workforce planning tools being integrated 
with CMS and what is the plan for that integration process?

A10b. Competency Management System (CMS) data, plus a comprehensive set 
of other workforce data currently available, are already providing good 
definition of the current workforce. The Workforce Information 
Management System, in conjunction CMS, provides the Agency with good 
information about current workforce gaps and surpluses. Additionally, 
the Agency has a business intelligence tool populated with current and 
historical workforce data. This business intelligence tool enables 
multidimensional analysis of workforce trends and forecasts future 
retirements in specific organizational, occupational and skills areas. 
Forecasting of retirements enables the Agency to do one aspect of 
advanced planning for the workforce, determining if there are workforce 
components which are at increased risk due to future losses.

Q10c.  When will NASA be in a position to identify current and future 
competency gaps and surpluses using workforce-planning tools such as 
CMS?

A10c. Currently, NASA is planning to utilize CMS in the fall of 2007 to 
perform workforce competency gap analysis based on the proposed FY 2009 
budget. This information will show trends in planned competency needs 
over the next five years and the forecasted ability of the workforce to 
meet those needs. From this analysis, areas of potential competency 
shortages and surpluses should be identified.
    The second aspect of workforce planning requires effective 
processes for getting good definition of future work requirements. This 
is directly related to program planning and budget formulation, and, 
for the first time, NASA is integrating workforce planning with the 
budget process for the FY 2009 budget. NASA anticipates successful 
identification of potential workforce gaps and surpluses. The Agency 
also anticipates it will have learned important lessons to apply to the 
FY 2010 budget and workforce planning processes.

Q11a.  Your testimony states that ``The capabilities of HCIE (Human 
Capital Information Environment) are enormous, limited only by our 
ingenuity in identifying the boundless ways in which information can be 
woven together to drive decisions and enable success.'' Could you 
please describe the requirements for the development of the HCIE?

A11a. Developing the Human Capital Information Environment (HCIE) is 
the first step in creating a fully integrated, strategically focused, 
business management environment for online, near-real-time access to 
comprehensive information needed for rapid and accurate decision-
making. The basic requirement for HCIE development is inter-operability 
and close integration with NASA's financial management system through a 
shared database to provide dependable human capital information, 
integrated with information from other business areas, such as finance, 
for all organizational elements. This common, robust data source will 
eliminate the need for stand alone, non-integrated systems, which often 
offer redundant capabilities. The authoritative data repository, HCIE, 
will furnish a wealth of information in support of the demands of this 
mission-driven, project-oriented Agency. HCIE supports the President's 
Management Agenda (PMA), implementation of the Vision for Space 
Exploration, and our NASA Workforce Transformation; and aligns with our 
Information Resource Management Strategy and the HR Lines, Business, 
and EGov requirements. Finally, HCIE has been developed using a 
service-oriented architecture which provides point integration and 
inter-operability with our non-human capital applications such as 
identify management, safety, security, legal, facilities, and financial 
management.

Q11b.  What is the relationship of the CMS and other workforce planning 
tools to the HCIE?

A11b. The HCIE is the vehicle to enable integration of all human 
capital tools, including CMS and the other workforce planning tools. 
NASA has already integrated information from CMS, WIMS (workforce 
planning tool), the Agency's Labor Distribution System and the Agency's 
budget system with the HCIE data warehouse. By integrating 
authoritative data from each of NASA's workforce planning and financial 
systems within a single data warehouse, the Agency enables the 
generation of complex queries, analysis and reporting of information 
most useful to project managers, program managers and workforce 
planners.
                   Answers to Post-Hearing Questions
Responses by John G. Stewart, National Academy of Public Administration 
        Fellow; Member, Panel on NASA Multi-sector Workforce

Questions submitted by Chairman Mark Udall

Q1.  Both the NAPA and the National Academies reports call for more 
detailed information on the workforce at NASA's Centers. Could you 
please discuss in specific terms what information the Agency needs in 
order to support long-term workforce planning?

A1. The Panel believes that NASA's workforce planning processes and 
data collection should address the total workforce, including the work 
for which it will hire staff as well as for the work it will buy. While 
the Panel acknowledges the key differences in NASA's relationship with 
its contractors and noted that NASA is not responsible for managing 
contractor personnel on a daily basis, the Agency should nonetheless do 
a competency analysis for this group that comprises two-thirds of the 
Agency's multi-sector workforce. The contractor competency assessment 
should be done on an aggregate basis, focusing on cost effectiveness, 
timeliness of deliverables, and return on investment. In addition to 
detailed information about needed competencies across programs, NASA 
needs information on its required skills, certifications, and 
programmatic/project assignments.
    For the contracting organizations, NASA needs such information as:

        <bullet>  Appropriate roles of contractors--for example, the 
        Agency should specifically identify work that is not inherently 
        governmental, is located off-site, is not a NASA core 
        competency, is not needed long-term, requires a unique 
        expertise, or results in a distinct product appropriately 
        delivered by a contractor.

        <bullet>  Contract duration and flexibilities for surge 
        capacity.

        <bullet>  Penalties associated with early termination.

        <bullet>  Cost-effectiveness.

        <bullet>  Return-on-investment.

    In terms of its current workforce, NASA will need to identify 
competing demands across programs and projects. It will need to fully 
understand the current workforce's availability and competencies and 
project future workforce requirements across the organization in the 
short-term, intermediate-term, and longer-term time horizons.
    While gathering information on the current civil service workforce, 
NASA should consider the extent to which current recruiting sources and 
programs, as well as current training and development programs, are 
meeting its needs. In addition to the standard information typically 
collected in workforce planning processes, NASA particularly needs 
information that allows it to track skill mismatches by individual 
employees and field centers. It particularly needs information such as:

        <bullet>  Existing competencies, especially for key occupations

        <bullet>  Potential desirability of retraining or redirecting 
        competencies and the cost of retraining, if needed and feasible

        <bullet>  Occupational mix

    This information should be collected by center and aggregated for 
the Agency as a whole.
    In order to project future work requirements, NASA needs to collect 
data in such areas as:

        <bullet>  Specific program demand changes over the short-term, 
        intermediate-term, and longer-term

        <bullet>  Competencies needed during these time frames based on 
        business projections

        <bullet>  Nature of the work to be done, including volume, 
        location, duration, and appropriate component of the multi-
        sector workforce (tenured or limited duration civil servant, 
        contractor, grantee, university, military, etc.)

    As part of this analysis, NASA should consider several key 
questions:

        <bullet>  How will the structure of the work and its 
        organization, as well as the underlying job functions, need to 
        change to meet these demands?

        <bullet>  How will technology continue to impact the way work 
        is accomplished?

        <bullet>  How can the Agency respond to unexpected requirements 
        or contingencies?

    NASA also needs to determine the core workforce required to 
maintain competencies that may be required over the longer-term, but 
for which the Agency has a declining current need. By quantifying core 
workforce requirements, the Agency could ensure a critical mass is 
available in the future in case of a resurging need. To this end, the 
Panel urged NASA to use a methodology, such as RAND's, to quantify the 
``core'' workforce required to maintain its critical aeronautics and 
scientific competencies. Consistent with the Panel's emphasis on the 
total NASA workforce, the analysis should include both civil service 
and contractor components. The Panel further recommended that this same 
methodology be applied to the Shuttle transition process to assist with 
long-term scheduling projections, quantification of core competencies 
and proficiencies, and analysis of overlapping mission needs.

Q2.  The NAPA and National Academies reports emphasize that NASA should 
make full use of the NASA Flexibility Act of 2004. Did your committee 
conclude that NASA was under-utilizing the Flexibility Act, and if so, 
why?

A2. The Panel believes that NASA could make greater use of certain key 
provisions of the Flexibility Act. One provision that NASA has made 
extensive use of is the term appointment authority. In this area, 
however, the dominant practice or intention at most centers has been to 
convert successfully performing terms, without regard to whether the 
work they are performing is permanent. The major exception has been 
Kennedy Space Center, which has no plans to routinely convert terms 
given the planned retirement of the Space Shuttle.
    In addition to the term appointment authority, the NASA Flexibility 
Act of 2004 provides the Agency with additional authorities in the 
following areas:

        <bullet>  Pay a ``re-designation'' bonus to a current federal 
        employee, who accepts a position with NASA designated as a 
        critical need.

        <bullet>  Pay a retention bonus of up to 50 percent of basic 
        pay if the position meets a critical need.

        <bullet>  Pay a salary of up to the Vice President's for a 
        position when the Administrator finds it necessary to recruit 
        or retain an exceptionally highly qualified individual for a 
        critical position (limit to 10 employees).

        <bullet>  Direct hiring authority for GS-7 through GS-12 
        scientific and professional positions with qualifying GPA 
        (Distinguished Scholar program).

        <bullet>  Ability to extend Intergovernmental Personnel Act 
        assignments beyond the initial two-year period for up to four 
        additional years.

        <bullet>  Travel and transportation expenses for certain new 
        appointees.

        <bullet>  Annual leave enhancements for certain non-federal 
        experiences.

        <bullet>  Limited term appointment to ``career reserved'' SES 
        positions to fill a temporary need.

        <bullet>  Qualifications pay to encourage employees to accept a 
        new set of duties or new position.

        <bullet>  Increased maximum rate of pay for NASA-excepted (NEX) 
        employees.

    The Panel recommended that NASA use formal decision metrics to 
ensure that decisions about hiring or converting terms are grounded in 
work-based criteria. This will ensure that NASA acts strategically, not 
tactically, in filling its term and permanent positions. Regarding 
conversions, the Panel believes that they should occur not simply 
because of a satisfactory performance by an individual, but based on an 
evaluation of the nature of the work--for example, a core competency 
inadequately represented in the current workforce or a required 
proficiency level best achieved through a permanent civil service hire.
    NASA has made virtually no use of the Distinguished Scholar 
program, relying heavily on its long-established co-op program. The 
Panel believes that NASA would be more effective over the long-term by 
expanding its recruitment strategy to hire Distinguished Scholars as a 
way to recruit the next generation of agency scientists, engineers, and 
administrators. Despite some differences on how best to respond to 
NASA's workforce challenges, our Panel, the National Academy of 
Sciences Committee, and the International Federation of Professional 
and Technical Engineers all agree that rebuilding NASA's early and mid-
career workforce is critical.
    Likewise, the Panel noted that NASA has made limited use of its IPA 
authority for external placements, with no more than seven each in FY 
2004 and FY 2005. For an agency with changing program needs and 
priorities and identified underutilized competencies, the IPA program 
offers an excellent opportunity to leverage scarce salary dollars and 
FTE through negotiated cost-sharing arrangements with universities, 
non-profits, State/local governments, and others that might need NASA 
expertise. Such a mechanism would allow NASA employees with unfunded 
work, for example, to contribute meaningfully to another institution 
and further enhance their skill base.

Q3.  The NAPA report mentions strategic partnerships with other federal 
agencies that demand technical skills as a potential opportunity for 
managing NASA employees whose skills do not align with current NASA 
projects. Could you please elaborate on this aspect of the NAPA report?

A3. Given NASA's workforce misalignments, the Panel believes that the 
Agency could make greater efforts to partner with other federal 
agencies. Near the beginning of this study, the Academy offered to 
broker a partnership between NASA and the U.S. Patent and Trademark 
Office (USPTO) to help alleviate NASA's uncovered capacity problem. 
Officials at the highest level of PTO were interested in a block of 
NASA's scientific and technical personnel becoming patent examiners, on 
a temporary or preferably permanent basis, to reduce patent processing 
backlogs. It was also interested in accessing NASA expertise to train 
its patent examiners in state-of-the art aeronautics, nanotechnology, 
and other scientific disciplines for which the Agency typically 
receives patent applications. PTO was open to reimbursing NASA, 
relocating NASA employees, and considering the use of NASA employees at 
their home centers. In response to this offer, NASA offered no official 
or strategic agency encouragement for employees to participate, but 
chose to refer the offer only to Ames Research Center, which posted the 
information as an opportunity for individual center employees to 
voluntarily explore on their own.
    Despite its stated commitment to a ``flexible, scalable 
workforce,'' NASA has not vigorously pursued other out-placement 
options in the belief that future work assignments will require the 
skills of current NASA employees, and it would therefore be imprudent 
to put significant effort into out-placement. In interviews, some NASA 
officials expressed reluctance to directly communicate with employees, 
both individually and collectively, about the need to manage their 
careers and take advantage of all available opportunities--both inside 
and outside of NASA. Some NASA officials even said they were concerned 
that being too forthright with individual employees about their options 
would be construed as harassment.
    In addition to PTO, the Panel identified other possible federal 
agencies that could make use of NASA's excess competencies:

        <bullet>  The Environmental Protection Agency, with whom NASA 
        shares an interest in climate change and wind tunnels

        <bullet>  The National Institutes of Health, with whom NASA 
        shares an interest in space implications for medical technology 
        improvements and the lessons to be learned about microgravity's 
        impact on health

        <bullet>  The Department of Energy, with whom NASA shares an 
        interest in basic research as well in various elaborate 
        batteries used in space missions

        <bullet>  The Department of Defense, which has similar need for 
        project and program managers within varied engineering 
        disciplines

    This is a challenge across the Federal Government. Some agencies 
have excess competencies in areas that are critical needs for other 
federal agencies. It may be useful for the Federal Government to have 
an informed broker, such as OPM or OMB, to identify opportunities for 
competency sharing and trading among federal agencies. The broker would 
be responsible for making matches between federal agencies with skill 
deficiencies, whether temporary or long-term, with agencies with excess 
capacity, undergoing low attrition, or mission changes. In today's 
environment, with such rapidly changing technology, the government's 
role as financial and human capital steward is likely to require 
additional adaptive mechanisms to facilitate the government's effective 
use and development of its human capital resources.
                   Answers to Post-Hearing Questions
Responses by David C. Black, President Emeritus, Universities Space 
        Research Association; Adjunct Professor, Physics and Astronomy 
        Department, Rice University; Co-Chair, Committee on Issues 
        Affecting the Future of the U.S. Space Science and Engineering 
        Workforce, National Research Council, The National Academies

Questions submitted by Chairman Mark Udall

Q1.  During your oral testimony, you showed a figure that indicates 
that the number of opportunities for students to gain hands-on training 
has been declining. Could you please elaborate on this point and 
describe which opportunities have been declining and why?

A1. The figure shown during my testimony is included below for your 
reference. There are two major messages in this figure. One is that the 
vast majority of opportunities for students to gain space experience 
via involvement in payloads is found in the suborbital programs--
typically sounding rockets, balloons, and aircraft-based research 
(primarily high-altitude aircraft such as NASA's WB-57 and ER-2 
airplanes). While the Explorer and other deep space missions do have 
student involvement, it is typically at the instrument level rather 
than the full spacecraft level. Moreover, owing to the cost of Explorer 
missions, relative to that of suborbital missions, and the associated 
longer timescale for project development, the deep space missions do 
not lend themselves as readily to substantial student involvement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The second message is that all opportunities for student 
involvement have been in steady decline over the past few decades. This 
is most notable in the sub-orbital program that includes sounding 
rockets, balloons, and aircraft (where the involvement is primarily at 
the instrument level). The reasons for this decline are varied. One of 
the contributors to the decline is the heavy emphasis on science return 
as the justification for these missions. This emphasis, while valid, 
places the lower cost sub-orbital missions at a disadvantage when 
compared with an Explorer mission, for example. In general, NASA's 
science leadership argues that the ``quality'' of science, measured in 
terms of papers published or influence on other researchers, is less 
for a sub-orbital mission. Also, the quantity of science is less, as 
judged by the amount of data returned. This emphasis on science for the 
lower cost, more student-oriented missions ignores one of the key 
aspects of these missions, workforce development. These missions give a 
cradle-to-grave training experience in project management and systems 
engineering, both key skills that are currently in short supply at 
NASA. Our committee would like to see proposals for suborbital programs 
be judged much higher (some committee members believe at least 50 
percent) on the merits of the workforce development aspect of the 
proposal, with the rest of the weighting in the review process being 
the science that would be accomplished by the proposed mission.
    Another factor in reduction of these opportunities is a combination 
of funding reductions as NASA managers look everywhere for funds to 
cover the increasing costs of their higher profile missions, as well as 
a past lack of support for sub-orbital missions by senior management at 
NASA. One further point to note here is that launch opportunities in 
this country have diminished over time making it harder to find 
suitable, that is low cost and relatively frequent, rides into low-
Earth orbit for student satellites.

Q2.  Your testimony referred to the value of sub-orbital programs in 
providing systems engineering and project management skills. Could you 
please explain in detail how the sub-orbital programs help develop 
these skills?

A2. Sub-orbital programs typically can be conducted from beginning to 
end in a year or two, while more complex Earth orbital projects may 
take at least two to four years. Both of these timescales are 
consistent with meaningful involvement of students. The shorter 
timescale is well matched to design and build classes for 
undergraduates, or even high school students, while the longer 
timescale matches well with graduate student experiences. In addition 
to the time match to student activity, there is an opportunity in these 
projects for students to see and experience all facets of a major 
project. They see what happens if inadequate attention is paid to 
interface issues, for example. They learn to manage a project on a 
schedule and a budget. Also, they can learn from a failure as much as a 
success. NASA's main missions now cost so much and have so much 
visibility that many more procedures and additional backup systems are 
added to reduce risk. This drives cost up and keeps students out of 
meaningful career development experiences.

Q3.  How much do sub-orbital programs typically cost and what is the 
end-to-end duration of such programs? What, if any recommendations did 
your committee make on how these programs should be funded?

A3. Since our report was issued there has been some change in NASA's 
sub-orbital programs, particularly the sounding rocket program. The 
sounding rocket program appeared to be in continuing and serious 
decline even as late as the issuance of our report. However, a new NASA 
Associate Administrator for Science has indicated his intention to 
revive the sounding rocket program by increasing its funding and 
returning to a launch rate of 24 flights a year by FY10. However, I 
would note that his goal for this is to solidify the sub-orbital 
program's role in developing science and also producing experienced 
principal investigators for science missions. Our committee emphasized 
that sub-orbital programs are a value to the entire agency--not simply 
science--because they can provide experience in program/project 
management and systems engineering that can eventually be used in other 
programs, including human space flight.
    According to a presentation made by NASA's sounding rocket program 
office to the Space Studies Board in June 2007, after our report was 
completed, NASA's sounding rocket program has seen a dramatic drop in 
flights over the past decade. The program currently supports about 10 
principal investigators per year and an annual flight rate of 10 to 20 
flights per year. In contrast to promised increased funding following 
the announcement of the Vision for Space Exploration in January 2004, 
NASA made severe cuts to the sounding rocket program budget: $4.2M in 
FY05, $10.9M in FY06, $9.4M in FY07, and $11.7M in FY08--a $36M cut 
over a four-year period. Our committee found that implementing the 
Vision will require precisely the kinds of skills that the sounding 
rocket programs provide.
    Each launch costs between $2.5M-$3M including operating costs, and 
a typical project lasts from one to three years (the actual flight 
times, however, are measured in minutes). NASA's sounding rocket 
program has a success rate of about 98 percent. These factors make 
sounding rocket programs ideal for educational uses and allows for 
students to see a project through from the beginning to the end. The 
committee recommended NASA increase its investment in sounding rockets 
to provide ample-opportunities from hands-on flight development 
experience at a relatively low cost of failure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  Both the NAPA and the National Academies reports call for more 
detailed information on the workforce at NASA's Centers. Could you 
please discuss in specific terms what information the Agency needs in 
order to support long-term workforce planning?

A4. NASA is slowly coming to grips with understanding its workforce 
issues. In my view and that of the NRC committee, NASA does not yet 
understand how to model its workforce and its evolution. They need far 
better insight into the skills that reside at the Agency, a better 
understanding of the flow of programs and how that affects the civil 
service workforce, and they need to look outside of NASA to understand 
better the sources and movements of experienced as well as entry-level 
professional talent that is available. This is a skill that does not 
reside at NASA. They will need to look to outside expertise to help 
them in both identifying the type of information that is needed to do 
good workforce modeling, and in constructing the models to use the 
data. NASA, in my opinion, has lost track to some extent that it is an 
enabler of the Nation's civil space program. It has evolved to a point 
where it sees itself as an independent entity and makes policy and 
other decisions, particularly workforce matters, based on survival of 
the Agency and its centers rather than doing the job for the country.

Q5.  The NAPA and National Academies reports emphasize that NASA should 
make full use of the NASA Flexibility Act of 2004.

Q5a.  Did your committee conclude that NASA was underutilizing the 
Flexibility Act, and if so, why?

A5a. The committee heard anecdotal information from a number of 
speakers that although the NASA Flexibility Act had helped the Agency, 
it was still relatively recent and therefore the Agency had not yet 
been able to adopt it to the fullest extent (for instance, not all of 
the relevant offices were aware of the Act's provisions). The committee 
did not conclude that there was resistance to the Act at NASA, but did 
hear some comments from NASA officials that indicated that even if the 
Agency was able to make full use of it, some fine-tuning may still be 
necessary. This is probably a subject that is best left to discussions 
directly between Congress and NASA.
                   Answers to Post-Hearing Questions
Responses by Lee Stone, Legislative Representative, NASA Council of 
        IFPTE Locals, International Federation of Professional and 
        Technical Engineers

Questions submitted by Chairman Mark Udall

Centralized HQ Versus Decentralized Center-based Decision-making

Q1.  NASA's workforce strategy involves a transition from a more 
decentralized Center-led decision-making process to an agency-wide, 
integrated approach. What are the Centers' and the IFPTE's perspectives 
on how smoothly this transition is occurring?

A1. The value of centralized versus de-centralized governance depends 
on the mission. NASA is designing and preparing to build one Orion crew 
exploration vehicle and two Aries launch vehicles using essentially 
existing technologies. It is absolutely critical for everyone to be on 
the same page; the value of a single centralized focal point for 
Constellation program planning and decision making is self-evident. 
However, for NASA's multifaceted Science, Aeronautics, and Technology 
Development missions, the value of centralized governance at 
Headquarters (HQ) is far from obvious. Rigid centralization schemes are 
known to stymie innovation and creativity, which are generally the 
fruits of smaller, more agile, and independent teams that can tolerate 
failure within a less rigid schedule and budget structure. Indeed, the 
Exploration Systems Architecture Study (ESAS) plan is anything but 
innovative, born of the necessity of meeting an urgent schedule to 
replace the Shuttle with a budget half that the last time NASA was 
asked to design a manned lunar spacecraft. So up front, it should be 
noted that NASA's new management governance model embraced to support 
the Constellation program may not be appropriate for NASA's other 
equally important endeavors.
    The wisdom of NASA's management plan aside, its centralized, matrix 
management model has been unevenly applied. At its essence, matrix 
management is designed to split management into two equal branches: 1) 
centralized programmatic management authority is retained at HQ, and 2) 
de-centralized line management authority is delegated to the Centers. 
There are however two problems with NASA's current implementation of 
matrix management. First, HQ has delegated line management 
responsibilities, yet has not provided the necessary resources and 
authority to the Centers to perform this task. NASA's current 
governance model has therefore seriously weakened line management, 
which is not the co-equal partner it needs to be for mission success. 
This has resulted in program management controlling all of the 
financial resources and micromanaging program implementation, and has 
prevented line management from being able to function properly to the 
detriment of the Agency, its Centers, and its missions. Second, as a 
result of this first point, in order to salvage power for its line 
management, center management at Johnson Space Center (and to some 
extent at the other manned space flight Centers) has simply hijacked 
key program management authority and uses that power to protect its 
Center from the adverse consequences of NASA's implementation of 
lopsided matrix management and full-cost recovery of salary and 
facilities costs. While JSC's success at collapsing matrix management 
by combining key line and program management nodes is an 
understandable, and indeed predictable, reaction to NASA's flawed 
matrix management implementation, the sustained centralization of 
program and fiscal authority for manned space programs at JSC continues 
to be an obstacle to any bone fide matrix management system centralized 
at HQ and is a major obstacle to the 10 healthy centers plan.
The governance model and Exploration:
    NASA's manned spacecraft development and manned space flight 
implementation are endeavors so massive and ambitious that they benefit 
from a more centralized authoritarian leadership strategy. The 
transition to centralized authority at HQ continues to be slow and 
remains incomplete. Indeed, the initial artificial uncovered capacity 
crisis of the last few years was generated by the programmatic transfer 
of a large chunk of NASA's personnel funds to Constellation by the 
Administration, followed by the refusal by Constellation program 
management (largely overlapping with JSC line management) to share 
these resources appropriately across all NASA Centers. The 
Administration's initial plan was to retain funding and personnel at 
JSC and eliminate across the rest of the Agency, nearly 3,000 highly 
skilled and experienced federal employees, predominately at the 
Research Centers, who were improperly deemed unworthy of Constellation 
dollars because of a fictitious ``skills-mix'' problem. If the House 
and Senate Science committees had not intervened with a Reduction-In-
Force (RIF) moratorium (subsequently extended by the Commerce-Justice-
Science Appropriators), that plan would have been fully implemented 
last year. Indeed, the phase-one harassment and buy-out portion of the 
plan was implemented resulting in the loss of more than a thousand 
largely technical employees and a significant decrease in morale across 
the Research Centers, but phase-two of the employee elimination plan 
was luckily averted by direct Congressional intervention. IFPTE and 
NASA's civil service workforce remain extremely grateful for the strong 
bipartisan leadership shown by Chairman Gordon and former Chairman 
Boehlert in their timely opposition to the Administration's ill-devised 
plan.
    In the summer of 2006, IFPTE testified that NASA's uncovered 
capacity crisis was a fiction created by a deeply flawed accounting 
process and a program management unwilling to accept that the technical 
staff at Research Centers should play a major role in Constellation. 
Squeezed by the RIF moratorium, last fall, Administrator Griffin 
finally simply directed JSC to transfer meaningful work packages to the 
Research Centers and the ``crisis'' dissipated. Indeed, Centers that 
last year reported hundreds of employees with skills/competencies 
deemed surplus have now received funding to assign Constellation work 
to nearly all of them. The magical disappearance of the uncovered 
capacity confirms that the initial crisis was a fiction created by 
management failures, and not by any skills problem with the technical 
staff across the Agency. We now have empirical proof that employees at 
Ames, Glenn, JPL, Langley, and Goddard can work well together with 
employees at JSC, Marshall, and KSC to the benefit of the Exploration 
mission, the Agency, and the Nation. NASA's employees, distributed 
across all Centers, stand ready to make Constellation a success and 
look forward to that opportunity and challenge.
    So why isn't this the happy ending of this scary fairy tale? There 
are two lingering clouds that loom ominously. First, sustained 
underfunding of the Agency is still squeezing NASA's scientists and 
researchers who do not fully benefit from Constellation work packages 
that only cover Constellation development activities. This problem 
requires the re-balancing and/or additional appropriation of funds to 
Science, Aeronautics, and Technology research activities that have 
taken a disproportionate and unwise share of the fiscal hit imposed by 
NASA's inadequate budget. Congress should act to force a modest yet 
essential rebalancing, which would only involve about five percent of 
NASA's budget. Second, the distribution of work packages from JSC are 
still being made begrudgingly so that inadequate numbers of civil 
servant Full-Time Equivalents (FTEs) are being transferred to cover the 
required work and few procurement funds are being transferred to cover 
associated local expenses. Furthermore, JSC management continues to co-
opt Advanced Capabilities funds that should be used to cover scientists 
and researchers engaged in longer term, non-Constellation, Research and 
Development (R&D) activities. Advanced Capabilities funding is being 
diverted to meet unfunded Constellation requirements and to cover 
disproportionately JSC personnel and contract support staff. Congress 
should act to prevent the diversion of the few remaining R&D funds 
within the Exploration Systems Mission to non-R&D activities and away 
from the Research Centers.
The governance model and Science & Aeronautics:
    NASA's broad research missions in Science and Aeronautics are less 
well served by a centralized, distant, and bureaucratic leadership at 
HQ, detached from the nitty gritty R&D process and overly influenced by 
transient political interests. Succinctly stated, NASA's long-term R&D 
should be managed by those most qualified to manage NASA's R&D 
activities, NASA's Research Centers, with greater independence from the 
vicissitudes of the personalities and political winds at HQ. Indeed, 
the director of National Institutes of Health understands that he is 
merely the custodian of a distributed brain trust that needs nurturing, 
oversight, and advocacy, not intrusive technical direction. The 
Institutes are largely autonomous, the Lab Chiefs are largely 
autonomous, and even the individual PIs are largely autonomous. That 
more decentralized structure not only gets the job done, it fosters 
creativity and innovation. The Associate Administrators for the Science 
and Aeronautics Research Mission Directorates should follow that 
example and embrace more muted and humble roles. In the ideal matrix 
governance model, program management sets budgets, goals, and 
milestones, while line management assigns the technical work to the 
appropriate personnel, decides on the needed procurement and 
procurement mechanisms, implements the program plan, and is accountable 
for meeting the milestones. Unfortunately, program management has 
abused its near absolute fiscal authority to co-opt line management's 
authority to assign work, to direct local procurements, to manage day-
to-day activities at the performing centers, and thus to undermine 
collective bargaining rights (because all Union contracts are with 
center line management, which is becoming somewhat irrelevant). Any 
transition to a bone fide matrix management model will require 
equalizing the balance of authority between program and line 
management.
Specific recommendations:
    IFPTE asks that Congress:

        <bullet>  Increase NASA's Science, Aeronautics, and Advanced 
        Capabilities budgets and protect them from being reprogrammed 
        overtly or covertly to Constellation.

        <bullet>  Direct NASA to provide civil-servant salaries and 
        non-programmatic travel along with CM&O directly to the 
        centers, independent of programs, to allow for effective matrix 
        management and to maintain Center capabilities.

                <bullet>  Line management would then be empowered 
                (i.e., funded) to perform its critical immediate roles 
                of assigning and supervising work as well as its longer 
                term role of keeping local intellectual capabilities 
                and facilities healthy. Re-empowering center management 
                to perform the latter role is essential because the 
                currently unchecked Program management funding 
                structure benefits from exploiting current resources 
                for near-term milestone at the expense of long-term 
                milestones and institutional infrastructure. Program 
                management should, however, continue to control 
                procurement funding levels and programmatic travel 
                funds to perform its critical role of setting budgets, 
                goals, and milestones. With this more equitable 
                division of resources and authorities, the short-term 
                programmatic and longer term institutional interests 
                can be properly balanced through cooperation between 
                the two branches of management. Program management 
                would have to negotiate with Center management for 
                civil service labor, yet Center management would still 
                need to align its workforce to meet program needs in 
                order to acquire procurement and most travel funds.

        <bullet>  Direct NASA to move program management of the 
        research activities of the Advanced Capabilities programs to 
        the Research Centers to prevent their subjugation by 
        Constellation or JSC management, and to allow them to maintain 
        crucial independent research and technology development 
        capabilities across NASA's research Centers.

                <bullet>  Inter-center competition and cooperation 
                across multiple research programs assigned evenly 
                across co-equal research centers will prevent parochial 
                interests from dominating programmatic interests.

Abuse of Term Hiring Authority

Q2.  Your testimony notes that NASA's increasing use of ``term'' hires 
[hiring for work that is expected to last between 1-6 years] rather 
than tenured civil service hires is, in part jeopardizing NASA's 
ability to attract the best and brightest science and engineering 
staff.

Q2a.  Why do you believe that the use of term hires jeopardizes NASA's 
ability to attract the best and brightest?

A2a. When young scientists receive their Ph.D. from a world-class 
institution (thereby completing 20+ years of formal education), most 
begin to plot a future for themselves whereby they can expect a stable 
and productive research career in their field of choice. In some 
instances, a one-to-three-year postdoctoral fellowship is sought in 
order to obtain additional training to broaden their skills and 
experience under the mentorship of a well-respected researcher at 
another elite institution. However, within a year or two of receiving 
their Ph.D., the best and brightest young scientists begin to seek a 
tenure track (hard money) research professorships at a prestigious 
university and eschew non-tenure track (soft money) adjunct 
professorships that are contingent on external funding sources. Young 
biotech scientists and aerospace engineers have highly lucrative 
private-sector opportunities in addition to this traditional academic 
option. In the past, NASA has competed successfully for its fair share 
of these individuals by offering a package of advantages that academia 
cannot match: accelerated tenure, no teaching requirements, and access 
to numerous sources of competed and even directed Research and Analysis 
funding for mission-related research projects that nonetheless are 
largely self-generated. NASA has been successful in the past in 
recruiting even the most competitive candidates by offering better job 
security, more comprehensive benefits, cutting-edge research 
opportunities, and a very high quality of life. In particular, one of 
the most rewarding aspects of a career at NASA has been the ability to 
remain engaged with an exciting long-term project throughout its 
lifetime so that one is still around to see one's technical 
contribution finally comes to fruition, as opposed to being terminated 
after a few years of performing piece work.
    In the early 1980's, the Federal Government lost some of its 
recruiting leverage in the arena of benefits when they converted to a 
less competitive 401k-style dominated and less desirable retirement 
system (i.e., private sector and academia now often offer better 
benefits). Over the last few years, NASA's recruiting problems have 
been exacerbated by three critical factors: the policy of improperly 
using term offers to circumvent the federal employee tenure process and 
to assert greater daily control over its technical staff, the dramatic 
reduction of NASA research opportunities available to in-house 
scientists and engineers to perform self-generated mission-related R&D, 
and the full-cost recovery of employee salaries. The latter has created 
a hostile and demeaning time-clock punching environment that 1) 
prevents our best scientists and engineers from devoting an appropriate 
portion of their time to difficult longer-term technical problems (and 
thus improving/sustaining their technical skills) and 2) forces them 
into a full-time preoccupation with short-term milestones within an 
autocratic program management system. NASA's best and brightest 
scientists and engineers have no problem saluting the flag and working 
diligently towards NASA's mission goals, but they do not thrive when 
bossed around on a daily basis by non-technical administrative task 
masters obsessed with weekly performance metrics, and when deprived of 
nearly all independent research funding opportunities.
    As a result of these factors, the current senior technical 
workforce can no longer aggressively recruit the graduating students of 
their academic colleagues because they cannot say, in good conscience, 
that coming to NASA is the best career move for that young student 
compared to tenure track options at prestigious academic institutions 
or lucrative stock options at cutting-edge private high-tech ventures. 
Word of mouth recruiting by NASA's technical staff (not by HR) is how 
NASA has traditionally gained access to the best and brightest 
technical employees before they are even on the market, so that NASA 
could bring them on board as pre- and post-doctoral fellows to focus on 
NASA relevant training and then hire many of them as permanent civil 
servants. That proven recruiting process is now breaking down to NASA's 
peril; as NASA's pre- and post-doctoral fellowships and permanent S&E 
positions dry up, so does its future.
    In brief, the best and brightest will not consider term positions 
at a fiscally unstable and programmatically chaotic NASA a promising 
career move when they can take prestigious positions at UC-Berkeley, 
MIT, Google, or other elite academic or private-sector institutions 
that will offer them greater intellectual latitude and genuine respect 
often with more lucrative compensation packages. The bottom line is 
that the key to successful recruiting of NASA's future workforce is to 
be able to promise candidates exciting and stable careers within an 
intellectually open and respectful work environment that values and 
features independent research opportunities. Note also that with term 
positions, recruitment becomes a recurring task as the Agency must bid 
again and again for skills as terms expire, or risk losing increasingly 
experienced talent in which it has already invested considerable 
resources.
    Over the last four years, NASA's management has been so overly 
disrespectful to its technical staff (term hiring being only one facet 
of this disrespect) that serious harm has already taken place. This 
disrespect has been part of a well-orchestrated and ill-conceived 
campaign to accelerate the attrition of NASA's senior technical staff, 
a strategy that remains ongoing, albeit tempered in recent months. The 
other side of respect is loyalty. NASA employees have traditionally 
shown tremendous loyalty that drives them to work nights and weekends, 
and to forfeit annual leave without financial compensation. But loyalty 
is a two-way street and permanent status is at the core of the Agency's 
loyalty to its staff. NASA employees were rudely awakened in February 
2004 to discover that Administrator O'Keefe had commissioned a secret 
plan for the mass lay off of nearly 3,000 employees to cover the 
unfunded mandate of the Vision for Space Exploration. That betrayal and 
the attendant scapegoating of NASA's technical staff will not soon be 
forgotten. Although the situation has improved recently, unless the 
Administration fully and openly re-embraces a policy of respect for and 
loyalty to NASA's civil service workforce, NASA will no longer enjoy 
the recruiting power it has relied on for decades and unwisely takes 
for granted.

Q2b.  To what extent are term hires being used for the science and 
engineering staff at present?

A2b. In addition to affecting recruitment, the use of term positions 
also has adverse ramifications for mission success because a transient 
Science and Engineering (S&E) workforce threatens safety (as esoteric 
yet crucial knowledge/experience leaves the Agency when experienced 
staff leave at the end of their term) and squanders precious training 
resources (as trained personnel leave the Agency setting up a 
requirement to train new arrivals). Even more importantly, one of the 
primary reasons for according civil servants tenure is so that they can 
speak truth to power; tenured employees can speak up and say something 
is unsafe without the fear of losing their jobs, but term employees 
know full well that the future renewal or conversion of their position 
will be jeopardized if they challenge their management chain. The CAIB 
report warned us clearly that NASA's schedule and budget driven 
management culture was a primary cause of the Columbia disaster; that 
management culture is dangerously reinforced by the use of term hires 
who are dis-empowered, relative to permanent hires, to speak up when 
schedule or budget is undermining safety and/or mission success.
    In fiscal year 1994 (FY 1994), NASA made 181 outside hires for 
Full-Time Permanent (FTP) Science & Engineering (S&E) staff and only 
four-term S&E hires. The S&E term percentage (2.2 percent) was less 
than that found across all employees: NASA hired a total of 337 FTP 
employees that year and only 19 term hires (5.6 percent).
    Over the last three years, NASA's hiring actions have shown a 
dramatically different trend. FTP S&E hires numbered only 64, 53, and 
36 in FY 2005, in FY 2006, and so far in FY 2007, respectively, while 
term S&E hires numbered 174, 227, and 161. So we have gone from a tiny 
fraction of S&E employees being hired as term employees in the early 
90's to more than three quarters now.
    Even more troubling is that the above term hiring trend appears to 
be more highly focused on S&E staff. In the same three periods, FTP 
Professional Administrative hires numbered 77, 100, and 63, 
respectively, while term PA hires numbered 154, 215, and 121 yielding a 
ratio closer to about two-thirds term hiring.
    In sum, over the last three years, NASA has been hiring about 
three-quarters of its new S&E full-time outside hires under term 
contracts (as opposed to less than three percent in 1994) and has been 
hiring more than twice as many managers as scientists and engineers (as 
opposed to less than half as many in 1994).
    NASA management has created the alarming trends above by imposing 
strict quotas on the hiring of new permanent employees, thus forcing 
Centers to make improper term hires to fill long-term technical needs 
more properly served by a permanent hire. In other words, one of the 
premises of the question ``that term hiring is for work expected to 
last between 1-6 years'' is simply false within NASA's current 
implementation. Term hiring is performed because it is generally the 
only hiring permitted by HQ, not because of the specifics of the 
position. Furthermore, center-based quotas of permanent hires are 
linked to the number of permanent employees who leave each center. By 
arbitrarily linking the departure of 3 permanent employees to each 
permanent new hire each Center can have, HQ is also increasing its 
pressure on center management to harass older employees to retire.
    The data above are as of 6/23/07 and were acquired from http://
hqpowerplay.hq.nasa.gov/workforce/moredata.html
Specific Recommendations:
    IFPTE asks Congress to:

        <bullet>  Commission the GAO to audit NASA's use of term 
        positions over the last three years and determine to what 
        extent that authority has been abused.

                <bullet>  It appears that NASA is not the only federal 
                agency that has been using non-permanent S&E hiring 
                strategies that weaken the independence of government 
                technical experts, so perhaps this investigation should 
                be extended to all government agencies across the 
                executive branch that perform scientific or engineering 
                R&D.

        <bullet>  Direct NASA to convert all current terms positions to 
        permanent status unless they can explicitly demonstrate that, 
        for each term position, the Agency's need for the position's 
        skill/competency has an unambiguous programmatically defined 
        endpoint by the end of the term.

                <bullet>  Merely stating that future funding is unsure 
                is not an adequate rationale as all future federal 
                funding is by definition uncertain.

        <bullet>  Require NASA to return to a hiring policy whereby all 
        new hires default to permanent unless an explicit, written 
        justification is provided explaining why NASA's programmatic 
        need for that skill/competency clearly ends within a specified 
        term of less than six years.

                <bullet>  This exercise should be performed as proper 
                Human Resource protocol in the first place so this 
                proposal should not be considered burdensome.

        <bullet>  Cap NASA's use of term hires at 10 percent of outside 
        hires annually.

    In closing, IFPTE is very encouraged by recent changes in NASA's 
workforce posture that appear to indicate a renewed respect for in-
house talent and skills. Nonetheless, there are a number of remaining 
obstacles in the road ahead; those discussed above are only a few of 
them. The bottom line is that the National Research Council (NRC) 
report indicates that NASA will face a workforce crisis in the not-to-
distant future unless it immediately starts to educate, recruit, and 
train the next generation of technical employees, who should apprentice 
under the current NASA senior technical staff before they retire 
(indeed, this was the rationale for the rarely used retention bonuses 
in the Flexibility Act). The Administration is not heeding that advice 
because, as the Administrator has publicly stated, NASA has not been 
given adequate funds to do so. Over the last decade and a half, NASA 
has steadily lost 80 percent of its 35-year-old workforce and nothing 
is being done to stop that alarming trend. IFPTE adds its voice to the 
urgent call by the NRC and others for NASA to renew its intellectual 
infrastructure before the chain of knowledge and experience is broken. 
Congress should act to remedy this increasingly serious situation by 
appropriating and sequestering adequate funds for this endeavor and by 
directing the Administrator to begin an aggressive workforce renewal.
    Once again, IFPTE thanks Chairman Udall and Ranking Member Feeney 
for their keen interest in and dedication to NASA's success, and for 
the opportunity to bring the concerns of the NASA federal employees we 
represent to the attention of your subcommittee.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                SUPPLEMENTAL INFORMATION FOR THE RECORD
                     Statement of Dr. John Stewart,
                    Academy Fellow and Member of the
                   NASA Multi-sector Workforce Panel
    Mr. Chairman, I appreciated the opportunity to testify before the 
U.S. House Subcommittee on Space and Aeronautics on May 17, 2007 on 
behalf of the National Academy of Public Administration's NASA Multi-
sector Workforce Panel. The Panel's goal is the same as the 
Subcommittee's: to ensure the health and vitality of NASA's greatest 
asset, its civil service and contractor workforce. At the outset, it is 
important to understand that the Panel's recommendation for additional 
human capital flexibilities was designed to provide NASA with authority 
to restructure its workforce to meet new competency requirements while 
maintaining essential employees regardless of age. The Panel's 
recommendation does not authorize NASA to arbitrarily reduce staff or 
to discriminate based on age. Unlike the mandatory retirement of civil 
servants required by federal law until 1979, the proposal would protect 
NASA's ability to maintain essential employees of all ages.
    I am taking this opportunity to submit additional information for 
the record in four major areas:

        <bullet>  Scope of the Academy's project

        <bullet>  NASA's budgetary context

        <bullet>  NASA's need for proactive workforce management

        <bullet>  Proposals to overcome NASA's existing civil service 
        constraints

Scope of the Project

    This nearly year-long study was not conducted in a vacuum. The 
Panel and study team reached out to a wide range of stakeholders, 
traveled to eight of NASA's field centers, and conducted more than one 
hundred interviews, including meetings with labor representatives and 
contractor organizations. I was pleased to serve along-side five other 
Panel members who believe strongly in NASA. I am a longstanding former 
member of the Aerospace Safety Advisory Panel and for two years served 
as staff director of the U.S. Senate's Subcommittee on Science, 
Technology, and Space (1977-1979). Three of the other Panel members 
were long-time NASA executives at headquarters and at Goddard Space 
Flight Center. All of us care about NASA and want to be responsible 
stewards of its future.
    As explained in my testimony, the Panel was asked to answer some 
very specific questions about NASA's current workforce and field 
structure. Neither the Senate Appropriation Subcommittee nor NASA asked 
the Panel to evaluate the sufficiency of NASA's current or projected 
level of funding. Similarly, we were not asked to conduct a detailed 
assessment of the planned timeline for phasing-out the Space Shuttle, 
completing the International Space Station, developing the next-
generation launch vehicles, or establishing a permanent lunar outpost. 
The Administrator did not expect the Panel to make recommendations for 
dramatic changes to existing program plans, timetables, or budgets. The 
Panel believed its responsibility was to determine what kind of 
workforce would be required by NASA and to provide guidance on the 
work-based criteria and policies needed for the Agency to achieve this 
desired state. Recognizing that aeronautics and scientific competencies 
will be critical components of NASA's future workforce, for example, 
the Panel did recommend that NASA quantify the core workforce required 
to maintain and nurture these competencies over the long-term. The 
Panel cautioned, however, that NASA needs to avoid looking at 
disciplines and programs in isolation. Instead, it should evaluate 
competency needs and excesses across all programs and avoid a stove-
piped approach to competency management.

Budgetary Context

    In order to resolve NASA's workforce challenges, others have 
strongly advocated for increased funding, a dramatic reduction in 
contractor support, and a return to the civil service levels of the 
1960s as the panacea for NASA's workforce challenges. The Panel 
believes this approach is inconsistent with the notion of managerial 
and taxpayer accountability. It also ignores the fact that, with a 
proposed 3.1 percent increase in the President's FY 08 request, NASA's 
budget is already slated for a larger increase than the one percent 
average rate of growth for other domestic discretionary agencies. 
Although Congress certainly may appropriate additional funds for NASA, 
I personally believe this is unlikely given the ``pay-go'' system, 
which would require any increases to NASA to be paid for with cuts to 
other important federal programs.
    Unless Congress does decide to make significant, long-term 
increases to NASA's appropriation, NASA will have to deal with its 21st 
century challenges by developing a more balanced, optimally-sized, and 
skilled workforce tailored to current and projected mission needs. NASA 
could facilitate this transition by adopting a more proactive workforce 
strategy based on the use of innovative strategic planning mechanisms, 
objective data reliance, focused organizational health assessments, and 
work-based human capital reforms. This would enhance NASA's health and 
ensure its ability to safely meet its program milestones in a cost 
effective manner.
    Given the long-term fiscal challenges facing this country, I 
believe it would have been irresponsible, unrealistic, and inaccurate 
for the Panel to tell the Senate Appropriations Subcommittee that 
NASA's workforce problems could or should simply be solved with more 
money. Within the confines of the projected budget, the Panel provided 
an objective assessment of the alignment of the current NASA workforce 
with the new programs, the Agency's management strategies, and the 
tools required by NASA.
    The Panel believes that NASA management must be accountable for 
implementing the Vision, approved by the President and Congress, and 
setting priorities consistent with that Vision and within the budget 
appropriated.

Proactive Workforce Management

    The Panel applauds the work of NASA's civil servants and 
contractors, acknowledging them as the Agency's greatest asset. In 
examining the civil service portion of NASA's workforce, however, the 
Panel believed that NASA should be more proactive in making use of all 
available flexibilities--both those available to all federal agencies 
and those specifically authorized in the NASA Flexibilities Act of 
2004--to develop the workforce of the future. Specifically, we 
recommended that NASA expand its existing recruiting practices by 
establishing a nationally recognized, prestigious program to:

        4<bullet>  Attract exemplary applicants with technical and 
        administrative strengths.

        <bullet>  Focus on long-term core competency needs of the 
        Agency.

        <bullet>  Replenish the workforce after decades of hiring 
        freezes.

    We believed that the existing Distinguished Scholar Authority, 
authorized by the NASA Flexibilities Act, could be used as the lynchpin 
for establishing such a program and help NASA to recruit its next 
generation of leaders.
    In addition, we urged NASA to be much more proactive in 
establishing strategic partnerships with Federal, State, and local 
governments, as well as universities and non-profits. In many cases, 
NASA has an excess of certain competencies that may be useful to other 
organizations. By formally establishing a program to temporarily or 
permanently out-place blocks of employees with competencies no longer 
needed by the Agency, NASA would be able to widely share its talent 
with the Nation. We recommended that NASA:

        <bullet>  Use inter-agency details for assignments with other 
        federal partners.

        <bullet>  Partner with non-federal entities through the IPA 
        program.

    We also encouraged NASA to explore the possibility of strategically 
out-placing some existing research programs that NASA will not need in 
the future, but are important to the Nation as a whole. To this end, we 
recommended that NASA headquarters identify potential opportunities 
across the Agency and provide initial seed-money to the university, 
non-profit, or foundation assuming responsibility for the function. 
Affected field centers would then be expected to identify potential 
candidate institutions within their area and negotiate with them.

Overcoming Constraints

    At the same time, we were struck by the significance of existing 
civil service constraints. Even if NASA took all available 
discretionary actions, we believed it would not have sufficient 
flexibility to develop the required workforce. Accordingly, we 
recommended a package of additional statutory flexibilities. Several of 
these seem relatively uncontroversial:

        <bullet>  Congress should increase the monetary cap on buy-outs 
        to $35,000 and adjust for inflation in following years.

        <bullet>  OPM should grant NASA blanket authority to conduct 
        buy-outs over the next five years.

        <bullet>  Congress should authorize NASA to temporarily pay the 
        government's share of health care premiums for non-retiring 
        employees who agree to resign and are not otherwise eligible to 
        carry their benefits with them.

        <bullet>  OPM should grant NASA blanket authority to waive 
        salary offsets when recruiting reemployed federal annuitants 
        for critical areas.

    The Panel had two other recommendations that were more 
controversial and would require greater change within the existing 
civil service system. First, we believe that NASA deserves the same 
Reduction-in-Force (RIF) framework as the National Institutes of 
Standards and Technology (NIST). The existing RIF system is widely 
acknowledged to be counterproductive and expensive, as well as harmful 
to federal employees and organizational health. Accordingly, we urged 
Congress to exempt NASA from the Title 5 RIF rules by establishing a 
new RIF framework modeled on NIST's Alternative Personnel Management 
System. This system would:

        <bullet>  Define competitive areas in a more targeted manner, 
        such as career path.

        <bullet>  Limit both ``bumping'' and ``retreating'' to within 
        the same occupational series or specialty.

        <bullet>  Give enhanced weight to performance.

    Second, the Panel believes that Congress should provide NASA with 
limited emergency authority to invoke a fully eligible individual's 
retirement if he or she can no longer reasonably be utilized by the 
Agency. Some or all of the following criteria would have to be met:

        <bullet>  The employee's skills are no longer required for 
        mission accomplishment.

        <bullet>  The employee's skills are outdated or unnecessary, 
        and management determines that retraining would not be 
        practical, or the employee is unwilling to update skills.

        <bullet>  Funding for the employee's existing work is not 
        available.

        <bullet>  The employee's skills are not easily transferred to 
        other work.

    We believe retiring employees should be compensated fairly by being 
given severance pay in addition to earned annuities. This emergency 
statutory authority would provide NASA with one means to secure the 
expertise required for its highly complex mission, while protecting the 
safety and integrity of the space program.
    In conclusion, the Panel took very seriously its charge to think 
creatively about ways in which NASA might most effectively plan for its 
workforce of the future. The Panel did not make these recommendations 
without considerable study and forethought. Each recommendation is 
consistent with the goal articulated in NASA's Workforce Strategy: to 
develop a flexible, scalable workforce. While providing certain 
additional flexibilities to NASA to help it address critical competency 
shortfalls and excesses, the Panel's proposed package of flexibilities 
would preserve the best of the civil service system for the 21st 
century.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
